  DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General


      Independent Auditors’ Report On 

     DHS’ FY 2006 Financial Statements 





    (Excerpts from the DHS Performance 

         and Accountability Report) 





OIG-07-10                  November 2006
                                                                            Office of Inspector General

                                                                            U.S. Department of Homeland Security
                                                                            Washington, DC 20528




                                      November 15, 2006

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

The attached report represents Financial Information Part III excerpted from DHS’ Performance and
Accountability Report (PAR) and the results of the DHS financial statement audits for fiscal year FY
2006 and FY 2005. We contracted with the independent public accounting firm KPMG LLP
(KPMG) to perform the audits. The contract required that KPMG perform its audits according to
generally accepted government auditing standards and guidance from the Office of Management and
Budget and the Government Accountability Office. KPMG was unable to provide an opinion on
DHS’ balance sheet as of September 30, 2006 and 2005. The FY 2006 auditors’ report discusses 10
material weaknesses, 2 other reportable conditions in internal control, and instances of
noncompliance with 8 laws and regulations. KPMG is responsible for the attached auditor’s report
dated November 15, 2006, and the conclusions expressed in the report. We do not express opinions
on DHS’ financial statements or internal control or conclusions on compliance with laws and
regulations.

The recommendations herein have been discussed in draft with those responsible for
implementation. It is our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the preparation of this
report.




                                              Richard L. Skinner            

                                              Inspector General         

                                                                     Office of Inspector General

                                                                     U.S. Department of Homeland Security
                                                                     Washington, DC 20528




                                    November 15, 2006

MEMORANDUM FOR: 	            The Honorable Michael Chertoff
                             Secretary


FROM: 	                      Richard L. Skinner
                             Inspector General

SUBJECT: 	                   Independent Auditors’ Report on DHS’ FY 2006 Balance Sheet and
                             Statement of Custodial Activity


The attached report presents the results of the Department of Homeland Security’s financial
statement audits for fiscal year FY 2006 and FY 2005. These audits were required by the Chief
Financial Officers Act of 1990. This report is incorporated into the Department’s FY 2006
Performance and Accountability Report. We contracted with the independent public accounting
firm KPMG LLP (KPMG) to perform the audits.

The department made some progress at the component level to improve financial reporting during
FY 2006, although overall it still has much work remaining. For the third year, KPMG was unable
to provide an opinion on the department’s balance sheet, and the number of material weaknesses
remains at 10.

Summary

KPMG was unable to express an opinion on the department’s balance sheets as of September 30,
2006 and 2005, and on the statement of custodial activity for the year ended September 30, 2006.
The disclaimer of opinion was due primarily to financial reporting problems at 4 bureaus and at the
department level. The FY 2006 auditors’ report discusses 10 material weaknesses, 2 other reportable
conditions in internal control, and instances of non-compliance with 8 laws and regulations, as
follows:

             Reportable Conditions That Are Considered To Be Material Weaknesses

       A.   Financial Management and Oversight (Entity-level Controls)
       B.   Financial Reporting
       C.   Financial Systems Security
       D.   Fund Balance with Treasury
       E.   Property, Plant, and Equipment
       F. 	 Operating Materials and Supplies
       G. Legal and Other Liabilities
       H. Actuarial Liabilities
       I. 	Budgetary Accounting
       J. 	Intragovernmental Balances

                                    Other Reportable Conditions
       K. Environmental Liabilities
       L. Custodial Revenue and Drawback

                           Non-compliance with Laws And Regulations

       M. Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
       N. Federal Financial Management Improvement Act of 1996 (FFMIA)
       O. Federal Information Security Management Act of 2002
       P. 	 Single Audit Act Amendments of 1996, and Laws and Regulations Supporting OMB
            Circular No. A-50, Audit Follow-up, as revised
       Q. Improper Payments Information Act of 2002
       R. Chief Financial Officers Act of 1990
       S. 	 Government Performance and Results Act of 1993
       T. Debt Collection Improvement Act of 1996

Moving DHS’ Financial Management Forward

In FY 2006, the department gained new leadership in financial management with the confirmation of
a Presidentially appointed Chief Financial Officer. However, the department continued to struggle
with financial reporting during FY 2006. The Office of Financial Management, Coast Guard, TSA,
Federal Emergency Management Agency (FEMA), Immigration and Customs Enforcement (ICE),
and Management Directorate were unable to provide sufficient evidence to support account balances
presented in the financial statements and collectively contributed to the auditors’ inability to render
an opinion. Further, DHS management and three of its major components (Coast Guard, TSA, and
ICE) were unable to represent that the financial statements were presented in conformity with U.S.
generally accepted accounting principles.

At the component level, there was some progress in addressing internal control weaknesses. ICE
achieved the greatest improvement in financial management and reporting in FY 2006. Contributing
to 10 material weaknesses in FY 2005, it contributed to only 1 material weakness in FY 2006. ICE
mitigated the severity of its material weaknesses through corrective actions implemented during
2006, but has not completely resolved its internal control problems.

The Coast Guard began FY 2006 with a focus on financial management oversight, financial
reporting, and fund balance with Treasury. Unfortunately, progress has been slow and the auditors
again reported that the Coast Guard did not have an organizational structure that fully supported the
development and implementation of effective policies, procedures, and internal controls.
Management officials within the Coast Guard acknowledged to the auditors that longstanding
procedural, control, personnel, and cultural issues existed and had impeded their progress in
installing an effective financial management structure. The auditors reported that the Coast Guard’s



                                                                                                     2
personnel rotation policy, among other issues, made it difficult for the Coast Guard’s Chief Financial
Officer to institutionalize internal controls related to financial management and reporting.

Many of the department’s difficulties in financial management and reporting can be attributed to the
original stand-up of a large, new, and complex executive branch agency without adequate
organizational expertise in financial management and accounting. The department has recently
committed to obtaining additional human resources and other critical infrastructure necessary to
develop reliable financial processes, polices, procedures, and internal controls that will enable
management to represent that financial statements are complete and accurate. These resources and
infrastructure are critical to the implementation of effective corrective actions and to establishing an
effective financial management oversight function. During the past year, the department and its
components began an extensive effort to develop meaningful corrective action plans to address
specific material internal control weaknesses. We are evaluating the effectiveness of those
corrective action plans in a separate series of audits.



                                               *****

KPMG is responsible for the attached independent auditor's report dated November 15, 2006, and
the conclusions expressed in the report. We do not express opinions on the financial statements or
internal control or conclusions on compliance with laws and regulations.

Consistent with our responsibility under the Inspector General Act, we are providing copies of this
report to appropriate congressional committees with oversight and appropriation responsibilities over
the department. In addition, we will post a copy of the report on our public website.

We requested that each of the department’s financial officers provide us with a corrective action plan
that demonstrates their progress in addressing the report’s recommendations.

We appreciate the cooperation extended to the auditors by the department’s financial offices.
Should you have any questions, please call me, or your staff may contact David M. Zavada,
Assistant Inspector General for Audits, at 202-254-4100.

Attachment




                                                                                                       3
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                                    INDEPENDENT AUDITORS’ REPORT


Secretary and Inspector General
U.S. Department of Homeland Security:

We were engaged to audit the accompanying balance sheets of the U.S. Department of Homeland
Security (DHS) as of September 30, 2006 and 2005, and the related statement of custodial activity for the
year ended September 30, 2006 (referred to herein as “financial statements”). In connection with our
fiscal year 2006 audit, we also considered DHS’ internal controls over financial reporting, Required
Supplemental Stewardship Information (RSSI), and performance measures, and DHS’ compliance with
certain provisions of applicable laws, regulations, contracts, and grant agreements that could have a direct
and material effect on these financial statements. We were not engaged to audit the accompanying
statements of net cost, changes in net position, budgetary resources, and financing, for the years ended
September 30, 2006 and 2005, or the statement of custodial activity for the year ended September 30,
2005 (referred to herein as “other fiscal year 2006 and 2005 financial statements”).

Summary

As discussed in our report on the financial statements, the scope of our work was not sufficient to express
an opinion on the DHS balance sheets as of September 30, 2006 and 2005, or the related statement of
custodial activity for the year ended September 30, 2006.
Our report indicates that DHS adopted new reporting requirements for earmarked funds in fiscal year
2006.
Our consideration of internal controls over financial reporting, RSSI, and performance measures resulted
in the following conditions being identified as reportable conditions:
     A.   Financial Management and Oversight (Entity-level Controls)
     B.   Financial Reporting
     C.   Financial Systems Security
     D.   Fund Balance with Treasury
     E.   Property, Plant, and Equipment
     F.   Operating Materials and Supplies
     G.   Legal and Other Liabilities
     H.   Actuarial Liabilities
     I.   Budgetary Accounting
     J.   Intragovernmental Balances
     K.   Environmental Liabilities
     L.   Custodial Revenue and Drawback
We consider reportable conditions A through J, above, to be material weaknesses.
The results of our tests of compliance with certain provisions of laws, regulations, contracts, and grant
agreements disclosed the following instances of noncompliance or other matters that are required to be
reported under Government Auditing Standards, issued by the Comptroller General of the United States,
and Office of Management and Budget (OMB) Bulletin No. 06-03, Audit Requirements for Federal
Financial Statements:
     M. Federal Managers’ Financial Integrity Act of 1982
     N.	 Federal Financial Management Improvement Act of 1996 (FFMIA)
     O.	 Federal Information Security Management Act of 2002
     P.	 Single Audit Act Amendments of 1996, and Laws and Regulations Supporting OMB Circular No.
         A-50, Audit Follow-up (as revised)
     Q.	 Improper Payments Information Act of 2002
     R.	 Chief Financial Officers Act of 1990
     S.	 Government Performance and Results Act of 1993
     T.	 Debt Collection Improvement Act of 1996
We also reported other matters related to compliance with the Anti-deficiency Act at Transportation
Security Administration (TSA) and the Federal Law Enforcement Training Center (FLETC).
Other internal control matters and other instances of non-compliance may have been identified and
reported had we been able to perform all procedures necessary to express an opinion on the DHS balance
sheets as of September 30, 2006 and 2005, and the related statement of custodial activity for the year
ended September 30, 2006, and had we been engaged to audit the other fiscal year 2006 and 2005
financial statements.
The following sections discuss the reasons why we are unable to express an opinion on the accompanying
DHS balance sheets as of September 30, 2006 and 2005, and on the statement of custodial activity for the
year ended September 30, 2006; our consideration of DHS’ internal controls over financial reporting,
RSSI, and performance measures; our tests of DHS’ compliance with certain provisions of applicable
laws, regulations, contracts, and grant agreements and other matters; and management’s and our
responsibilities.

Report on the Financial Statements

We were engaged to audit the accompanying balance sheets of the U.S. Department of Homeland
Security as of September 30, 2006 and 2005, and the related statement of custodial activity for the year
ended September 30, 2006. We were not engaged to audit the accompanying statements of net cost,
changes in net position, budgetary resources, and financing for the years ended September 30, 2006 and
2005, and the statement of custodial activity for the year ended September 30, 2005.
The United States Coast Guard (Coast Guard) was unable to provide sufficient evidential matter or make
knowledgeable representations of facts and circumstances, that support transactions and account balances
of the Coast Guard, as presented in the DHS balance sheets at September 30, 2006 and 2005; particularly
with respect to fund balance with Treasury, accounts receivable, actuarially-derived liabilities,
environmental and legal liabilities, operating materials and supplies, certain categories of property, plant
and equipment, undelivered orders and changes in net position, and adjustments, both manual and
automated, made as part of Coast Guard’s financial reporting process. The Coast Guard was unable to
complete corrective actions, and make adjustments, as necessary, to these and other balance sheet
amounts, prior to the completion of the DHS 2006 Performance and Accountability Report (PAR).
Because of the significance of these account balances and/or transactions and conditions noted above,
Coast Guard management was unable to represent that the Coast Guard’s balance sheets as of September
30, 2006 and 2005, were fairly stated in conformity with U.S. generally accepted accounting principles.
The total assets of Coast Guard, as reported in the accompanying DHS balance sheet as of September 30,
2006, were $12.5 billion or 16 percent of total DHS consolidated assets. The total assets of Coast Guard,
as reported in the accompanying DHS balance sheet as of September 30, 2005, were $11.4 billion or 10
percent of total DHS consolidated assets.
DHS Office of Financial Management (OFM) was unable to provide sufficient evidential matter
supporting the completeness and accuracy of the Department’s accrued legal liability totaling $71 million
as of September 30, 2006, and related contingent legal liabilities as disclosed in Note 21 of the financial
statements. In addition, OFM was unable to reconcile intragovernmental transactions and balances with
other Federal trading partners totaling approximately $3.5 billion, as of September 30, 2006, which could


                                                      2

affect the intragovernmental information presented in the balance sheet; and was unable to provide
sufficient evidential matter or make knowledgeable representations of the facts and circumstances that
support its implementation of Statement of Federal Financial Accounting Standard (SFFAS) No. 27,
Identifying and Reporting Earmarked Funds, prior to the completion of DHS’ 2006 PAR. In fiscal year
2005, OFM was unable to reconcile intragovernmental transactions and balances with other Federal
trading partners totaling $1.6 billion, as of September 30, 2005 prior to the completion of DHS’ 2005
PAR.
TSA was unable to provide sufficient evidential matter or make knowledgeable representations of facts
and circumstances that support certain transactions and account balances of TSA, as presented in the DHS
balance sheet at September 30, 2006, particularly with respect to property and equipment, accounts
payable, accrued unfunded employee leave, and the components of net position. TSA was unable to
complete corrective actions and make adjustments, as necessary, to these and other balance sheet
amounts, prior to the completion of the DHS’ 2006 PAR. Because of the significance of these account
balances and/or transactions and conditions noted above, TSA management was unable to represent that
TSA’s balance sheet as of September 30, 2006, was fairly stated in conformity with U.S. generally
accepted accounting principles. The total assets of TSA as reported in the accompanying DHS balance
sheet as of September 30, 2006, were $4.1 billion or 5 percent of DHS consolidated assets. In fiscal year
2005, TSA was unable to fully reconcile and support the accuracy and completeness of its accounts
payable with the public and net position as of September 30, 2005 prior to the completion of DHS’ 2005
PAR. The total TSA accounts payable with the public as reported in the accompanying DHS balance
sheet as of September 30, 2005, was $864 million or 26 percent, of DHS consolidated accounts payable
with the public and 1.2 percent of DHS consolidated liabilities at September 30, 2005. The total net
position of TSA as reported in the accompanying DHS balance sheet as of September 30, 2005, was $2.4
billion or 5.4 percent of DHS consolidated net position at September 30, 2005.
FEMA was unable to fully support the accuracy and completeness of certain unpaid obligations and
accounts payable, and the related effect on net position, if any, prior to the completion of DHS’ 2006
PAR. These unpaid obligations, as reported in the accompanying DHS balance sheet as of September 30,
2006, were $22.3 billion or 46 percent of DHS consolidated unexpended appropriations at September 30,
2006. These accounts payable, as reported in the DHS balance sheet as of September 30, 2006, were $1.5
billion or 32 percent of DHS consolidated accounts payable at September 30, 2006. In fiscal year 2005,
FEMA was unable to fully support the accuracy and completeness of certain components of its deferred
revenue and accounts payable, and the related effect on net position, if any, prior to the completion of
DHS’ 2005 PAR. These liabilities, as reported in the accompanying DHS balance sheet as of September
30, 2005, were $1.7 billion or 2.4 percent of consolidated total liabilities at September 30, 2005.
Immigration and Customs Enforcement (ICE), was unable to fully support the accuracy and completeness
of certain accounts payable and undelivered orders, and the related effect on net position, if any, prior to
the completion of DHS’ 2006 PAR. These accounts payable and undelivered orders, as reported in the
accompanying DHS balance sheet as of September 30, 2006, were $309 million or 7 percent of
consolidated total accounts payable, and $1.2 billion or 2.5 percent of DHS consolidated unexpended
appropriations at September 30, 2006, respectively. In fiscal year 2005, ICE management did not
perform timely reconciliations and was unable to provide sufficient evidential matter that supported the
balance sheet accounts of ICE and certain other DHS components (for which ICE is the accounting
service provider), as presented in the accompanying DHS balance sheet as of September 30, 2005, and
could not make knowledgeable representation of facts and circumstances regarding accounting and
budgetary transactions that occurred in fiscal year 2005. Because of the significance of these account
balances and transactions, and condition noted above, ICE management was unable to represent that ICE
balance sheet as of September 30, 2005, was fairly stated in conformity with U.S. generally accepted
accounting principles. The total assets of ICE and other DHS components, as reported in the
accompanying DHS balance sheet as of September 30, 2005, were $5.9 billion or 5.1 percent of DHS
consolidated assets at September 30, 2005.



                                                      3

The Management Directorate was unable to fully support the accuracy and completeness of certain
accounts payable and undelivered orders, and the related effect on net position, if any, prior to the
completion of DHS’ 2006 PAR. These accounts payable and undelivered orders, as reported in the
accompanying DHS balance sheet as of September 30, 2006, were $70 million or 1.5 percent of
consolidated total accounts payable, and $529 million or 1.1 percent of DHS consolidated unexpended
appropriations at September 30, 2006, respectively.
In fiscal year 2005, Grants and Training (G&T) (formerly State and Local Government Coordination and
Preparedness) was unable to resolve discrepancies identified in the data underlying the calculation of its
grants payable liability, and the related effect on net position, if any, at September 30, 2005, prior to the
completion of DHS’ 2005 PAR . G&T grants payable, as reported in the accompanying DHS balance
sheet at September 30, 2005, is $171 million or 0.2 percent of consolidated total liabilities.
In addition, we were unable to obtain appropriate representations from DHS management, including
certain representations as to compliance with U.S. generally accepted accounting principles, with respect
to the accompanying DHS balance sheets as of September 30, 2006 and 2005, and were unable to
determine the effect of the lack of such representations on 2006 and 2005 DHS’ financial statements.
It was impractical to extend our procedures sufficiently to determine the extent, if any, to which the DHS
balance sheets as of September 30, 2006 and 2005, and statement of custodial activity for the year ended
September 30, 2006, may have been affected by the matters discussed in the eight preceding paragraphs.
Accordingly, the scope of our work was not sufficient to enable us to express, and we do not express, an
opinion on the accompanying DHS balance sheets as of September 30, 2006 and 2005, and the statement
of custodial activity for the year ended September 30, 2006.
We were not engaged to audit the accompanying statements of net cost, changes in net position,
budgetary resources, and financing for the years ended September 30, 2006 and 2005, and the statement
of custodial activity for the year ended September 30, 2005, and accordingly, we do not express an
opinion on these financial statements.
As discussed in Note 34, DHS restated its fiscal year 2005 financial statements to correct multiple errors
identified by the Coast Guard, TSA, ICE and other DHS components, that required adjustment of
balances previously reported in DHS’ fiscal year 2005 financial statements. Because of the matters
discussed above regarding our audits of Coast Guard, TSA and ICE, we were unable to audit the
restatements discussed in Note 34, and accordingly, we have not concluded on the appropriateness of this
accounting treatment or the restatement of the DHS balance sheet as of September 30, 2005.
As discussed in Note 22, DHS adopted the provisions of SFFAS No. 27, in fiscal year 2006. Because of
the matters discussed above in the third paragraph of this section, we have not concluded on the
appropriateness of the accounting or presentation of earmarked funds in the September 30, 2006 balance
sheet or notes thereto.
The information in the Management’s Discussion and Analysis (MD&A), RSSI, and Required
Supplementary Information (RSI) sections is not a required part of the financial statements, but is
supplementary information required by U.S. generally accepted accounting principles and OMB Circular
No. A-136, Financial Reporting Requirements. We were unable to complete limited procedures over
MD&A, RSSI, and RSI as prescribed by professional standards, because of the limitations on the scope of
our audit described in the previous paragraphs of this section of our report. Certain information
presented in the MD&A, RSSI, and RSI is based on fiscal year 2006 and 2005 financial statements on
which we have not expressed an opinion. We did not audit the MD&A, RSSI, and RSI and, accordingly,
we express no opinion on it. However, in fiscal year 2006 we noted that DHS did not present five years
of RSSI information as required by SFFAS No. 8 Supplementary Stewardship Reporting and OMB
Circular A-136.
The information in pages 1 through 4, Section II – Performance Information, Section IV – Other
Accompanying Information, and Section V – Appendices, of DHS’ 2006 PAR are presented for purposes


                                                       4

of additional analysis, and are not a required part of the financial statements. This information has not
been subjected to auditing procedures, and accordingly, we express no opinion on it.

Internal Control over Financial Reporting

Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be reportable conditions. Under standards issued
by the American Institute of Certified Public Accountants, reportable conditions are matters coming to
our attention relating to significant deficiencies in the design or operation of the internal control over
financial reporting that, in our judgment, could adversely affect DHS’ ability to record, process,
summarize, and report financial data consistent with the assertions by management in the financial
statements.
Material weaknesses are reportable conditions in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that misstatements caused by
error or fraud, in amounts that would be material in relation to the financial statements being audited, may
occur and not be detected within a timely period by employees in the normal course of performing their
assigned functions. Because of inherent limitations in internal control, misstatements due to error or
fraud may nevertheless occur and not be detected.
We noted certain matters, described in Exhibits I and II involving internal control over financial reporting
and its operation that we consider to be reportable conditions. We believe that reportable conditions A
through J presented in Exhibit I are material weaknesses. Exhibit II represents other reportable conditions
K and L. As discussed in the report on the financial statements section, the scope of our work was not
sufficient to express an opinion on the balance sheets as of September 30, 2006 and 2005, and the
statement of custodial activity for the year ended September 30, 2006, and accordingly, other internal
control matters may have been identified and reported had we been able to perform all procedures
necessary to express an opinion on those financial statements, and had we been engaged to audit the other
fiscal year 2006 and 2005 financial statements. A summary of the status of fiscal year 2005 reportable
conditions is included as Exhibit IV.
We also noted other matters involving internal control over financial reporting and its operation that we
will report to the management of DHS in a separate letter dated November 15, 2006.

Internal Controls over Required Supplementary Stewardship Information and Performance
Measure

Under OMB Bulletin No. 06-03, the definition of material weaknesses is extended to other controls as
follows. Material weaknesses are reportable conditions in which the design or operation of one or more
of the internal control components does not reduce to a relatively low level the risk that misstatements
caused by error or fraud, in amounts that would be material in relation to the RSSI or material to a
performance measure or aggregation of related performance measures, may occur and not be detected
within a timely period by employees in the normal course of performing their assigned functions.
Because of inherent limitations in internal control, misstatements due to error or fraud may nevertheless
occur and not be detected.
Our consideration of the internal control over the RSSI and the design and operation of internal control
over the existence and completeness assertions related to key performance measures would not
necessarily disclose all matters involving the internal control and its operation related to RSSI or the
design and operation of the internal control over the existence and completeness assertions related to key
performance measures that might be reportable conditions.
We noted reportable conditions in internal control over RSSI in Exhibit I – Comment B – Financial
Reporting that, in our judgment, could adversely affect the DHS’ ability to collect, process, record, and



                                                      5

summarize RSSI. We believe that the reportable conditions presented in Exhibit I are material weaknesses
as defined above.
As discussed in the report on the financial statements section, the scope of our work was not sufficient to
express an opinion on the balance sheets as of September 30, 2006 and 2005, and the statement of
custodial activity for the year ended September 30, 2006 and accordingly, other internal control matters
affecting RSSI and performance measures may have been identified and reported had we been able to
perform all procedures necessary to express an opinion on those financial statements, and had we been
engaged to audit the other fiscal year 2006 and 2005 financial statements.

Compliance and Other Matters

Our tests of compliance with certain provisions of laws, regulations, contracts, and grant agreements, as
described in the Responsibilities section of this report, exclusive of those referred to in the FFMIA,
disclosed seven instances of noncompliance that are required to be reported under Government Auditing
Standards or OMB Bulletin No. 06-03, and are described in Exhibit III.
The results of our tests of compliance with certain provisions of other laws and regulations, exclusive of
those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to
be reported under Government Auditing Standards or OMB Bulletin No. 06-03.
The results of our tests of FFMIA, disclosed instances described in Exhibits I and II – Comments B
through L, where DHS’ financial management systems did not substantially comply with Federal
financial management systems requirements, applicable Federal accounting standards, and the United
States Government Standard General Ledger at the transaction level.
As discussed in our report on the financial statements, the scope of our work was not sufficient to express
an opinion on the balance sheets as of September 30, 2006 and 2005, and the statement of custodial
activity for the year ended September 30, 2006, and accordingly, other instances of non-compliance with
laws, regulations, contracts, and grant agreements may have been identified and reported, had we been
able to perform all procedures necessary to express an opinion on those financial statements, and had we
been engaged to audit the other fiscal year 2006 and 2005 financial statements.
Other Matters. TSA management reviewed the completeness of obligations recorded in its accounting
records, and concluded that a violation of the Anti-deficiency Act may have occurred in fiscal years prior
to 2006. This matter has been referred to the Chief Financial Officer for further review and disposition.
In addition, FLETC management has initiated a review of the classification of certain liabilities, recorded
in their accounting records that may identify a violation of the Anti-deficiency Act, or other violations of
appropriation law that may have occurred during fiscal year 2006 or during earlier years.

Management’s Response to Internal Control and Compliance Findings

DHS management has indicated, in a separate letter immediately following this report that it concurs with
the findings presented in Exhibits I, II and III of our report. Further, they have responded that they will
take corrective action, as necessary, to ensure that the Chief Financial Officer and the respective bureau
management within DHS address the matters presented herein.

Responsibilities

Management’s Responsibilities. The United States Code, Title 31, Sections 3515 and 9106 require
agencies to report annually to Congress on their financial status and any other information needed to
fairly present their financial position and results of operations. To meet these reporting requirements,
DHS prepares and submits financial statements in accordance with OMB Circular No. A-136.
Management is responsible for the financial statements, including:



                                                      6

   •	 Preparing the financial statements in conformity with U.S. generally accepted accounting 

      principles; 

   •	 Preparing the MD&A (including the performance measures), RSI, and RSSI;
   •	 Establishing and maintaining effective internal control; and
   •	 Complying with laws, regulations, contracts, and grant agreements applicable to DHS, including
      FFMIA.
In fulfilling this responsibility, management is required to make estimates and judgments to assess the
expected benefits and related costs of internal control policies.
Auditors’ Responsibilities. As discussed in the report on the financial statements section, the scope of
our work was not sufficient to enable us to express, and we do not express, an opinion on the DHS
balance sheets as of September 30, 2006 and 2005, or on the statement of custodial activity for the year
ended September 30, 2006, and we were not engaged to audit the accompanying statements of net cost,
changes in net position, budgetary resources, and financing for the years ended September 30, 2006 and
2005, and the statement of custodial activity for the year ended September 30, 2005.
In connection with our fiscal year 2006 engagement, we considered DHS’ internal control over financial
reporting by obtaining an understanding of DHS’ internal control, determining whether internal controls
had been placed in operation, assessing control risk, and performing tests of controls in order to determine
our procedures. We limited our internal control testing to those controls necessary to achieve the
objectives described in Government Auditing Standards and OMB Bulletin No. 06-03. We did not test all
internal controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act of 1982. The objective of our engagement was not to provide an opinion on DHS’ internal
control over financial reporting. Consequently, we do not provide an opinion thereon. Further, other
matters involving internal control over financial reporting may have been identified and reported had we
been able to perform all procedures necessary to express an opinion on the DHS balance sheet as of
September 30, 2006, and the statement of custodial activity for the year then ended, and had we been
engaged to audit the other fiscal year 2006 financial statements.
In connection with our fiscal year 2006 engagement, we considered DHS’ internal control over the RSSI
by obtaining an understanding of DHS’ internal control, determining whether these internal controls had
been placed in operation, assessing control risk, and performing tests of controls. We limited our testing
to those controls necessary to test and report on the internal control over RSSI in accordance with OMB
Bulletin No. 06-03. However, our procedures were not designed to provide an opinion on internal control
over the RSSI and, accordingly, we do not provide an opinion thereon. Further, other matters involving
internal control over RSSI may have been identified and reported had we been able to perform all
procedures necessary to express an opinion on the DHS balance sheet as of September 30, 2006, and
statement of custodial activity for the year then ended, and had we been engaged to audit the other fiscal
year 2006 financial statements.
OMB Bulletin No. 06-03 requires auditors, with respect to internal control related to performance
measures determined by management to be key and reported in the MD&A and Performance Information
sections, to obtain an understanding of the design of internal controls relating to the existence and
completeness assertions and to determine whether these internal controls had been placed in operation.
We limited our testing to those controls necessary to test and report on the internal control over key
performance measures in accordance with OMB Bulletin No. 06-03. Our procedures were not designed
to provide assurance on internal controls over performance measures and, accordingly, we do not provide
an opinion thereon. As discussed in our report on the financial statements, we were unable to complete
procedures over the MD&A and performance measures presented in DHS’ 2006 PAR.
In connection with our fiscal year 2006 engagement, we performed tests of DHS’ compliance with certain
provisions of laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of the balance sheet amounts as of September 30, 2006,
and the statement of custodial activity for the year then ended, and certain provisions of other laws and


                                                      7

regulations specified in OMB Bulletin No. 06-03, including certain provisions referred to in FFMIA. We
limited our tests of compliance to the provisions described in the preceding sentence, and we did not test
compliance with all laws, regulations, contracts, and grant agreements applicable to the DHS. However,
providing an opinion on compliance with laws, regulations, contracts, and grant agreements was not an
objective of our engagement and, accordingly, we do not express such an opinion. In addition, other
matters involving compliance with laws, regulations, contracts, and grant agreements may have been
identified and reported had we been able to perform all procedures necessary to express an opinion on the
DHS balance sheet as of September 30, 2006, and the statement of custodial activity for the year then
ended, and had we been engaged to audit the other fiscal year 2006 financial statements.
Under OMB Bulletin No. 06-03 and FFMIA, we are required to report whether DHS’ financial
management systems substantially comply with (1) Federal financial management systems requirements,
(2) applicable Federal accounting standards, and (3) the United States Government Standard General
Ledger at the transaction level. To meet this requirement, we performed tests of compliance with FFMIA
Section 803(a) requirements. However, as discussed in our report on the financial statements, the scope
of our work was not sufficient to express an opinion on the balance sheet as of September 30, 2006, and
the statement of custodial activity for the year then ended, and accordingly, other instances of non
compliance may have been identified and reported, had we been able to perform all procedures necessary
to express an opinion on the those financial statements, and had we been engaged to audit the other fiscal
year 2006 financial statements.

Restricted Use

This report is intended solely for the information and use of DHS management, DHS Office of Inspector
General, OMB, U.S. Government Accountability Office, and the U.S. Congress, and is not intended to be
and should not be used by anyone other than these specified parties.




November 15, 2006




                                                     8

Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control


Introduction and Summary of Findings by Component
Our report on internal control over financial reporting is presented in accordance with
Government Auditing Standards, published by the U.S. Government Accountability Office
(GAO). Exhibit I presents the reportable conditions that we consider to be material weaknesses,
and Exhibit II presents other reportable conditions. The internal control weaknesses presented in
Exhibits I and II were identified during our engagement to audit the Department of Homeland
Security (DHS or Department) balance sheet and statement of custodial activity as of and for the
year ended September 30, 2006.
We have also performed follow-up procedures on findings identified in previous engagements.
As stated in our report, our consideration of internal control over financial reporting would not
necessarily disclose all matters that might be reportable conditions. We were not engaged to
audit all of the Department’s financial statements in fiscal year 2006. In addition, the scope of our
work was not sufficient to express an opinion on the financial statements that we were engaged to
audit, consequently, other internal control matters may have been identified and reported had we
been engaged to audit all fiscal year 2006 financial statements, and had we been able to perform
all procedures necessary to express an opinion on those financial statements.
Within each finding, except for Financial Systems Security, we have separately reported the
conditions at each DHS component that contribute to the overall internal control weakness. The
determination of which findings rise to the level of a material weakness is based on an evaluation
of how all component conditions, considered in aggregate, may affect the DHS balance sheet as
of September 30, 2006 or the statement of custodial activity for the year then ended. The DHS
components that contributed to each internal control weakness are identified in the following
table:

          Internal Control Finding                                 Contributing DHS Component
                                              OFM     USCG   TSA     FEMA   CBP    ICE   G&T    US      FLETC   MGT
                                                                                                Visit
Material Weaknesses:
A Financial Management & Oversight             X       X
B Financial Reporting                          X       X      X
C Financial Systems Security1
D Fund Balance with Treasury                           X
E Property, Plant, and Equipment                       X      X                                  X
F Operating Materials and Supplies                     X
G Legal and Other Liabilities                  X       X      X       X                  X
H Actuarial Liabilities                                X
I Budgetary Accounting                                 X      X       X            X             X              X
J Intragovernmental Balances                   X
Other Reportable Conditions:
K Environmental Liabilities                            X                                                 X
L Custodial Revenue and Drawback                                               X


The severity of the conditions discussed in Exhibit I caused the Secretary and CFO to issue a
statement of “no assurance” on internal control over financial reporting in 2006. In addition, the
CFOs of various DHS components were unable to render unqualified assurances on the accuracy
and completeness of certain financial statement line items.


1
    All DHS components contribute to the Financial Systems Security finding.


                                                    I. 1                                        (continued)
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

A. 	Financial Management and Oversight (Entity-Level Controls)

Background: In fiscal year 2005, we reported that the DHS Office of the Chief Financial Officer
(OCFO) had taken several positive steps during the year to correct control weaknesses we
reported in previous years. Progress continued in fiscal year 2006, and we have seen signs of
momentum through the leadership of the Department’s recently confirmed Chief Financial
Officer (CFO). However, challenges remain due, in part, to the continued transition of the
Department. DHS’ Office of Financial Management (OFM) is responsible for establishing and
maintaining financial policies that guide financial reporting throughout the Department,
implementing internal controls to ensure the overall integrity of financial data, and preparing
periodic financial statements, as well as drafting the annual Performance and Accountability
Report (PAR). Several conditions cited in the prior year are repeated this year, and we identified
additional weaknesses in OFM financial management and oversight controls.
In fiscal year 2005, we reported that significant weaknesses in financial management oversight
hindered the United States Coast Guard’s (Coast Guard) ability to prepare accurate, complete,
and timely financial information. Those conditions have not been corrected since the inception of
the Department in 2003, and continue to affect Coast Guard’s financial management and
reporting processes. Further, as described below, the Coast Guard is presently developing its
Corrective Action Plan (CAP)’s however, has not yet taken significant actions to address the
condition cited below.
In fiscal year 2005, we also reported that financial management and oversight at Immigration and
Customs Enforcement (ICE) was a material weakness, principally because its financial systems,
processes, and control activities were inadequate to provide accounting services to itself and five
other substantial DHS components. In fiscal year 2006, ICE initiated a CAP to remediate control
weaknesses reported in previous years. While ICE has not fully completed its CAPs in all
processes, sufficient progress has been made to remove the ICE financial management and
oversight conditions cited in our 2005 report.
Conditions: Many of the conditions described below are indicators of a weak control
environment2 or entity-level controls. The control environment begins at the top with the
Secretary, and permeates the organization with a mindset of quality, care, and commitment of
resources to reasonably ensure the integrity of DHS’ financial processes, controls, and
information technology (IT) systems. We noted the following conditions related to the control
environment which existed in prior years, and have been updated for this report.

1   Coast Guard has not:
    •	 Fully implemented a financial management organizational structure that supports the
       development and implementation of effective policies, procedures, and internal controls
       to determine data supporting financial statement assertions are complete and accurate.
    •	 Established clear financial management oversight responsibilities and processes to review
       adjustments to account balances, identify the cause of abnormal balances, and account
       relationship discrepancies, e.g., budgetary to proprietary reconciliations, and assess
       potential financial system problems, such as potential posting logic errors and automated
       changes to financial data through scripts (system modifications).


2
  Regarding the control environment, the GAO Standards for Internal Control in the Federal Government,
states; “Management and employees should establish and maintain an environment throughout the
organization that sets a positive and supportive attitude toward internal control and conscientious
management.”


                                                  I. 2                                      (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

    •	 Fully established financial management oversight functions with the appropriate skills
       and resources to determine that accounting principles are correctly applied and to provide
       accounting operational guidance to other offices and facilities within the Coast Guard.
    •	 Completed a comprehensive CAP to correct longstanding internal control weaknesses that
       are contributing to each of the ten Department level material weaknesses, as required by
       Office of Management and Budget (OMB) Circular No. A-50, Audit Follow-up, as
       revised.
2   OFM:
    •	 While the OFM is staffed with exceptionally dedicated management and staff, additional
       managerial level skill sets are needed to fully accomplish OFM responsibilities. OFM
       does not have a sufficient number of management personnel who have the requisite
       financial accounting background, knowledge, and expertise, to both (i) set-up, and (ii)
       effectively manage the financial reporting and internal control infrastructure of a large
       and complex Executive Branch agency. Supporting conditions include the need to:
       -   Establish an organizational structure and complete job descriptions, based on a
           comprehensive independent human capital needs assessment, to determine the roles,
           responsibilities, and functions to be performed, and the skill sets of personnel
           necessary to perform those functions. Consequently, some critical responsibilities of
           a headquarters financial reporting operation are not well defined or are not performed
           timely and effectively; and
       -   Develop the capacity to completely and timely address non-routine or complex
           accounting and reporting matters, such as the implementation of new accounting
           standards. For example, the Department did not complete its implementation of
           Statement of Federal Financial Accounting Standard (SFFAS) No. 27, Identifying and
           Reporting Earmarked Funds, until we notified OFM of the information and analysis
           required, and OFM was unable to provide sufficient evidential matter or make
           knowledgeable representations of the facts and circumstances to support its
           implementation of SFFAS No. 27, prior to the completion of DHS’ 2006 PAR.
    •	 Has not yet established effective oversight and control procedures throughout the year to
       monitor the operations of DHS components to promptly identify and raise issues to the
       CFO that may affect the quality of the financial statements. This weakness contributed to
       the need for more than six restatements of the fiscal year 2005 financial statements to
       correct material errors presented in the 2005 PAR. Further, several components
       submitted restatements that were not fully identified, analyzed, and recorded in the 2005
       financial statements, until two weeks before the submission of the 2006 PAR.
    •	 Has not yet established a process to support the timely completion of the annual financial
       statement audit. For example, OFM was unable to coordinate requests for sufficient
       evidential matter supporting the completeness and accuracy of the Department’s accrued
       legal liability, totaling $71 million as of September 30, 2006, as necessary to complete
       our testwork prior to the completion of DHS’ 2006 PAR. In addition, many routine audit
       testwork procedures typically performed throughout the year were delayed until year-end,
       further hindering the timely completion of our engagement.
Cause/Effect: DHS has attempted the stand-up of a large, new, and complex Executive Branch
agency, without the assistance of specialized organizational and accounting expertise. The
Department has recently made commitments in financial management and accounting personnel
and other critical infrastructure necessary to develop reliable financial processes, policies and



                                               I. 3                                     (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

procedures, and internal controls that enable management to represent that the Department’s
financial statements are complete and accurate. In fiscal year 2006, the OCFO and OFM were
affected by the departure and transition to a new CFO, the departure of the Under Secretary of
Management; and a restructuring and redistribution of roles and responsibilities within OFM.
However, these transitions have resulted in a continued heavy dependency on the independent
auditor to inform OFM of the steps needed to implement new accounting standards, record non-
routine transactions, issue accounting guidance to components, identify errors in accounts, and
establish appropriate controls.
The Coast Guard’s management has acknowledged that longstanding procedural, control,
personnel, and cultural issues have impeded progress toward installing an effective financial
management structure. In addition, the Coast Guard’s CFO must coordinate with heads of various
divisions who have a role in the accounting and financial reporting processes, but who otherwise
have limited exposure to financial statement audits. Further, these division heads change
regularly as part of the Coast Guard military assignment and rotation polices, making it difficult
for the CFO to institutionalize internal controls related to financial management and reporting
that are outside the CFO’s direct organization. However, control weaknesses at the Coast Guard
significantly impede the Department’s ability to produce reliable financial statements and the
conditions causing the weaknesses have existed nearly unchanged since 2003.
The conditions described above continue to prevent DHS from timely preparation of accurate
financial information and reports and have also contributed to the conditions reported in
Comment B – Financial Reporting of this Appendix.
Criteria: The Federal Managers' Financial Integrity Act of 1982 (FMFIA) requires that agencies
establish internal controls according to standards prescribed by the Comptroller General and
specified in the GAO’s Standards for Internal Control in the Federal Government (Standards).
The GAO defines internal control as an integral component of an organization’s management that
provides reasonable assurance that the following objectives are achieved: effectiveness and
efficiency of operations, reliability of financial reporting, and compliance with applicable laws
and regulations. The GAO Standards identify the control environment, as one of the five key
elements of control, which emphasizes the importance of control conscientiousness in
management’s operating philosophy and commitment to internal control. These standards cover
controls such as human capital practices, supervisory reviews, and segregation of duties, policies,
procedures, and monitoring.
According to OMB Circular No. A-50, corrective action taken by management on audit findings
and recommendations is essential to improving the effectiveness and efficiency of Government
operations. Each agency shall establish systems to assure the prompt and proper resolution and
implementation of audit recommendations. These systems shall provide for a complete record of
action taken on both monetary and non-monetary findings and recommendations.
Recommendations: We recommend that:
1.	 Coast Guard:
    a)	 Evaluate the existing financial management organizational and internal control structure
        and conduct an assessment to determine the number and type of personnel and resources
        needed, along with the requisite skills and abilities necessary, to provide effective
        guidance and oversight to program offices that are significant to financial management
        and reporting, and make recommendations to senior management for appropriate
        changes;




                                                I. 4                                    (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

   b)	 Consider the establishment of an Office of Financial Management within the Coast
       Guard, that would have the authority, ability, and appropriate resources to oversee all
       Coast Guard financial management policy, systems, and reporting functions;
   c)	 Establish internal controls and related procedures for performing periodic reviews and
       oversight to assess the appropriateness, to include compliance with generally accepted
       accounting principles, of financial policies and procedures, and the design and operating
       effectiveness of internal controls, and prioritize remediation of material weaknesses given
       the available resources;
   d)	 Establish clear management oversight responsibilities and processes to effectively review
       adjustments to account balances, identify the cause of abnormal balances, and account for
       relationship discrepancies, e.g., budgetary to proprietary reconciliations, and investigate
       potential financial system problems such as potential posting logic errors and automated
       changes to financial data through scripts (system modifications); and
   e)	 Develop and implement a comprehensive CAP to correct conditions that contribute to the
       Department-level material weaknesses in internal controls.
2.	 OCFO (in particular OFM):
   a)	 Clearly define the roles and responsibilities, organizational structure of OFM, and critical
       success factors that are necessary to set-up and then manage the financial reporting
       operations of DHS;
   b)	 Perform a human capital needs assessment, with particular focus on OFM leadership and
       management skills needed to set-up and then manage the daily operations of OFM. The
       assessment should be conducted by an independent specialist, and should identify the
       additional managerial skill sets, e.g., financial accounting background, knowledge, and
       expertise, required to both establish and strengthen the financial accounting and reporting
       infrastructure throughout the Department, and, once established, to effectively manage
       the processes, gradually correct control weakness, and produce reliable and timely
       financial statements throughout the year;
   c)	 Exercise the authority provided by the Secretary to require bureaus that contribute to
       material weaknesses to develop and implement sound, appropriately funded, CAPs that
       will eliminate material weaknesses and result in timely, accurate financial reporting. This
       initiative will likely require assistance from the Secretary to emphasize the necessity of
       good financial management, hold other departmental management accountable for
       progress, and, in some cases, will require substantial cultural shifts and a commitment of
       resources;
   d)	 Implement procedures that will allow the auditors to complete more audit procedures
       earlier in the year, and ensure that audit requests for information are provided completely
       and timely. This will involve improved coordination with other operating departments of
       DHS, such as the Office of General Counsel for timely and accurate updates to legal
       liabilities; and
   e)	 Continue with the CAP program to develop and implement Department wide CAPs, to
       promptly address audit findings of all auditors, e.g., Inspector General, GAO, and
       financial statement auditors, in compliance with OMB Circular No. A-50.




                                               I. 5                                     (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

B. 	Financial Reporting

Background: Under the current financial reporting structure, the OFM prepares financial
statements, including footnote and supplementary data, from trial balances and other financial
data submitted by the components to the OFM through the Treasury Information Executive
Repository (TIER) system. OFM is dependent on the components for complete, accurate, and
timely submission of monthly financial data, and is not structured to consistently identify and
resolve potential errors or abnormalities in the data received. The OFM is also responsible for
development and communication of appropriate accounting policies, ensuring that financial
reporting controls exist, and performing certain quality control procedures to monitor financial
information. The components are not required to prepare complete financial statements with
footnotes and supplementary data that comply with generally accepted accounting principles.
In fiscal year 2005, we reported that OFM, Coast Guard, and ICE had numerous serious internal
control weaknesses that led to a material weakness in financial reporting. While each component
developed a CAP to address the control weaknesses, only ICE was able to make substantial
progress during the year. The OFM and Coast Guard lag behind in both development and
execution of their CAP, and, consequently, many of the conditions reported in the prior year are
repeated below, together with new weakness discovered during our fiscal year 2006 engagement.
We also reported in fiscal year 2005 financial reporting weaknesses at the Transportation Security
Administration (TSA), Office of Grants and Training (G&T) (formerly SLGCP), and the Federal
Emergency Management Agency (FEMA) (formally included in the EPR Directorate). G&T and
FEMA successfully executed CAPs to address the conditions reported last year. TSA’s financial
reporting weaknesses reported last year have been repeated again in fiscal year 2006.
Conditions: We noted the following internal control weaknesses related to financial reporting in
the OFM and DHS components:
1	 OFM:
   •	 Continued to have significant difficulty coordinating delivery of financial data from
      components and preparing financial statements and disclosures throughout the year. We
      identified numerous errors, inconsistencies, and out-of-balance conditions, inadequate or
      incomplete disclosures, lack of supporting documentation, e.g., for journal entries posted,
      and lack of due diligence to follow-up on questionable information provided by
      components. We noted weaknesses in year-end close-out and beginning balance
      reconciliations and delays in completion of the interim and year-end PAR.
   •	 Has not established adequate Departmental policies and procedures, or issued timely
      guidance, to ensure that financial statements are accurate and complete during the year.
      For example, OFM did not issue comprehensive, timely guidance to the components on
      Interpretation of SFFAS No. 6, Accounting for Imputed Intra-departmental Costs, on
      implementation of SFFAS No. 27, or on resolving intradepartmental and elimination
      discrepancies or reconciling intergovernmental balances with significant federal
      government trading partners. In some cases, guidance was issued only after the external
      auditor notified OFM of the requirements. This condition contributed to the
      Department’s self-reporting of noncompliance with the Debt Collection Improvement Act,
      and submission of erroneous intragovernmental balances to U.S. Department of the
      Treasury during the year.
   •	 Has not established effective monitoring controls over the financial data periodically
      submitted by the DHS components. The component TIER submissions contained
      numerous abnormal balances and potential errors totaling billions of dollars that affected



                                                I. 6                                    (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

       the accuracy of the DHS financial statements throughout the year without adequate
       investigation or resolution until after year-end.
2   Coast Guard:
    •	 Has not developed and implemented an effective general ledger system. The Core
       Accounting System (CAS), Aircraft Logistics Management Information System
       (ALMIS), and Naval Engineering Supply Support System (NESSS) general ledgers are
       significantly noncompliant with the requirements of the Federal Financial Management
       Improvement Act (FFMIA). Specifically:
       -   The general ledgers are not compliant with the United States Standard General Ledger
           (USSGL) at the transaction level, include non-compliant chart of account definitions,
           invalid accounts, improper posting logic codes and inconsistent crosswalks to the
           Coast Guard TIER database as well as static balances related to a legacy general
           ledger conversion and unsubstantiated automated changes to CAS financial data
           through the use of hundreds of scripts, implemented without effective controls to
           correct system problems;
       -   The Coast Guard’s TIER submissions to OFM are from a database that does not have
           detail at the transactional level, and is not reconciled or supported by the transaction
           level detail in the Coast Guard’s three general ledgers; and
       -   The financial reporting process is overly complex and labor-intensive, and requires a
           significant number of “on-top” adjustments (adjustments made outside the core
           accounting system for presentation of financial information given to DHS for
           consolidation). These topside adjustments are not supported at the transaction level
           and are not recorded to the respective general ledgers. Thus, period-end and opening
           balances are only supported by the Coast Guard TIER database, and the three general
           ledgers do not support the financial statements.
    •	 Has a serious deficiency in its policies, procedures and controls surrounding its financial
       reporting process. For example, the Coast Guard:
       -   Does not record all financial transactions, either in detail or at the summary level, to
           the general ledger systems. Consequently, the Coast Guard can not be reasonably
           certain that its financial statements are complete or accurate at any time;
       -   Does not have adequate beginning balance and year-end close-out procedures. For
           example, no reconciliation is performed to ensure that opening balances agree to the
           prior year ending balances. Year-end closing procedures do not include sufficient
           supporting documentation such as evidence of effective management review, approval
           of individual adjusting entries, or procedures to determine that all necessary
           adjustments were identified;
       -   Routinely uses high level analytical comparisons to identify adjusting entries.
           Adjusting entries are then recorded, without support or verification that the
           adjustment is valid. For example, budgetary accounts are forced to equal proprietary
           accounts, without determining the underlying cause for the imbalance at a
           transactional level of detail to support the correct ending balances;
       -   Does not have written policies and procedures for analyzing revolving, special, and
           trust funds, and there is inconsistent treatment of inter-entity balances for the Supply,
           Cadet, and Yard funds; and




                                                I. 7                                      (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

       -   Does not have effective policies and procedures to identify and resolve abnormal
           balances and identified potential errors in its financial data. A significant number of
           abnormal account balances, totaling billions of dollars, exist throughout the year in its
           three general ledgers that are not investigated.
   •	 Does not have adequate procedures and internal controls over the process of preparing
      and reviewing the financial statement disclosures. Certifications were made to the DHS
      CFO without reviewing appropriate supporting documentation to determine that the
      footnotes are accurate and complete.
   •	 Does not have an adequate process to record, review, and monitor accounts receivable
      activity. The accounts receivable CAPs developed by the six Coast Guard processing
      locations do not provide detailed procedures necessary to evaluate and remediate their
      accounts receivable balances and support Coast Guard management’s financial reporting
      assertions. The current standard operating procedures (SOPs) are out of date or in draft
      format, lack detail, and do not identify and describe the internal controls over the process.
      In addition, the SOPs do not clearly identify and define proper supporting documentation
      for the various types of accounts receivable or the policies/process for conducting
      research to (1) resolve variances between the accounts receivable sub-ledgers and the
      system general ledger, and (2) determine if aged receivables are valid.
3	 TSA continued to experience difficulties related to financial reporting. Specifically, we noted:
   •	 Certain accrual amounts were not posted, and certain property amounts were misstated, in
      the final financial data submission for the June 30, 2006 hard-close; numerous other on-
      top adjustments were made thereafter; certain account reconciliations were not performed
      timely or completely throughout the year; and material abnormal balances and analytical
      account variances were not resolved timely throughout the year.
   •	 Sufficient processes and procedures have not been established to enable the successful
      completion of a financial statement audit in two successive years. In fiscal year 2005, the
      financial statement auditor did not issue a report because of TSA’s inability to provide
      requested information related to its accounting and reporting for aviation security fees. In
      fiscal year 2006, TSA resolved prospective accounting for the aviation security fee issue,
      but did not complete its analysis to determine retroactive adjustments, if any; and
      additional circumstances caused significant inefficiencies and unnecessary delays that
      prevented the completion of the testwork prior to DHS’ submission of its 2006 PAR.
   •	 TSA could not provide complete supporting documentation for numerous journal
      vouchers, and we identified several journal vouchers that were not approved prior to
      posting in the general ledger.
4	 OFM and certain components did not have effective financial information systems or
   sufficiently documented processes to accumulate cost data by DHS strategic goal, as required
   by SFFAS No. 4, Managerial Cost Accounting Concepts and Standards.
Cause/Effect: Many of the issues mentioned above stem from the conditions described in
Comment A - Financial Management and Oversight. The OFM is still working to set-up the
Department with effective financial policies and procedures that will ensure a smooth and reliable
month-end close for all components and the consolidated entity. Policies developed by OFM
often take months, even more than a year in some cases, before they are approved for release, due
in part to a lack of defined authority for financial policy within the Department. By design, OFM
is not staffed to function as a control over the accuracy of financial data received by the
components. Consequently, errors and abnormal balances that exist in data submitted by



                                                I. 8                                     (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

components to OFM, or a lack of component responsiveness to OFM requests, have remained
unresolved throughout the year and are reflected in the financial statements even though OFM
and the component are aware of the conditions.
At the Coast Guard, the accuracy of financial information is highly dependent on the knowledge
and experience of a limited number of key financial personnel rather than on clearly documented
procedures manuals and process flow documentation. In addition, the Coast Guard suffers from
serious structural system deficiencies that make the financial reporting process more complex and
difficult.
The quality of TSA’s financial data and reliability of the financial reporting process has been
negatively impacted by the recent transition to the Coast Guard’s accounting system and resulting
changes to the financial reporting process.
Criteria: FMFIA requires that agencies establish internal controls according to standards
prescribed by the Comptroller General and specified in the GAO Standards. These standards
define internal control as an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved: effectiveness and
efficiency of operations, reliability of financial reporting, and compliance with applicable laws
and regulations. The GAO Standards require that internal controls be documented in
management directives, administrative policies, or operating manuals; transactions and other
significant events be clearly documented; and information be recorded and communicated timely
with those who need it within a timeframe that enables them to carry out their internal control
procedures and other responsibilities. According to these standards, the five essential control
elements are control environment, risk assessment, control activities, information and
communication, and monitoring.
Recommendations: We recommend that:
1.	 OFM:
    a)	 Implement a standardized financial reporting process, including formal policies and
        procedures that require components to prepare financial reporting closing packages with
        footnotes and supplementary data that comply with generally accepted accounting
        principles to assist the components and the OCFO to execute a monthly close that results
        in complete and reliable financial reporting on an interim basis, and at year-end. The
        OCFO should perform several “test runs” during fiscal year 2007, e.g., each quarter, to
        critically evaluate and improve the process as necessary;
    b)	 Perform a review to determine processes, procedures and methods to make the role of the
        desk officer a more effective monitoring control. The objective should be to consistently
        identify potential errors in financial data submitted by components, and to engage the
        Director of OFM or the CFO, if necessary, to have the potential errors investigated and
        corrected, if necessary, before the next period component TIER submission;
    c)	 Compete a formal risk assessment to identify significant risks to the financial reporting
        process and continue to develop and implement its Internal Control over Financial
        Reporting (ICOFR) playbook and OMB Circular No. A-123 process to manage and
        mitigate those risks; and
    d)	 Establish new or improve existing policies and procedures to ensure that:
        i)	 Instances of noncompliance with laws and regulations that could have a direct and
            material impact on the financial statements are promptly identified and reported to
            OCFO;



                                                I. 9                                     (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

       ii) New polices and guidance that affect the quality and consistency of financial reports
           and data, including accounting guidance needed by the components for
           intradepartmental transactions, is approved by the CFO and issued in a timely
           manner;
       iii) Intradepartmental and intragovernmental elimination discrepancies and reconciling
            differences are promptly identified and addressed throughout the year;
       iv) The financial statements are updated to include all disclosures, including the adoption
           of new accounting standards and restatements of prior year financial statements, and
           are addressed early each fiscal year, e.g., first and second quarter, to give
           management and the auditors an opportunity to review changes before year-end; and
       v)	 Adequate supporting documentation is maintained for all elimination and other
           adjusting entries made at the financial statement level.
2.	 Coast Guard:
   a)	 Conduct an assessment of its current financial reporting process, including a review of its
       three general ledger systems, with the goal of reducing complexity, implementing
       appropriate internal controls, improving financial systems integration and automating
       manual processes. Processes should be designed to ensure that all financial statement
       line items are fully reconciled and supported by transactional detail contained in the
       general and subsidiary ledgers, and causative research performed for imbalances and
       abnormalities;
   b)	 Establish new or improve existing policies and procedures to ensure that:
       i)	 All financial transactions are recorded in the general ledger at the detail USSGL level
           as they occur;
       ii) The year-end close-out process and reconciliations are supported by documentation,
           including evidence of effective management review and approval, clear identification
           of all on-top adjustments with all associated general ledger account entries, and
           beginning balances in the following year are determined to be reliable and auditable;
       iii) Account reconciliations, for each of the three general ledgers and the monthly TIER
            submission, are performed timely and completely each month and differences are
            researched and resolved before the next months reporting cycle. Reconciliations
            should include all funds maintained by the Coast Guard, including revolving, special
            and trust funds;
       iv) Eliminate the practice of using high level analytics as the sole source of support for
           adjusting journal entries; and
       v)	 Significant abnormal balances are investigated and resolved at a transaction level
           before the monthly TIER is submitted to OFM.
   c)	 Establish a task force of outside experts to analyze the Coast Guard’s financial reporting
       process, and IT systems functionality, in order to develop effective CAPs, including a
       timeline for action with verifiable milestones, to correct identified deficiencies, to include
       researching all differences/imbalances identified as a result of past practices at a
       transactional level and to assess and report the effects on current and prior financial
       reporting; and
   d)	 Identify all Coast Guard accounts receivables and then implement comprehensive Coast
       Guard-wide policies and procedures, including internal controls, at a sufficient level of



                                               I. 10                                      (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

        detail to determine that the accounts receivable process is effective to support
        management assertions, in compliance with generally accepted accounting principles, for
        the accounts receivable balance reported on the Coast Guard balance sheet.
3.	 TSA:
    a)	 Conduct an assessment of the closing process to identify and correct weaknesses that
        impede timely and efficient reporting processes; reduce the number of on-top
        adjustments; and perform regular quality control reviews of financial reports;
    b)	 Document key standard operating procedures for significant financial reporting 

        processes, including the TIER submissions; 

    c)	 Complete and document a year-by-year analysis (since TSA’s inception) of the impact of
        the change in the accounting treatment of aviation security fees on the year-end account
        balances, and prepare appropriate adjusting entries, as necessary;
    d)	 Assess the reason why TSA experienced significant delays and had difficulty responding
        to information requests from the auditors in fiscal year 2006, and implement corrective
        actions; and
    e)	 Document and consistently implement policies and procedures for the preparation and
        approval of journal vouchers for submission to its accounting services provider. Policies
        and procedures should include requirements for (a) full completion of the journal voucher
        form itself, and (b) attached documentation to support each journal voucher.
4.	 OFM and applicable component entities should develop financial information systems and
    document processes to accumulate and present cost data by DHS strategic goal, as required
    by SFFAS No. 4.

C. 	Financial Systems Security
Background: Controls over IT and related financial systems are essential elements of financial
reporting integrity. Effective general controls in an IT and financial systems environment are
typically defined in six key control areas: entity-wide security program planning and
management, access control, application software development and change control, system
software, segregation of duties, and service continuity. In addition to general controls, financial
systems contain application controls, which are the structure, policies, and procedures that apply
to control access to an application, separate individuals from accessing particular application
modules such as accounts payable, inventory, payroll, grants, or loans, and assess if the specific
interface and edit controls are in place, as defined by management.
During fiscal year 2006, a few DHS components took actions to improve their IT general and
application control environment and to address prior year IT control issues; however, some DHS
components did not make necessary improvements, during the year. During the 2006 we
identified over 200 separate findings, some in each DHS component. DHS was able to close
approximately 45% of our prior year IT findings; however, we identified over 130 new IT
findings through our test work this year. In addition, a significant number of findings were
repeated in fiscal year 2006.
The control areas where the increases in findings present an increased risk of impacting financial
data integrity include: 1) excessive access to key DHS financial applications, 2) misconfigured
logical security controls to key DHS financial applications and support systems, and 3)
application change control processes that are inappropriate, and in other locations not fully
defined, followed, or effective. The re-issuance and additionally identified internal control



                                                I. 11                                     (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

weaknesses were the result of a lack of needed prioritization of taking the necessary corrective
actions. Despite the improvements in a few DHS components, several significant general IT and
application control weaknesses remain that collectively limit DHS’ ability to ensure that critical
financial and operational data is maintained in a manner to ensure confidentiality, integrity, and
availability.
Conditions: In fiscal year 2006, the following IT and financial system control weaknesses were
identified at DHS and its components. Many of the issues identified during our fiscal year 2006
engagement were also identified during fiscal year 2005:
1	 Entity-wide security program planning and management – we noted:
    •	 Despite continued improvements in the process of performing Certification and
       Accreditation (C&A) of IT systems, nine DHS component financial and associated feeder
       systems, at three DHS components, were not properly certified and accredited, in
       compliance with DHS 4300A.
    •	 Instances of incomplete or inadequate policies and procedures associated with computer
       incident response capabilities at four DHS components.
    •	 Instances where background investigations of contractors employed to operate, manage
       and provide security over IT systems were not being properly conducted related to DHS
       components or sub-components, at three DHS components.
    •	 Instances of lack of compliance with DHS computer security awareness training
       requirement, and / or lack of component policies for IT-based specialized security
       training at three DHS components.
2	 Access controls – we noted:
    •	 A large number of instances of missing and weak user passwords on key servers and
       databases which process and house DHS financial data at six DHS components.
    •	 A large number of instances where user account lists were not periodically reviewed for
       appropriateness, and inappropriate authorizations and excessive user access privileges
       were allowed at nine DHS components.
    •	 Instances where workstations, servers, or network devices were configured without
       necessary security patches or were not configured in the most secure manner at five DHS
       components.
    •	 Instances where physical access to sensitive computer operations were not adequate at
       four DHS components.
3	 Application software development and change control – we noted:
    •	 One DHS component had implemented a separate and secondary change control process
       outside of and conflicting with the established change control process. During our testing
       of this separate process, we identified it to be informal, undocumented, and not effective.
    •	 Instances where policies and procedures regarding change controls were not in place to
       prevent users from having concurrent access to the development, test, and production
       environments of the system at four DHS components.
    •	 Instances where changes made to the configuration of the system were not always
       documented through System Change Requests (SCRs), test plans, test results, or software
       modifications at seven DHS components. Additionally, documented approval did not
       exist, or was not always retained, for emergency enhancements, “bug” fixes, and data


                                               I. 12                                    (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

        fixes, and in some cases, audit logs for tracking changes to the data or systems were not
        activated.
4	 System software – we noted:
    •	 Instances where policies and procedures for restricting and monitoring access to

       operating system software were not implemented or were inadequate at six DHS 

       components. In some cases, the ability to monitor security logs did not exist. 

    •	 Instances where changes to sensitive operating system settings and other sensitive utility
       software and hardware were not always documented.
5	 Segregation of duties – we noted:
    •	 Instances where individuals were able to perform incompatible functions, such as the
       changing, testing, and implementing of software, without sufficient compensating
       controls in place at four DHS components.
    •	 An instance where the policy and procedures to define and implement segregation of
       duties were not properly developed and/or implemented at one DHS component.
    •	 Access control weaknesses identified during our IT testing also contributed to numerous
       instances where access to data could lead to various incompatible function issues,
       including the override of transactions at five DHS components.
6	 Service continuity – we noted:
    •	 Instances where incomplete or outdated business continuity plans and systems with
       incomplete or outdated disaster recovery plans were noted at four DHS components.
       Some plans did not contain current system information, emergency processing priorities,
       procedures for backup and storage, or other critical information.
    •	 Service continuity plans were not consistently and/or adequately tested, and individuals
       did not receive training on how to respond to emergency situations at four DHS
       components.
7	 Application controls – we noted:
    •	 Instances of weak or expired user passwords, user accounts that were not kept current,
       users with access privileges to certain key processes of an application, and key edit and
       business rules not working as designed by management at nine DHS components. Many
       of the weaknesses that were identified during our general control testing of an
       application’s access controls and segregation of duties are also relevant to this area, since
       access and segregation of duty controls are controls over the application. Since these
       same issues also impact controls over specific key financial applications, they are
       reported here as well.
Cause/Effect: Many of these weaknesses were inherited from the legacy agencies that came into
DHS or system development activities that did not incorporate strong security controls from the
outset and will take several years to fully address. At many of the larger components, IT and
financial system support operations are decentralized, contributing to challenges in integrating
DHS IT and financial operations. In addition, financial system functionality weaknesses, as
discussed throughout our report on internal controls in various processes, can be attributed to
non-integrated legacy financial systems that do not have the embedded functionality required by
OMB Circular No. A-127, Financial Management Systems.




                                                I. 13                                    (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

Further, there is no consistent and thorough testing of IT controls by individual DHS components
and by the DHS CIO to identify and mitigate weaknesses. The most prevalent reason as to why
these weaknesses are present is the lack of prioritization in taking the necessary actions to
improve the IT control environment around the Department’s financial management systems.
The effect of these numerous IT weaknesses identified during our testing impacts the reliability of
DHS’ financial data. Many of these weaknesses, especially those in the area of change control,
may result in material errors in DHS’ financial data that are not detected, in a timely manner, in
the normal course of business. In addition, as a result of the continuous presence of serious IT
deficiencies, there is added pressure on the mitigating manual controls to be operating effectively
at all times. Since manual controls are operated by people, there cannot be a reasonable
expectation that they would be able to be in place at all times and in all areas.
Criteria: The Federal Information Security Management Act (FISMA) passed as part of the
Electronic Government Act of 2002, mandates that Federal entities maintain IT security programs
in accordance with OMB and National Institute of Standards and Technology (NIST) guidance.
OMB Circular No. A-130, Management of Federal Information Resources, and various NIST
guidelines describe specific essential criteria for maintaining effective general IT controls. In
addition OMB Circular No. A-127 prescribes policies and standards for executive departments
and agencies to follow in developing, operating, evaluating, and reporting on financial
management systems. The Information Technology Security Program Publication, section
4300A, also provides criteria and guidance that is applicable to DHS financial systems security
and general controls.
Recommendations: We recommend that the DHS Office of Chief Information Officer in
coordination with the OCFO make the following improvements to the Departments financial
management systems:

1.	 For entity-wide security program planning and management:
    a)	 Enforce through the DHS C&A program across all DHS components, a testing process
        which goes beyond an assessment of in-place policies and procedures, to include tests of
        password “strength”, access lists, and software patches, of an application, for example:,
    b)	 Enforce the consistent implementation of security programs, policies, and procedures,
        including incident response capability and IT security awareness and training; and
    c)	 Enforce DHS’ policy to ensure that all contractors go through the appropriate 

        background/suitability check. 

2.	 For access control:
    a)	 Enforce password controls that meet DHS’ password requirements on all key financial
        systems;
    b)	 Implement an account management certification process within all the components to
        ensure the periodic review of user accounts for appropriate access;
    c)	 Implement a DHS-wide patch and security configuration process, and enforce the
        requirement that systems are periodically tested by individual DHS components and the
        DHS-CIO; and
    d)	 Conduct periodic vulnerability assessments, whereby systems are periodically reviewed
        for access controls not in compliance with DHS and Federal guidance.
3.	 For application software development and change control:




                                               I. 14                                      (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

    a)	 Implement a single, integrated change control process over the DHS components’
        financial systems with appropriate internal controls to include clear lines of authority to
        the components’ financial management personnel and to enforce responsibilities of all
        participants in the process and documentation requirements;
    b)	 Develop policies and procedures regarding change controls, and implement to ensure
        segregation of change control duties; and
    c)	 Enforce policies that require changes to the configuration of the system are approved and
        documented, and audit logs are activated and reviewed on a periodic basis.
4.	 For system software, actively monitor the use of and changes related to operating systems and
    other sensitive utility software and hardware.
5.	 For segregation of duties:
    a)	 Document the user responsibilities so that incompatible duties are consistently separated.
        If this is not feasible given the smaller size of certain functions, then sufficient
        compensating controls, such as periodic peer reviews, should be implemented; and
    b)	 Assign key security positions, and ensure that position descriptions are kept current.
6.	 For service continuity:
    a)	 Develop and implement complete current business continuity plans and system disaster
        recovery plans; and
    b)	 Perform component-specific and DHS-wide testing of key service continuity capabilities,
        and assess the need to provide appropriate and timely emergency training.
7.	 For application controls:
    a)	 Implement policies to ensure that password controls meet DHS password requirements
        on all key financial applications and feeder systems;
    b)	 Implement an account management certification process within all the components to
        ensure the periodic review of user accounts for appropriate access,
    c)	 Document the user responsibilities so that incompatible duties are consistently separated.
        If this is not feasible given the smaller size of certain functions, then sufficient
        compensating controls, such as periodic peer reviews, should be implemented; and
    d)	 Implement the appropriate oversight over the edit and interface controls to ensure that the
        financial processes are operating as management had designed.

D. 	 Fund Balance with Treasury
Background: Fund Balance with Treasury (FBwT) represents accounts held at Treasury from
which an agency can make disbursements to pay for its operations. Regular reconciliation of an
agency’s FBwT records with Treasury is essential to monitoring and safeguarding these funds,
improving the integrity of various U.S. Government financial reports, and providing a more
accurate measurement of budget resources and status.
In fiscal year 2005, we reported the existence of material weaknesses in FBwT at ICE and the
DHS components for which it performs accounting services. Early in fiscal year 2006, ICE
implemented a CAP to fully reconcile its funds with Treasury, clear suspense accounts, and
establish improved processes and controls for itself and the components, to address the material
weakness. The results of our follow-up procedures performed in fiscal year 2006, allow us to
remove the ICE conditions reported in fiscal year 2005 from this material weakness.


                                                I. 15                                     (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

In fiscal year 2005, we also reported the existence of a material weakness in FBwT at Coast
Guard. The Coast Guard has not yet developed or implemented comprehensive FBwT CAPs, and
consequently, we are repeating and expanding the conditions cited in last year’s report. FBwT at
the Coast Guard totaled approximately $4.5 billion, or 7.5 percent of total DHS assets, at
September 30, 2006. The majority of these funds represented appropriated amounts that were
obligated, but not yet disbursed, at September 30, 2006.
Conditions: The Coast Guard:
      •	 Was unable to provide military and civilian payroll data to support payroll transactions
         processed through Coast Guard’s FBwT, USSGL account 1010. Coast Guard did not
         properly report and reconcile these transactions or maintain appropriate supporting
         documentation.
      •	 Did not effectively manage or monitor its suspense accounts, to include accurately aging
         and clearing items carried in suspense clearing accounts in a timely manner during the
         year. The Coast Guard’s processes and accounting for suspense account transactions is
         not effective. Coast Guard made inappropriate changes to suspense accounting
         procedures in the current year and continues to lack documented procedures and internal
         controls in this area.
      •	 Did not maintain adequate supporting documentation that validated the accuracy of the
         FBwT reconciliations and the clearing of suspense items, to include posting unsupported
         adjustments to Coast Guard reported general ledger activity submitted to Treasury and to
         agree Coast Guard balances to Treasury records without support documentation.
         Approximately 85% of the balances were not recorded correctly or supported by proper
         documentation.
      •	 Did not properly design policies, procedures, and internal controls over Coast Guard’s
         process of initiating, authorizing, and recording budgetary authority in Coast Guard’s
         FBwT, USSGL account 1010. Deficiencies include a lack of segregation of duties and
         management review of the proprietary journal vouchers for recording and reconciling
         budgetary authority (see Comment I – Budgetary Accounting).
Cause/Effect: The Coast Guard has not designed and implemented policies, procedures, and
internal controls, including effective reconciliations and the use of a financial system that
complies with Federal Financial System Requirements, as defined in OMB Circular A-127 and
the requirements published by the Joint Financial Management Improvement Program (JFMIP),
to fully support the fiscal year 2006 FBwT activity and balance at September 30, 2006. The
Coast Guard did not maintain sufficiently detailed records to clear suspense accounts in a timely
manner, and did not use tools available to them properly to improve the process, such as the
Government-wide Accounting System (GWA). Failure to implement timely and effective
reconciliation processes could increase the risk of fraud, abuse, undetected violations of
appropriation laws, including instances of undiscovered Anti-deficiency Act violations, and
mismanagement of funds, which could lead to inaccurate financial reporting and affects DHS’
ability to effectively monitor its budget status.
Criteria: The Treasury Financial Manual (TFM)3 states, “Federal agencies must reconcile their
USSGL account No.1010, and any related sub-accounts, with the FMS 6652, 6653, 6654 and
6655 on a monthly basis (at minimum). Federal agencies must research and resolve differences
between the balances reported on their general ledger FBwT accounts and balances reported on
the FMS 6653, 6654 and 6655.” In addition, Section 803(a) of FFMIA requires that Federal

3
    TFM, Supplement I TFM 2-5100 (November 1999)


                                                 I. 16                                    (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

financial management systems comply with (1) Federal accounting standards, (2) Federal system
requirements, and (3) the USSGL at the transaction level. FFMIA emphasizes the need for
agencies to have systems that can generate timely, reliable, and useful information with which to
make informed decisions to ensure ongoing accountability.
According to OMB Circular No. A-123, transactions should be promptly recorded, and properly
classified and accounted for, in order to prepare timely and reliable financial and other reports.
Documentation for transactions, management controls, and other significant events must be clear
and readily available for examination.
Recommendations: We recommend that Coast Guard:
    a)	 Establish policies and procedures to ensure payroll data, supporting payroll transactions
        processed through FBwT (account 1010), is properly maintained and available for audit
        testwork, as needed;
    b)	 Establish policies and procedures to better manage its suspense accounts to include
        researching and clearing items carried in suspense clearing accounts in a timely manner
        during the year, and maintaining documentation of periodic reconciliations of FBwT;
    c)	 Establish policies and procedures to improve segregation of duties and management
        review of the journal vouchers for recording and reconciling budgetary authority. The
        policies should be based on Treasury guidance and tailored to the Coast Guard’s
        operations; and
    d)	 Enhance financial accounting system(s) to ensure compliance with federal financial
        management system requirements.

E. 	Property, Plant, and Equipment

Background: Property, plant, and equipment (PP&E) represents approximately 8.5 percent of
total DHS assets, and the Coast Guard maintains more than 50 percent of all DHS PP&E,
including a large fleet of aircraft and vessels. Many of the Coast Guard’s assets are constructed
over a multi-year period, have long useful lives, and undergo extensive routine servicing that may
increase their value or extend their useful lives, and require comprehensive policies and
procedures to ensure accurate and timely accounting. As reported in prior years, the Coast Guard
has been unable to provide auditable documentation for certain categories of PP&E, due to a
number of policy, control, and process deficiencies that will require several years to correct, and
consequently, most of the conditions cited below have been repeated from our 2005 report and
have existed since the Department’s inception in 2003. In addition, as noted in our 2005 report,
DHS has several internal use software development projects underway that will result in
capitalized software balances in future years, particularly in the US-Visit directorate.
Consequently, application of proper accounting standards to account for PP&E is important to the
accuracy of DHS’ financial statements. In fiscal year 2006 we identified new issues related to
TSA’s PP&E balances.
Conditions:
1   Coast Guard has not:
    •	 Implemented appropriate controls and related processes to accurately, consistently, and
       timely record PP&E, to include additions, transfers from other agencies, and disposals in
       its fixed asset system. Significantly, Coast Guard has not designed or implemented
       effective controls to manage, account for, and properly support costs recorded its General



                                               I. 17                                    (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

        PP&E Construction in Progress projects, as amounting to approximately $2.3 billion on
        the DHS balance sheet as of September 30, 2006.
    •	 Consistently applied policies and procedures to ensure appropriate documentation
       supporting PP&E acquisitions and their existence is maintained and readily available for
       audit testwork.
    •	 Developed and documented methodologies and assumptions to support the value of
       PP&E that is not supported by original acquisition or other documentation.
    •	 Implemented accurate and complete asset identification, system mapping, and tagging
       processes that include sufficient detail, e.g., serial number, to clearly differentiate and
       accurately track physical assets to assets recorded in the fixed asset system.
    •	 Developed an effective physical inventory process and appropriate support for the

       valuation method and classification of repairable PP&E. 

    •	 Properly accounted for some improvements and impairments to buildings and structures,
       and selected useful lives for depreciation purposes, consistent with generally accepted
       accounting principles.
2	 US-Visit did not consistently apply procedures to identify and capitalize software
    development costs or to reclassify software placed into production from software in
    development. Consequently, US-Visit was unable to fully support the accuracy and
    completeness of certain property, plant and equipment balances, to allow us to complete our
    testwork, prior to the completion of DHS’ 2006 PAR. At September 30, 2006, software
    development costs for US-Visit totaled over $300 million and are expected to increase in
    future years.
3	 TSA has not implemented adequate policies and procedures to properly account for and
   support its property balances. Specifically, we noted:
    •	 Subsidiary records i.e., Sunflower and the Fixed Asset Module, have not been reconciled
       timely to the general ledger. A fixed asset holding account used by TSA’s accounting
       services provider interferes with the performance of timely reconciliations.
    •	 The Fixed Asset Module, a subcomponent of the general ledger, had not been updated for
       depreciation, additions and disposals related to certain property and equipment items
       since fiscal year 2004.
    •	 TSA maintains idle property where accounting for idle and impaired value of property has
       not been considered. Consequently, TSA may have overvalued assets on its balance sheet
       at September 30, 2006.
    •	 TSA was unable to provide adequate supporting documentation for a statistical sample of
       property and equipment items held at August 31, 2006, in a timely manner.
Cause/Effect: Coast Guard policies and procedures are not adequate to ensure that PP&E and
construction in process transactions are completely and properly accounted for and consistent
with generally accepted accounting principles. In addition, the policies and procedures that are in
place are not consistently followed, or do not include sufficient controls to ensure compliance
with policy or to ensure complete supporting documentation is maintained and available for audit
testwork. The fixed asset module of the Coast Guard’s CAS is not updated for effective tracking
of all PP&E, and its capabilities are not fully utilized to clearly differentiate and accurately track
assets.




                                                 I. 18                                     (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

While US-Visit has developed adequate accounting policies for tracking software development
costs, these policies are not fully or adequately implemented. Over the next few years, significant
resources for the development of new software, such as the US-Visit program, will likely be
spent. Therefore, the lack of full implementation of these policies increases the risk of financial
statement errors due to misapplication of accounting standards for software.
Change in personnel and IT system interface difficulties likely contributed TSA’s conditions
affecting property balances. These conditions caused material errors in the interim financial
statements and continued until the problem was identified by the external auditor.
Criteria: SFFAS No. 6, Accounting for Property, Plant, and Equipment, requires that:
    -  PP&E is recorded at historical cost with an adjustment recorded for depreciation. In the
       absence of such information, estimates may be used based on a comparison of similar
       assets with known values or inflation-adjusted current costs; and
    -	 PP&E accounts be adjusted for disposals, retirements and removal of PP&E, including
       associated depreciation.
According to OMB Circular No. A-123, transactions should be promptly recorded, and properly
classified and accounted for, in order to prepare timely and reliable financial and other reports.
Documentation for transactions, management controls, and other significant events must be clear
and readily available for examination.
GAO Standards state that internal controls should generally be designed to assure that on-going
monitoring occurs in the course of normal operations. Management is responsible for developing
control activities, which are the policies, procedures, techniques, and mechanisms that enforce
management’s directives and help ensure actions address risks. The activities include reviews by
management at the functional or activity level, proper execution of transactions and events,
accurate and timely recording of transactions and events, and appropriate documentation of
transactions and internal control.
FFMIA Section 803(a) requires each agency to implement and maintain a system that complies
substantially with Federal financial management system requirements as stipulated in OMB
Circular No. A-127. That Circular requires an agency’s system design “to have certain
characteristics that include…consistent internal controls over data entry, transaction processing,
and reporting throughout the system to ensure the validity of the information.”
SFFAS No. 10, Accounting for Internal Use Software, provides requirements for the
capitalization and reporting of software development costs. GAO Standards require that internal
control and all transactions and other significant events be clearly documented and readily
available for examination. The Joint Financial Management Improvement Program, Property
Management Systems Requirements, state that the agency’s property management system must
create a skeletal property record or have another mechanism for capturing information on
property in-transit from the providing entity (e.g., vendor, donator, lender, grantor, etc.).
Recommendations: We recommend that:
1.	 Coast Guard:
    a)	 Improve controls and related processes and procedures to ensure that PP&E, including
        additions, transfers, and disposals, are recorded accurately, consistently, and timely in the
        fixed asset system; that an identifying number is entered in the fixed asset system at the
        time of asset purchase to facilitate identification and tracking; and that the status of assets
        is accurately maintained in the system;




                                                 I. 19                                      (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

    b)	 Develop and implement internal controls to ensure the quality, sufficiency, and retention
        of documentation for future PP&E acquisitions and disposals;
    c)	 Develop and document methodologies and assumptions to support the value of PP&E
        that is not evidenced by original acquisition or other sufficient documentation;
    d)	 Revise procedures for performing physical inventories of repairable items, to include
        procedures for resolving differences, and reporting results, to ensure that repairable
        PP&E is accurately and completely classified and recorded. Support the pricing
        methodology used to value repairable PP&E to ensure that balances, as presented in the
        financial statements, approximate amortized historical cost; and
    e)	 Review policies and procedures to account for improvements and impairments to
        buildings and structures, and identify proper useful lives for depreciation purposes.
2.	 US-Visit should implement procedures for developers to track and notify accounting
    personnel when software has been placed into production so that accounting personnel can
    properly classify and amortize the software costs, and appropriate and sufficient evidence is
    maintained to document management’s decisions that lead to significant accounting
    transactions.
3.	 TSA:
    a)	 Work with its accounting services provider to ensure that the interface between
        Sunflower and the general ledger functions properly and discontinue the use of the fixed
        asset holding account;
    b)	 Ensure that accounting records are updated timely based on the results of the periodic
        inventories;
    c)	 Update and maintain the activity for all property and equipment items in Sunflower and
        the Fixed Assets Module;
    d)	 Perform and document timely reconciliations between Sunflower, the Fixed Asset
        Module and general ledger;
    e)	 Review those items identified as idle, determine the appropriate accounting treatment and
        document the related rationale; and
    f)	 Ensure adequate supporting documentation exists and is readily available to support the
        acquisition cost and date of property and equipment items.

F. 	Operating Materials and Supplies

Background: Operating Materials and Supplies (OM&S) are maintained by the Coast Guard in
significant quantities, and consist of tangible personal property to be consumed in normal
operations to service marine equipment, aircraft, and other operating equipment. The majority of
the Coast Guard’s OM&S is physically located at either two Inventory Control Points (ICPs) or in
the field. The ICPs use the NESSS and the ALMIS systems to track inventory. Field held OM&S
is recorded in the Fleet Logistics System. These three systems provide the subsidiary records that
support the general ledger’s OM&S balance. The Coast Guard’s policy requires regularly
scheduled physical counts of OM&S, which are important to the proper valuation of OM&S and
its safekeeping. The conditions cited below for Coast Guard are based on findings reported in
fiscal 2005, updated as necessary to reflect the conditions noted in fiscal year 2006.
Conditions: We noted the following internal control weaknesses related to OM&S at the Coast
Guard:


                                               I. 20                                     (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

    •	 Internal controls over physical counts at field locations were not fully designed and
       implemented to remediate conditions identified during fiscal years 2003, 2004 and 2005.
       In fiscal year 2005, we reported that items were not always properly bar-coded or tagged,
       on-hand quantities frequently did not agree to the perpetual inventory records, and
       procedures did not sufficiently address whether all inventory on hand was properly
       recorded in the perpetual records or require discrepancies to be resolved timely. Coast
       Guard has acknowledged that these weaknesses continued to exist in fiscal year 2006,
       and represented their intent to complete corrective action over field held OM&S, to
       include implementation of internal controls, no later than September 30, 2009.
    •	 Policies, procedures, and controls designed to remediate conditions related to conducting
       physical inventories of OM&S at the ICPs were not completely implemented in fiscal
       year 2006. ICP physical inventory procedures lacked key elements of an effective
       physical inventory, e.g., reconciliation of sample population to perpetual records,
       statistically valid methods of sampling, and proper evaluation and reporting of results.
       Comprehensive step-by-step physical inventory instructions that clearly addressed each
       objective of a physical inventory were not fully implemented in fiscal year 2005, and the
       Coast Guard has acknowledged that these weaknesses continued to exist in fiscal year
       2006. Coast Guard management has represented their intent to implement corrective
       action over ICP physical inventory procedures, to include implementation of internal
       controls, no later than September 30, 2009.
    •	 Processes and controls were not in place to fully support the calculated value of field-held
       and ICP OM&S to approximate historical cost. Coast Guard management has
       represented their intent to implement corrective actions over valuation of OM&S no later
       than September 30, 2009.
Cause/Effect: Coast Guard management deferred correction of most OM&S weaknesses reported
in fiscal years 2003 through 2005 until fiscal year 2007, and acknowledged that the conditions we
reported in prior years remained throughout fiscal year 2006. Lack of comprehensive and
effective policies and controls over the performance of physical counts, and appropriate support
for valuation, may result in errors in the physical inventory process or inventory discrepancies
that could result in financial statement misstatements.
Criteria: According to GAO Standards, assets at risk of loss or unauthorized use should be
periodically counted and compared to control records. Policies and procedures should be in place
for this process. The Financial Systems Integrated Office (FSIO) publication, Inventory,
Supplies, and Material System Requirements, states that “the general requirements for control of
inventory, supplies and materials consist of the processes of receipt and inspection. An agency’s
inventory, supplies and materials system must identify the intended location of the item and track
its movement from the point of initial receipt to its final destination.” SFFAS No. 3, Accounting
for Inventory and Related Property, states OM&S shall be valued on the basis of historical cost.
Recommendations: We recommend that the Coast Guard:
    a)	 Update OM&S physical count policies, procedures, and controls, and provide training to
        personnel responsible for conducting physical inventories;
    b)	 Implement effective oversight and monitoring procedures to ensure that physical 

        inventory counts are performed and evaluated in accordance with policies and 

        procedures; 

    c)	 Perform a review of the inventory information contained in subsidiary ledgers to identify
        and correct discrepancies between the perpetual records and actual physical item counts
        at warehouse locations;


                                               I. 21                                    (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

    d)	 Consider developing risk-based cycle counting procedures for OM&S; and
    e)	 Provide adequate support for the value of OM&S to approximate historical cost.

G. 	Legal and Other Liabilities

Background: The Department has legal claims totaling over $10 billion made against it and its
components at September 30, 2006. The Department’s Office of General Council (OGC) has
determined the probability of loss as “remote” on all claims except for a small fraction, less than
1 percent, of total claims which has been accrued as a liability in the financial statements. The
dollar size and number of legal claims against the Department requires management, working
with the OGC, to have a rigorous process in place and operating effectively to ensure that all legal
cases are properly evaluated to determine the likelihood of loss, and liabilities are accrued and/or
disclosed in the financial statements, consistent with generally accepted accounting principles,
throughout the year.
Most of the DHS components estimate accounts payable at year-end for accelerated financial
reporting purposes as a percentage of undelivered orders (UDOs) based on historical trends. As
described in Comment I – Budgetary Accounting, reliable accounting processes surrounding the
recording of obligations and disbursements, and tracking of UDOs are key to the accurate
reporting of accounts payable in DHS’ financial statements.
G&T uses its accounting services provider’s grants management system to support G&T’s grant
making activities. The grants management system allows grantees to submit their financial status
reports electronically via web-based connections. In addition, a majority of the grant programs
that TSA administered have been transferred to G&T. TSA has retained responsibility for
administering grants issued prior to 2004 until closeout, as well as certain other grant programs.
In addition to issuing significant grant awards each year, FEMA’s mission assignment and flood
insurance claims activities have increased considerably after the 2005 hurricane season.
Conditions: We noted the following internal control weaknesses related to legal and other
liabilities (specifically accounts and grants payable):
1	 OFM, in association with OGC, has not:
   •	 Implemented adequate policies and procedures to ensure that OFM is provided with
      sufficient information to accurately and completely present legal liabilities and related
      disclosures in the financial statements throughout the year. We noted the following
      deficiencies with management’s process:
       -   OGC did not provide information to management or the auditors in a timely manner.
           Requests by the auditors to perform interim procedures were denied. We did not
           receive certain requested information on legal cases until mid-October 2006;
       -   OGC did not provide complete responses for all cases, e.g., nature of the matter,
           progress of the matter to date, the governments planned response, etc., as requested by
           the CFO. Consequently, we were unable to complete our testing procedures on legal
           liabilities prior to the completion of the Department’s 2006 PAR; and
       -   The OFM did not perform an assessment of responses received by OGC, in sufficient
           detail to identify inadequacies before the information was provided to the auditor.
           OFM also made representations to the auditor that contingent legal liabilities were
           accurately and completely presented in the financial statements in accordance with
           GAAP, without a clear rationale for that representation other than the information



                                               I. 22                                     (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

           provided by OGC, which, as described above, was not received timely and did not
           contain sufficient information for all cases.
2	 Coast Guard:
   •	 Does not use a reliable methodology to estimate accounts payable. The method used was
      not supported as to the validity of data, assumptions, and criteria used to develop and
      subsequently validate the reliability of the estimate for financial reporting.
   •	 Does not have adequate policies, procedures and internal controls over Coast Guard’s
      process for reconciling military payroll recorded in the CAS general ledger to detail
      payroll records. Military personnel data changes, including changes in leave balances and
      payroll corrections, are not processed to be reflected in the appropriate payroll and/or
      reporting periods, and consequently impact the completeness and accuracy of leave and
      payroll accruals as well as data used for actuarial projections.
   •	 Does not have documented policies and procedures, including appropriately designed
      internal controls, to ensure that the Coast Guard legal liabilities, included with the
      Department’s accrued and disclosed contingent liabilities in the balance sheet at
      September 30, 2006, are accurate and complete. In addition, information is not prepared
      on a quarterly basis as necessary to prepare accurate timely financial statements
      throughout the year.
3	 G&T did not establish a reliable method, including validity of data and assumptions made, to
   estimate its grants payable [or advances] for accrual in the financial statements until the end
   of the fourth quarter of fiscal year 2006. The initial estimate contained errors that were
   discovered during our testwork and, when corrected, resulted in material adjustment to
   management’s original estimate. G&T made the necessary corrections before the issuance of
   the year-end financial statements.
4	 TSA:
   •	 Did not implement a new grant accrual methodology until August 2006, and the new
      methodology did not consider non-reporters. Therefore, the underlying expenditure data
      used in the accrual percentage and the actual expenditure data subsequently used for
      comparison/validation purposes may not be complete.
   •	 Was unable to reconcile its annual leave subsidiary ledger to the general ledger during the
      year, creating an out-of-balance condition in July of approximately $165 million.
5	 FEMA:
   •	 Did not estimate and accrue accounts payable for all material open mission assignments at
      year-end. FEMA only accrued for mission assignments for which a payable confirmation
      had been received from the other Federal agency.
   •	 Did not have fully effective policies and procedures to ensure that insurance company
      financial data collected through a third-party service provider was accurate and complete,
      affecting the reliability of its accounts payable balance as of September 30, 2006.
6	 FEMA and TSA did not have sufficient policies and procedures in place to fully comply with
   the OMB Circular No. A-133, Audits of States, Local Governments, and Non-profit
   Organizations.




                                               I. 23                                    (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

Cause/Effect:
Coast Guard has not yet developed comprehensive policies and procedures or corrective action
plans to address the conditions above, and consequently, management is unable to assert to the
accuracy and completeness of accounts payable, payroll accruals, and legal liabilities recorded as
of September 30, 2006.
G&T and its accounting services provider were in the process of formalizing the current year’s
grant accrual review process during the first three quarters of FY 2006, and as a result, had not
yet performed sufficient analysis to ensure that the historical analyses and the related grant
accrual calculations were accurate.
During fiscal year 2005, the majority of TSA’s grant functions transferred to G&T, and TSA
currently issues very few new grants. Because TSA is not considered a grant-making agency, the
systems supporting grants do not provide for the level of sophistication needed to develop a
robust grant accrual methodology.
FEMA did not perform an analysis to prepare an estimated accrual for related mission
assignments because certain other Federal agencies did not provide payable confirmations. As a
result, intragovernmental accounts payable is likely understated at September 30, 2006.
Additionally, FEMA relies on its third-party service provider to collect reliable and complete data
from the insurance companies participating in the flood insurance program.
At FEMA, G&T, and TSA, if grants are not appropriately monitored, it is possible that funding
will not be used for its intended purpose.
Criteria: GAO Standards hold that transactions should be properly authorized, documented, and
recorded accurately and timely. OMB Circular No. A-123 states that “transactions should be
promptly recorded, properly classified and accounted for in order to prepare timely accounts and
reliable financial and other reports.” SFFAS No. 1, Accounting for Selected Assets and Liabilities,
states, “When an entity accepts title to goods, whether the goods are delivered or in transit, the
entity should recognize a liability for the unpaid amount of the goods. If invoices for those goods
are not available when financial statements are prepared, the amounts owed should be estimated.”
Statement on Auditing Standards (SAS) No. 57 (AU 342.06) states “An entity's internal control
may reduce the likelihood of material misstatements of accounting estimates. Specific relevant
aspects of internal control include the following…Accumulation of relevant, sufficient, and
reliable data on which to base an accounting estimate…Comparison of prior accounting estimates
with subsequent results to assess the reliability of the process used to develop estimates.”
OMB Circular A-133 states that grants should be monitored by the grant making organization.
Recommendations: We recommend that:
1.	 OFM:
    a)	 Establish a time-table with OGC early in the year to perform quarterly updates of the
        legal cases, to ensure that interim period financial statements contain an accurate and
        complete presentation of legal liabilities;
    b)	 Clearly define the type and extent of information needed from OGC on each case, to
        allow OFM to make an assertion on the completeness and accuracy of the financial
        statements. Both the CFO and auditor need to be provided with sufficient information,
        on each template, to understand the basis for the attorney’s conclusion. Cases of greater
        significance, complexity, or liabilities that involve mathematical calculations may require
        an attachment to the template showing more detail to support the estimated liabilities and
        rationale for the attorney’s conclusion. There should be a logical extension to the


                                                I. 24                                    (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

       conclusion (likelihood of unfavorable outcome) based on the information provided in the
       case template; and
   c)	 Perform a thorough assessment of the response received by OGC to determine the
       sufficiency of the information and maintain documentation of their analysis in sufficient
       detail to allow the auditor to reach the same conclusion as management, based on the
       facts stated in the attorney’s response, or other documented evidence obtained by OFM.
2.	 Coast Guard:
   a)	 Analyze and make appropriate improvements to the methodology used to estimate
       accounts payable and support all assumptions and criteria with appropriate
       documentation to develop and subsequently validate the estimate for financial reporting;
   b)	 Implement corrective action, including appropriately designed and implemented internal
       controls, to support the completeness, existence and accuracy of changes in member
       personnel data records and military payroll transactions, and to include recorded accrued
       military leave and payroll liabilities; and
   c)	 Develop, document and implement formal policies and procedures, to include internal
       controls to verify and support management assertions of completeness and accuracy of
       the legal liability estimate and related disclosures on a quarterly basis.
3.	 G&T:
   a)	 Develop and implement policies and procedures to periodically validate the accuracy of
       the calculations used to derive the quarterly grant accrual, and should continue to
       improve and formalize its review process of the grant data files, specifically the
       completeness and accuracy of the information contained in the files;
   b)	 Perform independent reviews to ensure that all information included in the files is

       complete and that the correct amounts are recorded in the financial statements; 

   c)	 Perform analyses over its grant portfolio to better understand the behavior of its grants in
       order to more accurately estimate its grant accrual;
   d)	 Work with DHS management to migrate G&T’s general ledger and grants management
       system to a system maintained by a component within DHS; and
   e)	 The OGO should complete and formalize its policies and procedures for the financial
       monitoring process, and OGO staff should be made aware of these policies which should
       be strictly enforced. Policies should be established to ensure that OGO staff are able to
       complete all of the required documentation within the set timelines.
4.	 TSA:
   a)	 In coordination with G&T, implement monitoring procedures to ensure that grantees
       submit requests for reimbursement and related reports in a timely manner, and continue
       to refine its grant accrual methodology to properly consider grantees that do not submit
       requests for reimbursement in a timely manner (non-reporters); and
   b)	 Review the programming logic used by the service provider to summarize annual leave to
       be recorded in the general ledger. Make corrections where required to properly report the
       annual leave balance in the general ledger. Implement policies and procedures to
       periodically reconcile its annual leave subsidiary records to the general ledger.




                                               I. 25                                     (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

5.	 FEMA:
    a)	 Establish procedures to coordinate with other federal agencies with outstanding mission
        assignments to provide a payable confirmation on a quarterly basis;
    b)	 Develop and implement an estimation methodology to accrue for unpaid mission
        assignment services provided prior to the end of an accounting period if the other federal
        agency does not provide a payable confirmation; and
    c)	 Work with its third-party service provider to clarify with the insurance companies the
        information that should be included with accounts payable, and to implement policies and
        procedures to ensure that consistent, reliable and complete accounts payable data is
        transmitted from the companies to the third-party service provider on a monthly basis.
6.	 FEMA and TSA implement policies and procedures to ensure full compliance with OMB
    Circular No. A-133.

H. 	Actuarial Liabilities

Background: The Coast Guard maintains pension, medical and post-employment travel benefit
programs that require actuarial computations to record related liabilities for financial reporting
purposes. The Military Retirement System (MRS) is a defined benefit plan that covers both
retirement pay and health care benefits for all active duty and reserve military members of the
Coast Guard. The medical plan covers active duty, reservists, retirees / survivors and their
dependents who are provided care at Department of Defense (DoD) medical facilities. The DoD
invoices the Coast Guard for the cost of medical care as services are provided. The post-
employment travel benefit program pays the cost of transportation for uniformed service
members upon separation from the Coast Guard. A combined unfunded accrued liability of
approximately $27.2 billion for the plans is reported in the DHS balance sheet at September 30,
2006. Annually, participant and cost data is extracted by Coast Guard from its records and
provided to an actuarial firm, as input for the liability calculations. The accuracy of the actuarial
liability as reported in the financial statements is dependent on the accuracy and completeness of
the underlying participant and cost data provided to the actuary.
Conditions: Coast Guard:
    •	 Does not have adequate policies, procedures, and controls to ensure the completeness and
       accuracy of participant data, medical cost data, and trend and experience data provided to,
       and used by, the actuary for the calculation of the MRS pension, medical, and post
       employment transportation benefit liabilities. The Coast Guard:
        -   Does not have complete policies to ensure that personnel data records are processed
            timely. During the month of August 2006, approximately 2,000 personnel changes
            were performed, some of which were more than three years old;
        -   Did not follow standard operating procedures to extract and define personnel data
            used by the actuary in the experience study. Four out of 45 records we tested did not
            have supporting documentation; and
        -   Submitted incomplete or inaccurate attribute data to the actuary. Of the records we
            reviewed; 200 active member data records did not contain a key attribute, e.g., date of
            initial entry to service; 10 records had invalid data, e.g., date of birth; 27 records had
            inappropriate object codes affecting personnel classification; 2 records had incorrect
            base pay; and 7 records were not supported by information in personnel files.



                                                 I. 26                                     (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

   •	 Has not performed timely or effective reconciliations between the medical expenditures
      subsidiary ledger and the general ledger, which would have identified errors in underlying
      data prior to the submission of data to the actuary.
   •	 Did not have effective policies, procedures, and controls to review invoices from the DoD
      for medical care, e.g., proper pay rates, classification of participants, etc. Coast Guard
      could not resolve anomalies and errors in cost data provided to the actuary or reconcile
      files provided to the actuary to files presented to the auditors. Consequently, the Coast
      Guard did not identify errors in DoD billings that, over a period of several years, resulted
      in an overstatement of $444 million of the fiscal year 2005 post-retirement medical
      liability and required DHS to restate its published 2005 financial statements. Further,
      more than six months after the errors were discovered, the Coast Guard has not
      implemented corrective actions and has not initiated a review of all invoices from other
      DoD military treatment facilities to validate the accuracy and completeness, or established
      procedures and controls to prevent similar errors from reoccurring. The Coast Guard does
      not have an established process to inform the actuary of Congressional legislation that
      changed allotments, entitlements, calculation methods, and amounts of military pay,
      which could materially affect the calculation of actuarial liabilities.
Cause/Effect: Much of the data required by the actuary comes from personnel and payroll
systems that are outside of Coast Guard’s accounting organization and are instead managed by
Coast Guard’s Personnel Service Center (PSC). The PSC does not perform a reconciliation of
basic pay information provided to the actuary with actual disbursements recorded in the general
ledger. As a result of weak policies, procedures and controls, the actuary was provided with
erroneous data, and the problem was discovered too late in the year to recompute pension and
other post-retirement liabilities. Consequently, the Coast Guard management is unable to
provide assurance on the completeness and accuracy of actuarially determined liabilities as stated
in the DHS balance sheet at September 30, 2006. In addition, the Coast Guard does not have
sufficient controls to prevent overpayments to the DoD for medical services, and inaccurate
medical costs submitted to the Coast Guard actuary could result in a misstatement of the actuarial
medical liability and related expenses. Also, the conditions noted exist, in part, because of
ineffective entity-level controls, in particular, with regard to financial management oversight –
see Comment A – Financial Management and Oversight.
Criteria: GAO Standards state that management is responsible for developing policies,
procedures, techniques, and mechanisms that enforce management’s directives. Control activities
include approvals, authorizations, verifications, reconciliations, performance review, and the
creation and maintenance of related records that provide evidence of execution of these activities,
as well as appropriate documentation.
According to SFFAS No. 5, Accounting for Liabilities of the Federal Government, paragraph 95,
the employer should recognize an expense and a liability for other post-employment benefits
(OPEB) when a future outflow or other sacrifice of resources is probable and measurable on the
basis of events occurring on or before the reporting date. Further, the long-term OPEB liability
should be measured at the present value of future payments, which requires the employer to
estimate the amount and timing of future payments, and to discount the future outflow over the
period for which the payments are to be made.
Recommendations:
We recommend that Coast Guard:
    a)	 Establish and document policies, procedures, and effective controls to ensure the 

        completeness and accuracy of participant data, medical cost data, and trend and 



                                               I. 27                                    (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

        experience data provided to, and used by, the actuary for the calculation of the MRS
        pension, medical, and post employment travel benefit liabilities; perform an analysis of
        its personnel data IT systems to determine why certain IT system interfaces or query
        programs did not reliably process attribute data provided to the actuary and to identify
        key controls that were absent or ineffective; and take corrective action regarding any data
        anomalies identified and consider the need to revise trend and experience data;
    b)	 Perform a periodic reconciliation between the medical expenditures recorded in the
        subsidiary ledger and those recorded in the CAS, and address differences before data is
        provided to the actuary. This reconciliation should be performed for all significant
        sources of medical actuarial data, including TriCare, and DoD Military Treatment
        Facilities (MTFs). In addition, this reconciliation should be reviewed by someone other
        than the preparer to ensure accuracy;
    c)	 Establish policies, procedures, and controls to review invoices received from the DoD for
        medical care including incurred but not reported costs. These procedures could include
        analysis of monthly medical cost payment trends, and related evaluations of trends, to
        assess the accuracy and consistency of billings (between the military services), and for
        various treatment types (e.g., in-patient, out-patient). The Coast Guard should also verify
        that MTFs only bill for services provided to eligible Coast Guard participants and
        sponsors; and
    d)	 Establish a process to inform the actuary of Congressional legislation that changed
        allotments, entitlements, calculation methods, and amounts of military pay, which could
        materially affect the calculation of actuarial liabilities.

I. 	 Budgetary Accounting

Background: Budgetary accounts are a category of general ledger accounts where transactions
related to the receipt, obligation, and disbursement of appropriations and other authorities to
obligate and spend agency resources are recorded. Combined, DHS has over 300 separate
Treasury fund symbols (TAFS), each with separate budgetary accounts that must be maintained
in accordance with OMB and Treasury guidance. The TAFS cover a broad spectrum of budget
authority, including annual, multi-year, and no-year appropriations; and several revolving,
special, and trust funds. The DHS components discussed below account for more than 85 percent
of all DHS TAFS. Accounting for budgetary transactions in a timely and accurate manner is
essential to manage the funds of the Department and prevent overspending of allotted budgets.
Most of the DHS components estimate accounts payable at year-end as a percentage of UDOs
based on historical trends. UDOs are obligations, or budgetary funds reserved, for good and
services ordered but not yet delivered to DHS. At year-end, DHS reported over $440 billion in
UDOs. Reliable accounting processes surrounding obligations, UDOs, and disbursements are key
to the accurate reporting of accounts payable in DHS’ financial statements (see Comment G –
Legal and Other Liabilities).
The majority of conditions cited below for Coast Guard are repeated from our fiscal year 2005
report. The Coast Guard has initiated a review of its obligation and procurement processes,
including those related to the Integrated Deepwater System.
TSA’s ability to monitor and account for its budgetary accounts, including UDOs and accurately
estimate accounts payable is partially dependent on the Coast Guard as TSA’s accounting service
provider.




                                               I. 28                                    (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

FEMA budgetary accounts were significantly affected by a large increase in appropriated funds
provided at the end of fiscal year 2005.
Consistent with ICE’s multi-year CAP to address its internal control weakness, ICE has not fully
implemented corrective actions over budgetary accounts, including UDOs. In addition,
management is continuing to evaluate and validate the propriety of certain prior year obligations
of the Federal Protective Service (FPS). Management was unable to assert to the completeness
and validation of the UDO balances and, consequently, we were unable to complete our testing of
FPS UDOs and the related effects on accounts payable and net position in fiscal year 2006.
While ICE performs accounting services for other DHS components, such as the Management
Directorate and US-Visit, each component has certain responsibilities within the budgetary and
disbursement process, e.g., the timely and accurate recording of obligations that they must
perform, to ensure accurate overall financial reporting.
Conditions: We noted the following internal control weaknesses related to budgetary accounting,
many of which were repeated from fiscal year 2005:
1	 Coast Guard:
   •	 The policies, procedures and internal controls over Coast Guard’s process for validation
      and verification of UDO balances are not effective to ensure that recorded obligations
      were valid, obligations incurred were recorded timely, and that proper approvals and
      supporting documentation is maintained. Coast Guard has not designed or implemented a
      comprehensive internal control program across all components of the organization to
      prevent or detect and correct misstatements to UDO balances reported on the financial
      statements. In addition, programming logic and transaction codes used to record
      advances for which an obligation was not previously recorded are not operating
      effectively to ensure the obligation and UDO are properly recorded.
   •	 Policies were not fully implemented to ensure that contract awards were recorded in the
      general ledger in a timely manner, and as a result, obligations might have been
      temporarily understated. In addition, we noted a lack of segregation of duties associated
      with the creation and approval of purchase requisitions, certification of funds availability,
      and the recording of the obligations.
   •	 Procedures and controls are not adequate to prevent a commitment or obligation of funds
      in excess of established appropriations. While the Coast Guard did take action to correct
      this weakness during fiscal year 2006, the system edits could not be demonstrated to be
      fully functional during our engagement. In addition, the Coast Guard did not effectively
      monitor unobligated commitment activity in its procurement system. As of July 2006,
      there were over 17,000 unobligated commitment transactions totaling approximately $442
      million. In addition, the policy does not require all procurement units to fully utilize IT
      system controls, and therefore, Financial Procurement Desktop (FPD) users have the
      ability to create Purchase Requisition (PR) document numbers with less than the standard
      16 characters/digits.
   •	 FPD was also not properly reconciled to the CAS, affecting the completeness, existence
      and accuracy of the year-end “pipeline” adjustment that was made to record obligations
      executed before year-end, but which were not made into the system prior to year-end
      close. Obligations were recorded in FPD, but were not properly interfaced with the CAS,
      and were not supported by adequate documentation.
   •	 Obligations related to post-employment permanent changes of station (PCS) were not
      recorded at the time orders were approved and issued.


                                               I. 29                                     (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

    •	 Automated system controls are not effectively used to prevent the processing of
       procurement transactions by contracting officer’s with expired warrant authority, and a
       manual compensating control was not effective since listings of warranted contracting
       officers were not complete.
2	 TSA:
    •	 Did not maintain, documentation supporting UDOs and related purchase information in a
       manner that is readily available to management and the auditors. Consequently, TSA was
       unable to provide sufficient documentation to support a sample of UDO balances at year
       end prior to the completion of the DHS’ 2006 PAR.
    •	 Has developed, but not fully implemented, IT system programming logic which allows
       the accounting system to record obligations recovered at the transaction level in
       accordance with SGL requirements.
3	 FEMA:
    •	 Does not have adequate resources to monitor the status and ensure the timely deobligation
       of mission assignments4, resulting in an overstatement of UDOs at the time of our
       testwork. In our June 30th and September 30th samples, we identified numerous
       exceptions that prevented us from concluding on the mission assignment portion of the
       UDO balance.
    •	 Did not maintain adequate communications with its grants disbursements service provider
       regarding the reliability of its internal controls. In fiscal year 2006, FEMA’s grant
       disbursement service provider received a qualified opinion over the effectiveness of its
       internal controls for the period October 1, 2005, to June 30, 2006. However, FEMA was
       not aware of these control deficiencies until late October 2006, and consequently,
       payment information from the third-party service provider used to reduce obligations in
       its general ledger may not be accurate.
4	 ICE has not completed its validation and verification of FPS prior year obligations, in order to
   determine the propriety of the completeness, existence, and accuracy of those obligations.
5	 Management Directorate has not:
    •	 Established policies and procedures to ensure that obligations are recorded timely.
       Specifically, in a sample of 45 items, we noted that (a) the period of performance was
       prior to the obligation being recorded in Federal Financial Management System (FFMS)
       for three samples items; (b) the invoice was received prior to the obligation being
       recorded in FFMS for three items, and (c) Intergovernmental Payments and Collections
       (IPAC)s were paid prior to the obligation being recorded in FFMS for two items; thus, it
       appears that services were rendered before the obligation was recorded in FFMS.
    •	 Established policies and procedures to ensure that all key attributes of an obligation and
       purchase are recorded in the financial accounting system. In a sample of 45 items, we
       noted that four purchases were not classified properly at the time of acquisition, e.g., as a
       good or service. Proper classification of the purchase is important for system controls to
       be effective at the time of receipt of the good or service and when estimating accounts
       payable.


4
 In accordance with FEMA’s National Response Plan (NRP), FEMA may require the assistance of other Federal
agencies to assist with Disaster Relief, as needed. The NRA defines a Mission Assignment as the vehicle used by
DHS/FEMA to engage and fund services of other Federal agencies to respond to a disaster or emergency declaration.


                                                       I. 30                                           (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

6   US-Visit has not established policies and procedures to ensure that documentation supporting
    obligations and subsequent disbursements is filed and readily available for management and
    auditor review.
Cause/Effect:
Several of the Coast Guard’s budgetary control weaknesses can be corrected by modifications or
improvements to the financial accounting system, process improvements, and strengthened
policies. The Coast Guard has deferred correction of these conditions until fiscal year 2007. The
Coast Guard also serves as TSA’s accounting service provider; therefore, some financial
accounting system and process weaknesses at the Coast Guard may affect TSA’s accounting
records as well. Further, TSA fund managers do not periodically reconcile and research
outstanding obligation balances to determine their continued validity. FEMA’s ability to monitor
and manage mission assignments was significantly affected by resource limitations, and an
exceptionally high volume of transactions related to significant hurricanes in 2005. In addition,
FEMA did not maintain sufficient contact during the year with its third-party service provider for
grant disbursements to ascertain that control weaknesses existed and were reported timely.
Weak controls in budgetary accounting, and associated contracting practices increase the risk that
DHS and its components could violate the Anti-deficiency Act and overspend their budget
authority. The financial statements are also at greater risk of misstatement. The untimely release
of commitments may prevent funds from being used timely for other purposes.
Criteria: According to JFMIP’s Core Financial System Requirements, an agency’s core financial
management system must ensure that an agency does not obligate or disburse funds in excess of
those appropriated and/or authorized and specific system edits and user notifications related to
funds control must be in place. The Federal Acquisition Regulation (FAR) Section 1.16
addresses the authorities and responsibilities granted contracting officers. Treasury’s USSGL
guidance specifies the accounting entries related to budgetary transactions.
According to OMB Circular No. A-123, “agency managers should continuously monitor and
improve the effectiveness of internal control associated with their programs.” This continuous
monitoring, and other periodic evaluations, should provide the basis for the agency head's annual
assessment of and report on internal control, as required by FMFIA. This Circular indicates that
“control weaknesses at a service organization could have a material impact on the controls of the
customer organization. Therefore, management of cross-servicing agencies will need to provide
an annual assurance statement to its customer agencies in advance to allow its customer agencies
to rely upon that assurance statement. Management of cross-servicing agencies shall test the
controls over the activities for which it performs for others on a yearly basis. These controls shall
be highlighted in management’s assurance statement that is provided to its customers. Cross-
servicing and customer agencies will need to coordinate the timing of the assurance statements.”
FFMIA Section 803(a) requires that each Agency to implement and maintain a system that
complies substantially with Federal financial management system requirements as stipulated by
OMB Circular No.A-127.
FEMA’s SOP for Processing Mission Assignment and Interagency Payments for Fund Code 06,
April 2005, establishes the process for Mission Assignment (MA) closeouts. The quarterly
review of unliquidated obligations (ULO) lists all MA obligations with an available balance. The
Financial Information Analyst (FIA) or Accountant reviews the MA report or Mission
Assignment Financial Information Tool Report and other internal records to track activity against
the obligation. If no activity has been recorded within the last 90 days, the Disaster Finance
Branch (DFB) initiates the closeout process, by sending the quarterly ULO report to the Region
or Headquarters MA Coordinator (MAC) for action.



                                                I. 31                                     (continued)
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

The FEMA Form 90-129, Mission Assignment Agreement, states in the description of work that
the Other Federal Agency (OFA) is responsible for submitting a Mission Assignment Monthly
Progress Report to FEMA to include cost data when MAs take more than 60 days to complete,
including billing. The Anti-deficiency Act prohibits agencies from obligating or disbursing more
than their appropriations and apportionments, has strict requirements for reporting violations, and
includes penalties for violations. GAO Standards hold that transactions should be properly
authorized, documented, and recorded accurately and timely.
Recommendations: We recommend that:
1.	 Coast Guard:
    a)	 Improve policies, procedures, and controls related to processing obligation transactions,
        including periodic review and validation of UDOs. Emphasize to all fund managers the
        need to perform effective reviews of open obligations, obtain proper approvals, and retain
        supporting documentation;
    b)	 Evaluate programming logic and transactions codes used to record advances for which an
        obligation was not previously recorded to ensure the obligation and UDO is properly
        recorded;
    c)	 Fully implement policies to ensure that contract awards are recorded in the general ledger
        in a timely manner;
    d)	 Improve segregation of duties for transactions related to the creation and approval of
        purchase requisitions, certification of funds availability, and the recording of the
        obligations, and record contracts timely;
    e)	 Revise controls and related policies and procedures to periodically review commitments,
        e.g., monitor aging, and determine the feasibility of modifying FPD to transmit all
        commitments, regardless of dollar amount, to the general ledger system, and to properly
        interface FPD with CAS;
    f)	 While no violations were noted, consider activating the electronic edit checks in FPD to
        prevent incurring commitments and obligations in excess of appropriations and
        apportionment and allotment levels; use of such a control is one method that would allow
        the Coast Guard to automatically flag and prevent the recording of commitments (a
        reservation of funds for future obligation) and obligations in excess of appropriations,
        apportionments, or allotments. In addition, the Coast Guard should establish procedures
        to effectively monitor unobligated commitment activity and make timely adjustments,
        e.g., cancel or update, to reflect the status of commitments;
    g)	 Reconcile FPD to CAS to ensure the completeness, existence, and accuracy of the year
        end “pipeline” adjustment that is made to record obligations executed before year-end,
        but not recorded in the system prior to year-end close;
    h)	 Implement procedures to ensure that obligations related to PCS are recorded at the time
        orders are approved and issued, and supporting documentation is maintained; and
    i)	 Establish automated system controls to preclude the processing of procurement 

        transactions if the contracting officer’s warrant authority had expired. 

2.	 TSA:
    a)	 Develop system tools that improve the process of identifying, summarizing, and reporting
        accounting transactions to allow for the timely identification and research of procurement
        and expenditure documentation;



                                               I. 32                                     (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

    b)	 Retain all procurement and intragovernmental expense supporting source documentation
        in a manner that facilitates timely document retrieval;
    c)	 Review outstanding obligations for validity on a periodic basis, and document this
        review; and
    d)	 Continue to work with its accounting services provider to fully implement programming
        logic in CAS to capture and report prior year recoveries at the transaction level.
3.	 FEMA:
    a)	 Require all regional offices to perform a complete UDO review, monitor timely
        completion of this review, and ensure that all identified mission assignment deobligations
        are processed in the general ledger promptly;
    b)	 Ensure that personnel follow the established policy for quarterly obligation reviews prior
        to the end of each quarter to timely determine whether the remaining balance on a
        mission assignment is valid, or whether a deobligation of the remaining balance is
        necessary;
    c)	 Seek assistance from other components within DHS and/or contractors when additional
        administrative staffing resources are needed because of disaster situations; and
    d)	 Establish procedures to periodically communicate with its third-party service provider for
        grant disbursements to ascertain if control weaknesses exist and are reported timely.
4.	 ICE complete its validation and verification of FPS prior year obligations and verify the
    completeness, existence, and accuracy of FPS recorded obligations.
5.	 Management Directorate:
    a)	 Redesign the procurement process, as necessary, and follow established procedures and
        internal controls to ensure that all obligations are accurately entered into FFMS in a
        timely manner, in accordance with applicable accounting standards, e.g., OMB Circular
        No. A-11;
    b)	 Policies and procedures be followed to ensure that all key attributes of an obligation and
        purchase are recorded in the financial accounting system; and
    c)	 Improve policies and procedures to ensure that documentation, including contracting
        officer approvals, is maintained to support all obligations.
6.	 US-Visit should follow existing procedures to ensure that undelivered orders are periodically
    verified and validated and that the Open Document File is a reliable source to compute the
    accounts payable estimate. In addition, documentation supporting obligations and
    subsequent disbursements is filed and available for management and auditor review.

J. Intragovernmental Balances

Background: DHS conducts business with other Federal agencies resulting in intragovernmental
receivables, payables, and the reporting of revenues, expenses and transfers from
intragovernmental transactions. Federal accounting and reporting regulations require Federal
agencies to routinely identify and reconcile intragovernmental balances and transactions with
trading partners. These procedures help ensure that intragovernmental balances properly
eliminate in the government-wide financial statements.
Conditions: In fiscal year 2005, we reported that DHS did not timely or completely reconcile
intragovernmental balances with other Federal entities, particularly the DoD. Consequently, the


                                               I. 33                                     (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

DHS’ Material Difference/Status of Disposition Certification Report, submitted to Treasury for
September 30, 2005, showed material differences attributable to accounting/reporting errors in
excess of $1.6 billion. These conditions also impacted DHS’ ability to accurately report
transactions with Federal government trading partners in the financial statements and in the
Required Supplementary Information section of the financial statements, as required.
During fiscal year 2006, we noted that DHS did not take action to correct the conditions reported
in 2005. OFM has not been able to reconcile intragovernmental asset, liability, and revenue
amounts with trading partners, as required by OMB Circular No. A-136, as follows:
   •	 OFM did not coordinate a DHS-wide reconciliation throughout the year of all
      intragovernmental balances. We noted that DHS, in cooperation with its components,
      have not developed and adopted effective policies and procedures, or established systems,
      to completely track, confirm, and reconcile intra-governmental balances and/or
      transactions with trading partners in a timely manner, which contributed to the material
      differences, cited below in 2006.
   •	 The Material Differences Reports submitted to Treasury identified accounting/reporting
      errors of approximately $1.4 billion in both the first and second quarter 2006. These
      differences were primarily related to activity with the following trading partners: 96-U.S.
      Army Corps of Engineers and 97-Office of the Secretary of Defense-Defense Agencies.
      These differences were not fully reconciled/ resolved by the following quarter.
   •	 The third quarter Material Differences Reports submitted to Treasury identified
      approximately $25.4 billion in material differences with trading partners, of which DHS
      indicated $25.3 billion related to accounting/reporting errors. Upon investigation, OFM
      indicated that incorrect data was transmitted to Treasury and resulted in a substantial
      amount of the errors in the report. OFM has not been able to determine the cause of this
      incorrect file submission. We also note that as the third quarter Treasury Material
      Differences Report was based on erroneous information, additional trading partner
      differences may have been identified if accurate information had been provided to
      Treasury.
Cause/Effect: A lack of resources, and decisions by management to defer corrective action, lead
to the lack of reconciliation of intragovernmental differences. OFM’s corrective action plan
indicates that these conditions will not be fully remediated until fiscal year 2008. Reconciling
trading partner activity and balances at least quarterly is necessary to identify material out-of
balance conditions between Federal entities and to support an accurate consolidation of DHS and
the Government-wide financial statements.
Criteria: The Treasury Federal Intragovernmental Transactions Accounting Policies Guide,
dated August 18, 2006 (TFITAPG) states that OMB Circular No. A-136, requires Federal CFO
Act and non-CFO Act entities identified in the Treasury Financial Manual 2006, Vol. I, Part 2
Chapter 4700, Agency Reporting Requirements for the Financial Report of the United States
Government, perform quarterly reconciliations of intragovernmental activity/balances.
Per the TFITAPG, each quarter of Federal agencies are responsible for:
    •	 Establishing and maintaining a structure for intragovernmental transactions (initiating,
       executing, recording, reconciling, and reporting procedures).
    •	 Documenting and supporting the information recorded in the accounting records related
       to intragovernmental transactions.
    •	 Recording activity between Federal entities at the transaction level.




                                               I. 34                                   (continued)	
Independent Auditors’ Report
Exhibit I – Material Weaknesses in Internal Control

    •	 Providing intragovernmental balances (“F” transactions) for all proprietary USSGL
       accounts to FMS each quarter.
    •	 Reconciling the intragovernmental data in the accounting records to the supporting
       documentation based on FMS IRAS Reports.
    •	 Representing that all intragovernmental balances have been reconciled and that those
       balances are presented in the agency’s audited financial statements as instructed by OMB
       Circular No. A-136.
    •	 Establishing a consistent relationship with their trading partners in order to identify and
       resolve differences.
The Treasury Financial Management Service Memorandum M-03-01, dated October 4, 2002,
provides guidance to Federal agencies for standardizing the processing and recording of
intragovernmental activities. The Treasury Federal Intragovernmental Transactions Accounting
Policies Guide, dated October 23, 2002, requires quarterly reconciliation of intragovernmental
asset, liability, and revenue amounts with trading partners. Further, the TFM, Section 4706,
Intragovernmental Activity/Balances, requires reporting agencies to reconcile and confirm
intragovernmental activity and balances quarterly for specific reciprocal groupings. It also
requires agency financial statements to be presented on a consolidated basis, including the
elimination of significant intradepartmental transactions and balances for reporting purposes.
Recommendation:
1.	 We recommend that DHS OFM:
    a)	 Develop a Department-wide policy that requires the reconciliation of intragovernmental
        balances with trading partners in accordance with Treasury requirements;
    b)	 Establish a formal documented review and approval process over reconciliation activities
        performed by OFM to ensure that all intragovernmental activity and balances are
        identified and differences are being resolved in a timely manner. Procedures should also
        include obtaining positive confirmation of balances with DHS trading partners;
    c)	 Establish a relationship/point of contact with senior management of every trading partner
        to facilitate the resolution of differences on an on-going basis. For example, perform pro
        active reconciliation discussions with trading partners prior to the quarterly submissions
        of intragovernmental balances to Treasury;
    d)	 Review the processes/logic used to generate the “F” transactions report and develop
        controls to ensure correct data is sent to FMS every quarter; and
    e)	 Develop a correction action plan that will correct the conditions in fiscal year 2007.
2.	 We recommend that DHS OFM, develop and implement procedures to positively confirm and
    reconcile, at least on a quarterly basis, all intragovernmental activity and balances with their
    intragovernmental trading partners, including other DHS component entities, as prescribed by
    Treasury guidance.




                                                I. 35                                                  

Independent Auditors’ Report
Exhibit II – Other Reportable Conditions

K. 	 Environmental Liabilities
Background: The Coast Guard’s environmental liabilities consist of two main types: shore
facilities and vessels. Shore facilities include any facilities or property other than ships and
aircraft, e.g., buildings, fuel tanks, lighthouses, small arms firing ranges (SAFRs), batteries from
aids to navigation, etc.
The Federal Law Enforcement Training Center (FLETC) maintains a number of SAFRs in at least
four locations. FLETC also maintains facilities that contain lead-paint and asbestos.
Conditions: We noted the following internal control weaknesses related to DHS’ environmental
liabilities:
1	 Coast Guard has not:
   •	 Implemented effective policies, procedures and systems the will ensure that its
      environmental liabilities are accurately and completely estimated and recorded in its
      financial statements. We noted that:
        -   Coast Guard could not support the completeness and existence of the population of
            shore facilities, including lighthouses and SAFRs used to estimate the related portions
            of the liability. Site visits were not performed to verify completeness of lists of assets
            requiring clean-up;
        -   The process and modeling techniques used to estimate the liability are not reliable.
            Generalized cost parameters and assumptions in the lighthouse and SAFR models are
            used in the absence of site-specific inspection and data. Changes in methodology are
            not documented, and multiple assumptions and cost parameters are used in models
            without sufficient evidence to support the assumptions;
        -   Estimates are not always subsequently validated against historical costs, and detailed
            cost data that reconciles to the general ledger is not maintained; and
   •	 Implemented policies requiring quarterly procedures to determine if significant changes to
      the estimated liability are required for financial statement reporting.
2	 FLETC has not:
   •	 Implemented effective policies and procedures to accurately and completely estimate its
      liabilities. Consequently, FLETC’s liability for lead contamination at its SAFRs was
      substantially understated and required an adjustment to the financial statements at year
      end.
   •	 Implemented a process to completely identify the existence of lead-paint and asbestos
      contamination, and to accurately estimate the cost of clean-up for financial statement
      purposes. The estimation process used in fiscal year 2006 was not supported by a detailed
      analysis that, among other things, considered the actual square footage of the
      contaminated area and the type of asbestos contamination.
Cause/Effect: Coast Guard has not developed consistent, written agency-wide policies to define
the technical approach, cost estimation methodology, and overall financial management oversight
of its environmental remediation projects, resulting in inconsistency in its estimates and possible
misstatement of the liability in its financial statements. FLETC did not have policies and
procedures in place whereby the Environmental and Safety Division would report the sites
subject to clean-up, types of contamination, and the calculation of an estimated liability for
asbestos-related clean-up costs.


                                                 II. 1 	                                   (continued)
Independent Auditors’ Report
Exhibit II – Other Reportable Conditions

Criteria: SFFAS No. 6, paragraph 85, defines environmental cleanup costs as those costs for
removing, containing, and/or disposing of (1) hazardous waste from property, or (2) material
and/or property that consists of hazardous waste at permanent or temporary closure or shutdown
of associated PP&E. Paragraph 88 states that these cleanup costs meet the definition of liability
provided in SFFAS No. 5. In addition, SFFAS No. 6, paragraph 96, states that remediation
estimates shall be revised periodically to account for material changes due to inflation or deflation
and changes in regulations, plans and/or technology. New remediation cost estimates should be
provided if there is evidence that material changes have occurred; otherwise estimates may be
revised through indexing.
FASAB Technical Release No. 2, Determining Probable and Reasonably Estimable for
Environmental Liabilities in the Federal Government, states that an agency is required to
recognize a liability for environmental cleanup costs as a result of past transactions or events
when a future outflow or other sacrifice of resources is probable and reasonably estimable.
Probable is related to whether a future outflow will be required. Reasonably estimable relates to
the ability to reliably quantify in monetary terms the outflow of resources that will be required.
The GAO Standards state that management is responsible for developing and documenting
detailed policies, procedures, and practices that fit their agency’s operations. As part of their
monitoring of internal control, management must continue to maintain these policies and
procedures and assess the quality of performance over time.
Recommendations: We recommend that:
1.	 Coast Guard:
    a)	 Develop policies, procedures, processes and controls to ensure identification of and
        recording of all environmental liabilities, such as soil testing and remediation,
        lighthouses, small arms ranges, and vessels; and continue efforts to implement corrective
        action plans regarding small arms firing ranges and lighthouse/light station remediation
        projects. Perform a review of the population, historical and physical details, and
        regulatory requirements, to determine and document whether Coast Guard has an
        environmental liability associated with water-based firing ranges and ranges used by
        aircraft;
    b)	 Implement policies and procedures to ensure the proper calculation and review of cost
        estimates for consistency and accuracy in financial reporting including the use of tested
        modeling techniques, use of verified cost parameters, and assumptions. The
        methodologies used should be documented with sufficient evidence maintained to
        support the assumptions used. Specifically, we recommend that the Coast Guard
        i)	 Collect scope and cost data relating to actual/historical lighthouse and SAFR reviews
            and remediation, and improve, verify, and validate the cost model based on the data;
            and
        ii)	 Conduct site visits to collect and document data related to the current lighthouses and
             SAFRs to determine that the input to the modeled estimates accurately reflects
             known conditions and to validate assumptions used in the estimates.
    c)	 Estimates should be periodically validated against historical costs, and detailed cost data
        should be maintained and reconciled to the general ledger, in order to:
        i)	 Identify and document the source data for all historical vessel cleanup costs used in
            the average cost per foot calculation for the vessels portion of the environmental
            liability, and reconcile the data to the Coast Guard general ledger(s); and



                                                 II. 2 	                                   (continued)
Independent Auditors’ Report
Exhibit II – Other Reportable Conditions

        ii)	 Perform an analysis of the disparities between the written vessel cleanup cost
             estimates and the calculated average cost-per-foot estimates in order to determine the
             cause and the appropriate estimates.
    d)	 Document and implement an internal control program to install appropriate financial
        management oversight, segregation of duties and management review, as well as a
        training program for cost estimators and reviewers.
2.	 FLETC:
    a)	 Provide detailed training on the accounting requirements for environmental liabilities to
        personnel in the FLETC Facilities Management and Environmental and Safety Division;
        and
    b)	 Establish policies and procedures to identify the type and extent of all potential
        environmental contamination develop an estimate of all environmental liabilities, and
        update the estimates quarterly. The estimate should be a product of a detailed analysis
        utilizing verifiable assumptions and cost data that are documented and available for
        review by the auditor.

L.	 Custodial Revenue and Drawback

Background: CBP collects approximately $28 billion in annual import duties, taxes, and fees on
merchandise arriving in the United States from foreign countries. Receipts of import duties and
related refunds are presented in the statement of custodial activity in the DHS financial
statements. CBP is the only DHS component with significant custodial responsibilities.
Drawback is a remittance, in whole or in part, of duties, taxes, or fees previously paid by an
importer. Drawback typically occurs when the imported goods on which duties, taxes, or fees
have been previously paid, are subsequently exported from the United States or destroyed prior to
entering the commerce of the United States.
CBP employs a risk-based system of internal control over the collection of taxes, duties, and fees.
By design, imports are subjected to various controls depending on a risk assessment associated
with the importer, country of origin, merchandise being imported to the United States, and other
factors. To measure the effectiveness of this risk-based control approach, CBP uses a technique
known as the Compliance Measurement Program (CMP), which is essentially a control self-
assessment. The CMP is also used to compute the “revenue gap” that is disclosed in DHS’ 2006
PAR, as described by SFFAS No. 7, Accounting for Revenue and Other Financing Sources and
OMB Circular No. A-136.
Bonded Warehouses (BW) are facilities under the joint supervision of CBP and the Bonded
Warehouse Proprietor used to store merchandise that has not made entry into the United States
commerce. Foreign Trade Zones (FTZ) are secured areas under CBP supervision that are
considered outside of the CBP territory, upon activation.
In-bond entries occur when merchandise is transported through one port; however, the
merchandise does not officially enter U.S. commerce until it reaches the intended port of origin.
An In-bond also allows foreign merchandise arriving at one U.S. port to be transported through
the U.S. and be exported from another U.S. port without the payment of duty. In 1998, CBP
implemented a tracking and audit system within the Automated Commercial System (ACS).
Conditions: We noted the following internal control weaknesses related to custodial activities at
CBP:



                                               II. 3 	                                   (continued)
Independent Auditors’ Report
Exhibit II – Other Reportable Conditions

Related to drawback:
   •	 The ACS lacked automated controls to detect and prevent excessive drawback claims and
      over-payments, necessitating inefficient manual processes that do not effectively
      compensate for these automated controls. ACS did not have the capability to compare,
      verify, and track essential information on drawback claims to the related underlying
      consumption entries or export documentation upon which the drawback claim was based.
      Drawback review policies did not require drawback specialists to review all related
      drawback claims against the underlying consumption entries to determine whether, in the
      aggregate, an excessive amount was claimed.
   •	 ACS lacked controls to prevent overpayment of drawback claims at the summary line
      level that were subject to the new deem liquidation process put in place during fiscal year
      2006. Specifically, we noted approximately $387K of overpayments. Also during fiscal
      year 2006, we noted a claim that was disbursed by accelerated payment in a prior year
      that was subsequently paid again during fiscal year 2006.
   •	 CBP drawback review policy and procedures allowed drawback specialists, with
      supervisory approval, to judgmentally decrease the number of ACS selected underlying
      consumption entries randomly selected for review, thus decreasing the review’s
      effectiveness.
   •	 The initial period for document retention related to a drawback claim is only 3 years from
      the date of payment. However, there are several situations that could extend the life of the
      drawback claim well beyond those 3 years.
Related to the entry process – collection of taxes, duties and fees, and CMP:
   •	 Policies, procedures, and general guidance provided to CMP coordinators related to
      sampling, review procedures, and documentation requirements for the monthly review of
      CM results are weak. Consequently, we noted a number of instances of non-compliance
      with CMP guidelines, inconsistencies in CMP review performance, and a lack of
      documentation to confirm performance of the monthly reviews. In addition, CBP policies
      allow the Import Specialist up to 120 days to input results of CMP reviews, which may
      interfere with CBP’s timely review of CMP results.
   •	 The National Analysis Specialist Division (NASD) port audits were no longer performed
      during FY 2006. Instead, CBP-HQ relies on the Self-Inspection program to determine
      how the ports are performing the CM examinations. We also noted that questions on the
      self-inspection program worksheets do not provide the equivalent information that the
      twenty-five point port audit review provided.
   •	 CBP lacks formal policies and procedures to ensure the CM data used for analysis and to
      compute the revenue gap is accurately and completely input into the IT system.
Related to BW, FTZ, and In-bond:
   •	 We noted inconsistencies in the performance of risk assessments and compliance reviews
      of BWs, and FTZs, and in-bond entries in various ports. In addition, HQ review of the
      assessment results can take up to 6 months to compile and analyze.
   •	 CBP has not implemented a CMP to measure the revenue gap and effectiveness of
      controls over trade compliance related to the In-bond process.
Cause/Effect: CBP has been challenged to balance its commitment of limited resources to two
important mission objectives – trade compliance, including the collection of taxes, duties and fees



                                               II. 4 	                                  (continued)
Independent Auditors’ Report
Exhibit II – Other Reportable Conditions

owed to the Federal government, and securing the U.S. borders from potential terrorist entry.
While these mission objectives do overlap somewhat, there are differences in how resources are
deployed. In fiscal year 2006, CBP made significant improvements in its custodial review
controls and measurement processes, procedures and policies. For drawback, much of the
process is manual until planned IT system functionality improvements are made, placing an
added burden on limited resources. Policies and procedures have not been fully developed or
implemented that will ensure reliable, timely reviews and tracking of the BWs, FTZ, and In-bond.
Criteria: Under FMFIA, management must implement cost-effective controls to safeguard assets
and ensure reliable financial reporting. OMB’s Revised Implementation Guidance for FFMIA,
states that financial systems should “routinely provide reliable financial information consistently,
accurately, and reported uniformly” to support management of current operations. JFMIP
publications and OMB Circular No. A-127 outlines the requirements for Federal systems.
JFMIP’s Core Financial System Requirements states that the core financial system must maintain
detailed information by account sufficient to provide audit trails and to support billing and
research activities. OMB Circular No. A-127 requires that the design of financial systems should
eliminate unnecessary duplication of a transaction entry. Wherever appropriate, data needed by
the systems to support financial functions should be entered only once and other parts of the
system should be updated through electronic means consistent with the timing requirements of
normal business/transaction cycles.
The Improper Payments Information Act of 2002, effective in fiscal year 2004, requires agencies
to assess the risk of erroneous payments and develop a plan to correct control weaknesses. In
addition to the regulatory requirements stated above, CBP’s Drawback Handbook, dated July
2004, states that management reviews are necessary to maintain a uniform national policy of
supervisory review.
Recommendations: We recommend that CBP:
Related to drawback:
    a)	 Implement effective internal controls over drawback claims as part of any new systems
        initiatives, including the ability to compare, verify, and track essential information on
        drawback claims to the related underlying consumption entries and export documentation
        for which the drawback claim is based, and identify duplicate or excessive drawback
        claims;
    b)	 Implement automated controls within ACS to prevent overpayment of a drawback claim
        that is subject to deem-liquidation as well as automated controls to prevent duplicate
        payments of refund claim;
    c)	 Evaluate the effectiveness of the sampling methodology implemented in FY 2006 related
        to underlying consumption entries;
    d)	 The updated sampling methodology should not allow for the drawback specialists, with
        supervisory approval, to judgmentally decrease the number of ACS selected underlying
        consumption entries randomly selected for review; and
    e)	 Continue to work with the U.S. Congress to lengthen the required document retention
        period for all supporting documentation so that it corresponds with the drawback claim
        life cycle.
Related to entry and CMP:
    a)	 Provide additional detail in the guidelines, specifying the sample size, procedures to
        perform, and documentation requirements for the CM Coordinator’s review of Import



                                                II. 5 	                                  (continued)
Independent Auditors’ Report
Exhibit II – Other Reportable Conditions

       Specialists’ review. The guidance should also readdress the timing requirements for the
       monitoring reports or data queries and documentation retention;
   a)	 Conduct periodic training to ensure that all port personnel have comprehensive 

       knowledge of the CM program requirements; 

   b)	 Formalize and implement effective procedures for the port audit process performed by
       NASD, or readdress the self-inspection program to provide a more comprehensive and
       in-depth review of port activity (similar to what was accomplished under the previously
       performed port audits), including ensuring that the port is performing the reviews
       accurately;
   c)	 Decrease the allowable time frame for final Import Specialist Discrepancy Adjustment
       (ISDA) remarks to allow for more timely analysis of the results; and
   d)	 Establish an effective means of communication between the Office of Field Operations
       and Office of Strategic Trade to ensure data quality issues are timely addressed.
Related to BW, FTZ, and In-bond:
   a)	 Ensure adequate communication of the ports requirements related to the annual risk
       assessments and compliance reviews and provide effective training so that all responsible
       personnel are aware of and can consistently execute all of the requirements;
   b)	 Implement an electronic survey to be received and completed by the ports and sent back
       to HQs in order to ensure timely response and review by HQ personnel; and
   c)	 Consider the cost/effectiveness of implementing a CMP (such as a revenue gap 

       calculation) over In-bond to assess the risk of revenue loss and violations of trade 

       regulations by importers. 





                                               II. 6

Independent Auditors’ Report
Exhibit III – Compliance and Other Matters

(Findings A – J and K – L are presented in Exhibits I and II, respectively)
All of the compliance and other matters described below are repeat conditions, except Comment T –
Debt Collection Improvement Act, which is new finding in fiscal year 2006.

M. Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
OMB Circular No. A-123 requires agencies and Federal managers to (1) develop and implement
management controls; (2) assess the adequacy of management controls; (3) identify needed
improvements; (4) take corresponding corrective action; and (5) report annually on management
controls (commonly known as management’s FMFIA report). During fiscal year 2006, DHS OCFO
significantly enhanced its FMFIA assessment policies and procedures to be conducted by the
components, in part, to prepare for an audit of internal control over financial reporting as required by
the DHS Financial Accountability Act of 2004. In addition, DHS launched and obtained OMB
approval of a multi-year plan for implementation of OMB Circular No. A-123. The OCFO required
the components to implement certain processes and undergo a self evaluation of some entity level
controls and a review of the design of controls over Department-wide Financial Reporting, Fund
Balance with Treasury and other select processes.
While we noted these positive steps toward full compliance with FMFIA and OMB Circular No. A
123, some components still have not established effective systems, processes, policies, and
procedures to develop and implement internal accounting and administrative controls, and
conformance of accounting systems.
Recommendations: We recommend that DHS components fully implement the FMFIA process, as
prescribed by the OCFO, to ensure full compliance with FMFIA in accordance with its OMB
approved plan. We also recommend that the OCFO consider additional training for its components, to
ensure a thorough understanding of requirements.

N. Federal Financial Management Improvement Act of 1996 (FFMIA)
Passage of the DHS Financial Accountability Act of 2004 made DHS subject to the FFMIA, in fiscal
year 2005. In previous fiscal years – 2003 and 2004 – DHS was not subject to FFMIA. FFMIA
Section 803(a) requires that agency Federal financial management systems comply with (1) Federal
accounting standards, (2) Federal system requirements, and (3) the USSGL at the transaction level.
FFMIA emphasizes the need for agencies to have systems that can generate timely, reliable, and
useful information with which to make informed decisions to ensure ongoing accountability. We
noted that DHS and each significant component did not fully comply with at least one of the
requirements of FFMIA. The reasons for non-compliance are reported in Appendices I and II. The
Secretary of DHS also has stated in the Secretary’s Letter of Assurance dated November 15, 2006,
listed in section I – MD&A of the accompanying 2006 PAR that the Department cannot provide
assurance that its financial management systems are in substantial compliance with FFMIA. The
Department’s remedial actions and related timeframes are also presented in that section of the PAR.

Recommendations: We recommend that DHS improve its processes to ensure compliance with the
FFMIA in fiscal year 2007.

O. Federal Information Security Management Act of 2002 (FISMA)
DHS is required to comply with the FISMA, which was enacted as part of the Electronic Government
Act of 2002. FISMA requires the head of each agency to be responsible for (1) providing information
security protections commensurate with the risk and magnitude of the harm resulting from
unauthorized access, use, disclosure, disruption, modification, or destruction of (i) information



                                                III. 1                                    (continued)
Independent Auditors’ Report
Exhibit III – Compliance and Other Matters

collected or maintained by or on behalf of the agency, and (ii) information systems used or operated
by an agency or by a contractor of an agency or other organization on behalf of an agency; and (2)
complying with the requirements of this subchapter and related policies, procedures, standards, and
guidelines, including information security standards promulgated under section 11331 of Title 40.
This particular section requires that Federal agencies provide minimum information security
requirements as defined by the NIST. We noted instances of non-compliance with FISMA that have
been reported by us in Appendix I within Comment C– Financial Systems Security.
Recommendations: We recommend that DHS follow the recommendations provided in Appendix I,
Comment C – Financial Systems Security, and fully implement the requirements of FISMA in fiscal
year 2007.

P. Single Audit Act Amendments of 1996, and Laws and Regulations Supporting OMB Circular
No. A-50, Audit Follow-up, as revised
FEMA and TSA, are required to comply with certain provisions of OMB Circular No. A-133. This
Circular requires agencies awarding grants to ensure they receive grantee reports timely and to
follow-up on grantee Single Audit findings.
Additionally, OMB Circular No. A-50, as revised, provides policies and procedures for use by
executive agencies when considering reports issued by Inspectors General, other executive branch
audit organizations, the GAO, and non-Federal auditors, where follow up is necessary. Corrective
action taken by management on findings and recommendations is essential to improve the
effectiveness and efficiency of government operations.
Although certain procedures have been implemented to monitor grantees and their audit findings, we
noted that DHS did not have procedures in place to fully comply with provisions in OMB Circular
No. A-133 that require them to timely obtain and review grantee Single Audit reports and follow up
on questioned costs and other matters identified in these reports. Because Single Audits typically are
performed by other entities outside of DHS, procedures related to these reports are not always entirely
within the control of DHS and its components.
DHS and its components did not fully develop and implement corrective action plans to address all
material weaknesses and reportable conditions identified by previous financial statement audits within
the time-frames established in OMB Circular No. A-50. We also noted that some corrective action
plans lack sufficient detail, such as clearly defined roles and responsibilities, actions to be taken,
time-table for completion of actions, and documented supervisory review and approval of completed
actions.
Recommendations: We recommend that:
1. 	 FEMA and TSA develop and implement department-wide polices and procedures to ensure
     compliance with OMB Circular No. A-133, including the identification of which components
     must comply. Until policy guidance is received from DHS management, grant-making
     components should perform the following in fiscal year 2007:
    a)	 Develop and implement a tracking system to identify each grantee for which an OMB 

        Circular No. A-133 Single Audit is required, and the date the audit report is due;

    b)	 Strengthen communication with the cognizant agencies;
    c)	 Use the tracking system to ensure audit and performance reports are received timely, or to
        follow-up when reports are overdue; and
    d)	 Perform reviews of grantee audit reports, issue related management decisions, and ensure that
        the grantees take appropriate corrective action, on a timely basis.


                                               III. 2	                                  (continued)
Independent Auditors’ Report
Exhibit III – Compliance and Other Matters

2.	 DHS OFM should develop policies and procedures, including the adoption of Management
    Directive, and the development of a process to ensure that audit recommendations are resolved
    timely, and corrective action plans addressing all DHS audit findings are developed and
    implemented together with appropriate supervisory review in fiscal year 2007.

Q. 	Improper Payments Information Act of 2002 (IPIA)
DHS is required to comply with the Improper Payments Information Act of 2002 (the Act or IAIP).
The Act requires agencies to review all programs and activities they administer annually and identify
those that may be susceptible to significant erroneous payments. For all programs and activities where
the risk of erroneous payments is significant, agencies must estimate the annual amounts of erroneous
payments, and report the estimates to the President and Congress with a progress report on actions to
reduce them. The agency must report a statistically valid error projection for susceptible programs in
its annual PAR. To facilitate the implementation of the Act, OMB issued guidance in Memorandum
M-03-13, Implementation Guide for the Improper Payments Information Act of 2002, which among
other matters provided a recommended process to meet the disclosure requirements. We noted that
DHS did not fully comply with the Act in fiscal year 2006.
We noted the following instances of non-compliance with the Act at DHS and its components.
    •	 Not all programs subject to the Act were tested, and the population of disbursements 

       tested for some programs was not complete. 

    •	 In some cases, the samples tested were not statistically derived, and thus, identified errors
       could not be statistically projected to the entire population of disbursements (including the
       untested portion).
    •	 In some cases, the personnel performing the testwork were not knowledgeable or trained
       on the purpose or procedures to be performed.
    •	 The time-period from which disbursements were selected for testwork was not always in
       compliance with IPIA requirements. For example, we noted that one component limited
       the time-period of disbursement samples to October 2005 to March 2006.
    •	 Centralized monitoring was not performed over the IPIA results to ensure that IPIA 

       testing was completed for all required programs in accordance with the Department’s

       requirements. 

Recommendation: We recommend that DHS follow the guidance provided in OMB M-03-13 in
fiscal year 2007, including completing the necessary susceptibility assessments, performing testwork
over all material programs, and instituting sampling techniques to allow for statistical projection of
the results of its improper payments testing.

R. 	Chief Financial Officers Act of 1990
The DHS Financial Accountability Act of 2004 made DHS subject to the Chief Financial Officers Act
of 1990, as amended, which requires DHS to submit to the Congress and OMB audited financial
statements annually. DHS-OIG has engaged an independent auditor to audit the September 30, 2006,
balance sheet and statement of custodial activity only. DHS must be able to represent that its balance
sheet is fairly stated, and obtain at least a qualified opinion, before it is practical to extend the audit to
other financial statements.
Recommendation: We recommend that DHS and its components continue to implement corrective
action plans in order to remediate the fiscal year 2006 material weaknesses and reportable conditions,
improve its policies, procedures, and processes, as necessary, to allow management to represent that




                                                  III. 3	                                     (continued)
Independent Auditors’ Report
Exhibit III – Compliance and Other Matters

its balance sheet is free of material error and ready for an independent audit of the balance sheet.
This will enable DHS to extend its audit to all financial statements in future years.

S. Government Performance and Results Act of 1993 (GPRA)
The Government Performance and Results Act requires each agency to prepare performance plans
that include a description of the operational processes, skills and technology, and the resources
required to meet the goals, and a description of the means used to verify and validate the measured
results. In addition, the PAR should include performance indicators established in the annual
performance plan, the actual performance achieved compared with the prior year goals, and an
evaluation of the current year performance plan with respect to success in achieving the performance
goals. The validation and verification section of the fiscal year 2006 DHS Annual Performance Plan
was incomplete and included erroneous data. In addition, no performance goals or measures were
established or aligned to two of the Department’s strategic objectives in the Annual Performance
Plan. GPRA states that an agency may not omit or minimize the significance of any program activity
constituting a major function or operation for the agency. We also noted that management did not
adequately review the PAR for accuracy and completeness.
Recommendation: We recommend that DHS develop policies and procedures to ensure full
compliance with GPRA by aligning all strategic objectives to performance objectives in fiscal year
2007.

T. Debt Collection Improvement Act of 1996 (DCIA)
The Debt Collection Improvement Act of 1996 (DCIA) is intended to significantly enhance the
Federal Government’s ability to service and collect debts. Under the DCIA, Treasury assumes a
significant role for improving government-wide receivables management. The DCIA requires
Federal agencies to refer eligible delinquent non-tax debts over 180 days to U.S. Treasury for the
purpose of collection by cross-servicing or the offset program. Our tests of compliance disclosed
instances where DHS was not in compliance with certain provisions of the DCIA. Specifically,
we noted that due process is not performed in a timely manner to ensure that some eligible debts
are forwarded to Treasury for cross-servicing or the offset program within the timeframes
established by DCIA.
Recommendation: We recommend that DHS develop policies and procedures to ensure full
compliance with the DCIA in fiscal year 2007.




                                                III. 4

Independent Auditors’ Report
Exhibit IV – Status of Prior Year Findings


                                           Summary of Conditions                                                            Fiscal Year 2006
                       As Reported in 2005 DHS Performance and Accountability Report                                       Status/Disposition

Material Weaknesses:
A.    Financial Management and Oversight
A.1 ICE had not made sufficient, measurable progress in correcting its financial management oversight and                     Corrected
    weaknesses. All of the conditions we reported last year are repeated together with new findings. We noted that
    ICE did not have sufficient numbers of qualified financial managers and staff to perform its accounting
    responsibilities. ICE had difficulty; performing analysis of and record basic and routine accounting entries;
    correctly apply Federal accounting standards, in many instances, to ensure accurate and reliable financial
    reporting; develop and communicate accounting policies and procedures throughout ICE and the DHS-ICE
    components it serviced to ensure accuracy and consistency in financial reporting; timely and accurately
    respond to data requests from the OCFO during the year; and establishing adequate internal controls that
    reasonably ensured the integrity of financial data, and that adhered to Government Accountability Office
    (GAO) Standards for Internal Control in the Federal Government (Standards). ICE lacked a comprehensive
    strategy to identify the root causes of its financial statement errors and to correct deficiencies in its accounting
    and financial reporting processes.

A.2 The Coast Guard had not fully implemented a financial management organizational structure that supports the                Repeated
    development and implementation of effective policies, procedures, and internal controls to ensure data
    supporting financial statement assertions are complete and accurate. The Coast Guard had not established
    clear management oversight responsibilities and processes to review adjustments to account balances, identify
    the cause of abnormal balances, and account relationship discrepancies, e.g., budgetary to proprietary
    reconciliations, and investigate potential financial system concerns such as potential posting logic errors. The
    Coast Guard had not fully established management oversight functions to ensure that accounting principles
    are correctly applied, and to provide accounting operational guidance to other offices and facilities within the
    Coast Guard.




                                                                        IV. 1                                                         (continued)
Independent Auditors’ Report
Exhibit IV – Status of Prior Year Findings


                                           Summary of Conditions                                                          Fiscal Year 2006
                       As Reported in 2005 DHS Performance and Accountability Report                                     Status/Disposition

A.3 	 The OCFO has not completed its plan to expand the OCFO with sufficient resources, including personnel with         Partially Repeated
      the requisite experience and skills to effectively manage the financial reporting and internal control
      infrastructure of a large Executive Branch agency. The OCFO had not provided effective management and
      oversight to ensure that; DHS component corrective action plans were developed, implemented, with progress
      tracked, and successfully completed, particularly at ICE and the Coast Guard, to support the elimination of
      material weaknesses and achieve consistent, timely, and reliable financial reporting from all DHS components,
      within the time-period requested by the Secretary; financial management, and reporting problems in DHS
      components were promptly and effectively addressed; workload among OCFO staff was separated to allow for
      proper supervisory reviews, and to provide appropriate back-up for key staff; and processes were implemented
      to draft an accurate and complete DHS Performance and Accountability Report (PAR), within a reasonable
      time-frame after year-end, and to prepare accurate monthly financial statements throughout the year, that did
      not require restatements to previously published financial statements.

B.    	Financial Reporting
B.1 	 The OCFO was unable to prepare a balanced consolidated financial statement during fiscal year 2005 until               Repeated
      November 2005. The OCFO had not fully documented policies and procedures for many critical activities
      necessary to adequately manage financial reporting processes, and monitoring controls to ensure monthly
      TIER submissions received from the components were prepared timely and accurately.

B.2 	 The Coast Guard’s financial reporting process was complex and labor-intensive, and required a significant              Repeated
      number of “on-top” adjustments (adjustments made outside the core accounting system for presentation of
      financial information given to DHS for consolidation). Significant abnormal balances existed in its TIER
      submissions. The Coast Guard routinely used analytical comparisons to identify adjusting entries to the
      financial statements, without verifying that the ending balances were properly supported at the transaction
      level, e.g., budgetary accounts were adjusted to equal proprietary accounts, without verifying that the
      underlying transactional detail supported the ending balances. The processes that Finance Center personnel
      used for making year-end closing entries did not consistently include sufficient supporting documentation or
      internal controls at an appropriate level, such as effective management review, approval of individual adjusting
      entries, or procedures to determine that all necessary adjustments were identified.



                                                                       IV. 2 	                                                      (continued)
Independent Auditors’ Report
Exhibit IV – Status of Prior Year Findings


                                           Summary of Conditions                                                          Fiscal Year 2006
                       As Reported in 2005 DHS Performance and Accountability Report                                     Status/Disposition

B.3 	 ICE had not established effective internal controls over the daily accounting and recording of transactions,           Corrected
      supervisory review, reconciliation of accounts, and documentation of supporting information for auditor
      review. ICE routinely made “top-side” adjustments to financial information that was not adequately
      reviewed, supported by transactional data, or documented. ICE had inadequately designed the processes for
      some account reconciliations. Did not have documented policies and procedures that will ensure that
      financial information submitted monthly to the OCFO is in compliance with generally accepted accounting
      principles.

B.4 	 TSA experienced difficulties in the monthly closing of its general ledger due, in part, to its change in               Repeated
      accounting services providers. Specifically, we noted accrual amounts were not included in the initial financial
      data submission for year-end, numerous other on-top adjustments were made thereafter, account
      reconciliations were not performed timely throughout the year, material abnormal balances and analytical
      account variances were not resolved timely throughout the year, and detailed schedules to support financial
      statement amounts were not always provided timely.

B.5 	 The Coast Guard and ICE did not have effective financial information systems, or sufficiently documented           Partially Repeated
      processes, to accumulate cost data by DHS strategic goal, as required by Statement of Financial Accounting
      Standard (SFFAS) No. 4, Managerial Cost Accounting Concepts and Standards. In addition, TSA and
      Emergency Preparedness and Response (EPR) did not have documentation to support their presentation of the
      full cost for each strategic goal, as included in the notes to the consolidated financial statements.

B.6 	 G&T (formerly SLGCP) had not obtained a thorough understanding of control activities over the financial            Partially Repeated
      reporting processes performed by its accounting service provider on its behalf, to ensure services received are      (Comment G)
      consistent with the intent of the parties.

B.7 	 EPR was unable to make an accurate estimate of accounts payable related to the NFIP because EPR’s                      Corrected
      contractor for the National Flood Insurance Program (NFIP) did not provide final NFIP financial statements
      until after the time that final EPR fiscal year 2005 financial statement balances had been submitted to the
      OCFO.




                                                                         IV. 3 	                                                    (continued)
Independent Auditors’ Report
Exhibit IV – Status of Prior Year Findings


                                           Summary of Conditions                                                           Fiscal Year 2006
                       As Reported in 2005 DHS Performance and Accountability Report                                      Status/Disposition

C.	   Financial Systems Functionality and Technology
      OCFO and DHS bureaus have IT and financial system control and functionality weaknesses in entity-wide                   Repeated
      security program planning and management, access controls, application software development and change
      controls, system software, segregation of duties, and service continuity.

D.	   Fund Balance with Treasury (FBwT)
D.1 	 ICE did not complete accurate and timely reconciliations of all of its FBwT accounts during the year, as               Corrected
      required by the Treasury Financial Manual (TFM). ICE did not timely clear items carried in suspense clearing
      accounts during the year and the subsidiary ledger that contained detail listings of suspense transactions was
      not reconciled to the general ledger. ICE lacked written policies that clearly explain the correct reconciliation
      processes and internal controls that must be performed to ensure that monthly collection and disbursement
      activity is reported accurately and timely to the Treasury, and reflected in ICE and DHS-ICE components’
      general ledgers. ICE was unable to obtain document level information for financial transactions (both
      procurement and disbursement) of the DHS-ICE components that were processed by legacy agencies, which
      resulted in large unreconciled FBwT items.

D.2 	 The Coast Guard did not effectively manage its suspense accounts to include accurately aging and clearing               Repeated
      items carried in suspense clearing accounts in a timely manner during the year, and did not maintain adequate
      supporting documentation that validated the accuracy of the FBwT reconciliations and the clearing of suspense
      items.




                                                                        IV. 4 	                                                      (continued)
Independent Auditors’ Report
Exhibit IV – Status of Prior Year Findings


                                           Summary of Conditions                                                         Fiscal Year 2006
                       As Reported in 2005 DHS Performance and Accountability Report                                    Status/Disposition

E.    Property, Plant, and Equipment
E.1   The Coast Guard had not implemented appropriate controls and related processes to accurately, consistently,           Repeated
      and timely record PP&E, to include additions, transfers from other agencies and disposals in its fixed asset
      system. The Coast Guard had not consistently applied policies and procedures to ensure appropriate
      documentation supporting PP&E acquisitions is maintained, and readily available for audit. The Coast Guard
      lacked methodologies and assumptions to support the value of PP&E that is not supported by original
      acquisition or other documentation. The Coast Guard needed an asset identification, system mapping, and
      tagging processes that included sufficient detail, e.g., serial number, to clearly differentiate and accurately
      track assets in the fixed asset system. The Coast Guard lacked an effective physical inventory process and
      appropriate support for the valuation method and classification of repairable PP&E to ensure accounting and
      reporting for PP&E is consistent with generally accepted accounting principles.

E.2   ICE (who provides accounting services for BTS), specifically the US-VISIT program, did not consistently           Partially Repeated
      apply procedures to identify and capitalize software development costs or to reclassify software placed into
      production from software in development.

F.    Operating Materials and Supplies
F.1   At the Coast Guard, internal controls over physical counts at field locations were not designed and                   Repeated
      implemented to remediate conditions identified during fiscal year 2003 and 2004. OM&S items were not
      always properly bar-coded or tagged, on-hand quantities frequently did not agree to the perpetual inventory
      records, and procedures did not sufficiently address whether all inventory on hand was properly recorded in
      the perpetual records or require discrepancies to be resolved timely. Processes and controls were not in place
      to fully support the calculated value of field-held and ICP OM&S to approximate historical cost. Policies,
      procedures and controls designed to remediate conditions related to conducting physical inventories of OM&S
      at the ICPs were not completely implemented.




                                                                       IV. 5                                                       (continued)
Independent Auditors’ Report
Exhibit IV – Status of Prior Year Findings


                                           Summary of Conditions                                                        Fiscal Year 2006
                       As Reported in 2005 DHS Performance and Accountability Report                                   Status/Disposition

G. 	 Undelivered Orders, Accounts and Grants Payable, and Disbursements
G.1 	 ICE had not established reliable internal controls to ensure that all invoices are paid timely, that all IPACs       Corrected
      were cleared from suspense timely, that invoice payments and supporting documentation are matched with an
      originating obligation prior to disbursement, and that documentation supporting receipt of goods and services
      required from other Federal agencies for IPAC transactions are verified timely. ICE had not established
      sufficient controls to prevent duplicate payments to vendors related to prior year obligations or to prevent
      negative balances in certain Treasury accounts used by both ICE and the legacy agencies to make
      disbursements, or to ensure that open obligations were properly liquidated when corresponding accounts
      payable were recorded, and that liquidation was occurring at the proper detailed fund code level.
      ICE lacked policies related to verification and validation of obligations and completeness of all procurement
      and other obligations.

G.2 	 At the Coast Guard periodic review and validation of UDOs was not properly designed, and was not effective           Repeated
      to ensure that recorded obligations were valid, obligations incurred were recorded timely, and that proper
      approvals and supporting documentation existed. Programming logic and transaction codes used to record
      advances for which an obligation was not previously recorded are not operating effectively to ensure the
      obligation and UDOs were properly recorded. Policies were not fully implemented to ensure that contract
      awards were recorded in the general ledger in a timely manner. Policies and procedures related to Coast
      Guard’s automated requisition and procurement process have not been consistently followed in all regions.
      The procurement Management Effectiveness Assessment (MEA), was not fully performed as planned in fiscal
      year 2005. The process used to estimate accounts payable was not fully documented as to the criteria used to
      develop the estimate for financial reporting.

G.3 	 G&T’s accounting services provider was unable to resolve discrepancies identified in the data underlying the     Partially Repeated
      calculation of G&T’s grants payable liability at September 30, 2005.

G.4 	 TSA was unable to fully reconcile and support the accuracy and completeness of its accounts payable and          Partially Repeated
      UDOs, and did not have policies and procedures in place to validate TSA’s grant accrual to ensure the
      methodology used provided a reasonable estimate of the actual amount owed.




                                                                         IV. 6 	                                                  (continued)
Independent Auditors’ Report
Exhibit IV – Status of Prior Year Findings


                                            Summary of Conditions                                                        Fiscal Year 2006
                        As Reported in 2005 DHS Performance and Accountability Report                                   Status/Disposition

G.5    EPR, G&T, and TSA did not have sufficient policies and procedures in place to fully comply with the OMB          Partially Repeated
       Circular No. A-133, Audits of States, Local Governments, and Non-profit Organizations, and laws and
       regulations supporting OMB Circular No. A-50, Audit Follow-up, as revised.

H.     Actuarial Liabilities
H.1    The Coast Guard was unable to fully support its assertions relating to accuracy and completeness of the              Repeated
       underlying participant data, medical cost data, and trend and experience data provided to, and used by, the
       actuary for the calculation of the MRS, and post employment travel benefits liabilities. The Coast Guard did
       not follow established policies and procedures to accumulate data for the actuary to compute post-
       employment travel benefits. The Coast Guard did not perform periodic reconciliations between the medical
       expenditures subsidiary ledger and the general ledger. The Coast Guard did not have effective policies,
       procedures, and controls to monitor the expenditures for medical services to ensure they were billed at proper
       rates and for valid participants only, e.g., service members and their families, and retiree/survivors.

 I.    Budgetary Accounting
 I.1   At ICE obligations for ICE and the DHS-ICE components were not always recorded timely or accurately.             Partially Repeated
       Contracting officer approvals were not clearly documented on obligating documents. Weaknesses existed in
       controls over the preparation, submission and reconciliation to the general ledger of the SF-132, and the SF
       133. Information reported on the SF-133 did not agree with the accounting records and was not reconciled
       timely resulting in inaccuracies in the June 2005 financial statements for ICE and the DHS-ICE components.




                                                                        IV. 7                                                      (continued)
Independent Auditors’ Report
Exhibit IV – Status of Prior Year Findings


                                            Summary of Conditions                                                        Fiscal Year 2006
                        As Reported in 2005 DHS Performance and Accountability Report                                   Status/Disposition

 I.2   At the Coast Guard obligations related to post-employment permanent changes of station (PCS) were not                Repeated
       recorded at the time orders were approved and issued. The electronic validation and edit checks within the
       FPD, a feeder system to the CAS, were not fully utilized. Obligations were recorded in FPD, but were not
       properly interfaced with the CAS, and were not supported by adequate documentation. Weaknesses existed in
       system capabilities and controls over the recording of budgetary authority. No automated system controls
       existed to preclude the processing of procurement transactions if the contracting officer’s warrant authority
       had expired, and a manual check compensating control was not effective since listings of warranted
       contracting officers were outdated. Commitments were not routinely monitored for aging, or released timely,
       so that funds could be committed and obligated elsewhere.

 I.3   TSA’s accounting service provider did not have the functionality to record amounts deobligated from prior            Repeated
       year obligations at the transaction level, in accordance with the USSGL requirements.

J.     Intragovermental and Intradepartmental Balances
       DHS did not timely or completely reconcile intragovernmental balances with other Federal entities,               Partially Repeated
       particularly the Department of Defense during fiscal year 2005. Consequently, the DHS’ Material
       Difference/Status of Disposition Certification Report, submitted to Treasury for September 30, 2005, showed
       material differences attributable to accounting/reporting errors. Some components had not developed and
       adopted effective SOPs, or established systems to completely track, confirm, and reconcile intragovernmental
       balances and/or transactions with trading partners, in a timely manner, which contributed to the material
       differences. Intra-DHS transactions between ICE, CBP, CIS and other DHS components did not eliminate
       correctly at the consolidated level during the year. DHS was unable to completely reconcile out-of-balance
       intradepartmental transactions at year-end, resulting in the need for “on-top” adjustments, based primarily on
       estimates and analytical comparisons, to close the general ledger and prepare balanced consolidated financial
       statements.




                                                                        IV. 8                                                      (continued)
Independent Auditors’ Report
Exhibit IV – Status of Prior Year Findings


                                           Summary of Conditions                                                         Fiscal Year 2006
                       As Reported in 2005 DHS Performance and Accountability Report                                    Status/Disposition

Other Reportable Conditions:
K. 	 Environmental Liabilities
K.1 	 At the Coast Guard consistent policies or procedures have not been developed for the identification,                  Repeated
      evaluation, and estimation of potential environmental remediation of Coast Guard sites, thereby resulting in
      different approaches by shore facility commands and ultimately varying liability estimates.

K.2 	 At S&T, policies and procedures have not been developed to determine if an environmental liability exists and         Corrected
      if so, to accurately estimate and record an environmental liability for the cost of cleanup.

K.3 	 CBP had not determined the environmental liabilities to be recorded in the September 30, 2005, financial              Corrected
      statements, until a review was performed in response to our audit inquiry. No single program existed to
      manage CBP’s environmental liabilities, resulting in the necessity for an ad hoc process to be implemented at
      year-end. A lack of communication existed throughout the organization, related to the requirements
      associated with environmental liabilities and weaknesses in documentation of data supporting the
      computation of liability for financial statement purposes.

L.    Custodial Revenue and Drawback
      CBP did not have a reliable process of monitoring the movement of in-bond shipments, adequate written             Partially Repeated
      SOPs, and consistent performance of a compliance measurement program to assess the risk and compute an
      estimate of underpayment of duties, taxes, and fees.

Compliance and Other Matters:

M. 	 Federal Managers’ Financial Integrity Act of 1982
      DHS management’s FMFIA report did not contain corrective action plans for all material weaknesses                 Partially Repeated 

      identified in the PAR. In addition, DHS and its components have not established effective systems, processes, 

      policies and procedures to evaluate and report on FMFIA compliance. 




                                                                         IV. 9 	                                                    (continued)
Independent Auditors’ Report
Exhibit IV – Status of Prior Year Findings


                                         Summary of Conditions                                                        Fiscal Year 2006
                     As Reported in 2005 DHS Performance and Accountability Report                                   Status/Disposition

N.   Federal Financial Management Improvement Act of 1996
     DHS and each significant component – CBP, ICE and DHS-ICE components, EPR, SLGCP, TSA, and Coast                    Repeated
     Guard did not fully comply with at least one of the requirements of FFMIA.

O.   Federal Information Security Management Act (Electronic Government Act of 2002)
     Instances of non-compliance with the FISMA were noted.                                                          Partially Repeated

P.   Single Audit Act Amendments of 1996, and Laws and Regulations Supporting OMB Circular No. A-50,
     Audit Follow-up, as revised
     EPR, SLGCP, and TSA did not have procedures to monitor grantees and their audit findings.                       Partially Repeated

Q.   Improper Payments Information Act of 2002
     DHS did not properly define programs and activities, institute a systematic method of reviewing all programs        Repeated
     and identifying those at risk of significant erroneous payments, and properly sample or compute the estimated
     dollar amount of improper payments.

R.   DHS Financial Accountability Act of 2004 (Chief Financial Officers Act of 1990)
     Section 3 of Public Law 108-330, DHS Financial Accountability Act of 2004, states that the President of the     Partially Repeated
     United States shall appoint a Chief Financial Officer of DHS not later than 180 days after the date of the
     enactment of this Act signed in October 2004, to be confirmed by the U.S. Senate. At September 30, 2005
     DHS was operating with an Acting CFO, while no waiver or amendment to this law has been obtained by DHS
     management. The DHS Financial Accountability Act of 2004 also made DHS subject to the Chief Financial
     Officers Act of 1990, as amended, which requires DHS to submit to the Congress and OMB audited financial
     statements annually. DHS engaged an independent auditor to audit the September 30, 2005, consolidated
     balance sheet only.




                                                                     IV. 10                                                     (continued)
Independent Auditors’ Report
Exhibit IV – Status of Prior Year Findings



S.   Government Performance and Results Act of 1993
     Also, DHS did not consistently present performance measures in the PAR as written in the annual performance   Repeated
     plans, did not provide explanations of performance results, and did not have supporting documentation
     substantiating the changes in performance measure goals between the annual performance plan and the PAR.




                                                                   IV. 11 

Financial Information (Unaudited)




Introduction
The principal financial statements included in this report are prepared pursuant to the requirements of the
Chief Financial Officers Act of 1990, as amended by the Government Management Reform Act of 1994.
Other requirements include the Office of Management and Budget (OMB) Circular Number A-136,
Financial Reporting Requirements. The responsibility for the integrity of the financial information included
in these statements rests with the management of DHS. An independent certified public accounting firm,
selected by the Department’s Inspector General, was engaged to audit of the Balance Sheet and the
Statement of Custodial Activity. The independent auditors’ report accompanies the principal financial
statements. These financial statements include the following:

    • 	 The Balance Sheets present as of September 30, 2006 and 2005, those resources owned or
        managed by DHS which represent future economic benefits (assets); amounts owed by DHS that
        will require payments from those resources or future resources (liabilities) and residual amounts
        retained by DHS comprising the difference (net position).

    • 	 The Statements of Net Cost present the net cost of DHS operations for the fiscal years ended
        September 30, 2006 and 2005. DHS net cost of operations is the gross cost incurred by DHS less
        any exchange revenue earned from DHS activities.

    • 	 The Statements of Changes in Net Position present the change in DHS’ net position resulting
        from the net cost of DHS operations, budgetary financing sources, and other financing sources for
        the fiscal years ended September 30, 2006 and 2005.

    • 	 The Statements of Budgetary Resources present how and in what amounts budgetary resources
        were made available to DHS during fiscal years 2006 and 2005, the status of these resources at
        September 30, 2006 and 2005, the changes in the obligated balance, and outlays of budgetary
        resources for the fiscal years ended September 30, 2006 and 2005.

    • 	 The Statements of Financing present the reconciliation of the budgetary resources used to
        finance DHS operations with the net cost of operations for the fiscal years ended September 30,
        2006 and 2005.

    • 	 The Statements of Custodial Activity present the disposition of custodial revenue collected and
        disbursed by DHS on behalf of other recipient entities for the fiscal years ended September 30,
        2006 and 2005.



Limitations of Financial Statements
The principal financial statements have been prepared to report the financial position and results of
operations of the Department, pursuant to the requirements of Title 31, United States Code, Section 3515
(b) relating to financial statements of Federal agencies. While the statements have been prepared from
the books and records of the agency in accordance with U.S. generally accepted accounting principles
(GAAP) for Federal agencies and the formats prescribed by OMB, the statements are in addition to the
financial reports used to monitor and control budgetary resources which are prepared from the same books
and records. The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report             3
Financial Information (Unaudited)




                             Department of Homeland Security                                (Page 1 of 2)
                                      Balance Sheets

                             As of September 30, 2006 and 2005

                                        (In Millions)


                                                                                                 2005
                                                                              2006           (Unaudited)
                                                                           (Unaudited)        (Restated)
  ASSETS (Note 2)
  Intragovernmental
     Fund Balance with Treasury (Notes 2 and 3)                                  $59,568             $97,012
     Investments, Net (Note 5)                                                       634                 738
     Accounts Receivable (Note 6)                                                    248                 217
     Other (Note 13)
        Advances and Prepayments                                                   2,912               2,937
        Due from Treasury (Note 2)                                                   411                 144
  Total Intragovernmental                                                         63,773             101,048

    Cash and Other Monetary Assets (Notes 2 and 4)                                    99                  78
    Accounts Receivable, Net (Notes 2 and 6)                                       1,181                 532
    Taxes, Duties, and Fees Receivables, Net (Notes 2 and 7)                       1,755               1,400
    Direct Loans, Net (Note 8)                                                       161                   -
    Inventory and Related Property, Net (Note 9)                                     677                 498
    General Property, Plant, and Equipment, Net (Notes 2 and 11)                  11,036              10,460
    Other (Note 13)
      Advances and Prepayments                                                       551               480
  TOTAL ASSETS                                                                   $79,233          $114,496

 Stewardship PP&E (Note 12)

  LIABILITIES (Note 14)
  Intragovernmental
     Accounts Payable                                                             $1,900               $865
     Debt (Note 15)                                                               17,446                226
     Other (Note 18)
       Due to the General Fund                                                     1,809               1,434
       Accrued FECA Liability                                                        323                 358
       Other                                                                         187                 252
  Total Intragovernmental                                                         21,665               3,135

    Accounts Payable                                                               2,765               3,253
    Federal Employee and Veterans’ Benefits (Note 16)                             32,278              30,050
    Environmental and Disposal Liabilities (Note 17)                                 245                 179
    Other (Notes 18,19, 20, and 21)
      Accrued Payroll and Benefits                                                  1,362              1,366
      Deferred Revenue and Advances from Others                                     2,188              2,014
      Deposit Liability                                                                34              4,706
      Insurance Liabilities                                                         3,567             23,433




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report           4
Financial Information (Unaudited)



                             Department of Homeland Security                                (Page 2 of 2)
                                      Balance Sheets
                             As of September 30, 2006 and 2005
                                        (In Millions)
                                                                                                 2005
                                                                              2006           (Unaudited)
                                                                           (Unaudited)        (Restated)

      Refunds and Drawbacks                                                        5,593                 118
      Other                                                                        1,190                 958
  Total Liabilities                                                              $70,887             $69,212


    Commitments and contingencies (Notes 19, 20, and 21)

 NET POSITION
  Unexpended Appropriations                                                                          $87,131
   Unexpended Appropriations-Earmarked Funds (Note 22)                               $18
   Unexpended Appropriations-Other Funds                                          48,084
  Cumulative Results of Operations                                                                   (41,847)
   Cumulative Results of Operations-Earmarked Funds (Note 22)                    (19,328)
   Cumulative Results of Operations-Other Funds                                  (20,428)
 Total Net Position                                                                $8,346            $45,284

  TOTAL LIABILITIES AND NET POSITION                                             $79,233          $114,496




The accompanying notes are an integral part of these statements.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report           5
Financial Information (Unaudited)




                             Department of Homeland Security                             (Page 1 of 2)
                                  Statements of Net Cost 

                     For the Years Ended September 30, 2006 and 2005

                                       (In Millions)


                                                                                              2005
                                                                        2006
                                                                                          (Unaudited)
         Directorates and Other Components (Note 24)                 (Unaudited)
                                                                                           (Restated)
         United States VISIT
           Gross Cost                                                         $263                 $172
           Less Earned Revenue                                                  (1)                   -
           Net Cost                                                            262                  172

         United States Customs and Border Protection
           Gross Cost                                                         7,135               7,059
           Less Earned Revenue                                                (153)               (619)
           Net Cost                                                           6,982               6,440

         United States Coast Guard
           Gross Cost                                                       10,011                9,145
           Less Earned Revenue                                               (424)                (220)
           Net Cost                                                          9,587                8,925

         United States Citizenship and Immigration Services
           Gross Cost                                                         1,609                1,275
           Less Earned Revenue                                              (1,729)              (1,622)
           Net Cost                                                           (120)                (347)

         Federal Emergency Management Agency
           Gross Cost                                                       25,660               39,643
           Less Earned Revenue                                              (2,443)              (2,159)
           Net Cost                                                         23,217               37,484

         Federal Law Enforcement Training Center
           Gross Cost                                                          312                  257
           Less Earned Revenue                                                 (33)                 (31)
           Net Cost                                                            279                  226

         Preparedness Directorate
            Gross Cost                                                        3,795               2,701
            Less Earned Revenue                                                 (26)                (20)
            Net Cost                                                          3,769               2,681

         United States Immigration and Customs Enforcement
           Gross Cost                                                         4,487               3,814
           Less Earned Revenue                                                (857)               (642)
           Net Cost                                                           3,630               3,172

         United States Secret Service
           Gross Cost                                                         1,471               1,505
           Less Earned Revenue                                                  (18)                (22)
           Net Cost                                                           1,453               1,483

         Science and Technology Directorate
            Gross Cost                                                          843                 743
            Less Earned Revenue                                                   -                 (12)
            Net Cost                                                            843                 731




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report               6
Financial Information (Unaudited)




                               Department of Homeland Security                           (Page 2 of 2)
                                    Statements of Net Cost
                       For the Years Ended September 30, 2006 and 2005
                                         (In Millions)

                                                                                             2005
                                                                            2006
                                                                                         (Unaudited)
         Directorates and Other Components (Note 24)                     (Unaudited)
                                                                                          (Restated)

         Transportation Security Administration
            Gross Cost                                                           6,043            6,523
            Less Earned Revenue                                                (2,477)          (2,255)
            Net Cost                                                             3,566            4,268

         Department Operations and Other
           Gross Cost                                                             852              642
           Less Earned Revenue                                                     (2)             (11)
           Net Cost                                                               850              631

         NET COST OF OPERATIONS (Note 24)                                      $54,318         $65,866




      The accompanying notes are an integral part of these statements.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report              7
 Financial Information (Unaudited)




                                Department of Homeland Security
                              Statements of Changes in Net Position
                        For the Years Ended September 30, 2006 and 2005
                                          (In Millions)
                                                                    2006                              2005
                                                                                                  (Unaudited)
                                                                    (Unaudited)                    (Restated)
                                                    Earmarked      All Other      Consolidated    Consolidated
                                                      Funds         Funds            Total           Total
     Cumulative Results of Operations
     Beginning Balances                              $(22,705)     $(19,142)         $(41,847)        $(17,017)
     Adjustments:
        Change in Accounting Principles
        (Note 34)                                             -            -                  -             (8)
        Corrections of Errors (Note 34)                       -            -                  -           (134)
     Beginning Balance, as Adjusted                    (22,705)     (19,142)           (41,847)        (17,159)
     Budgetary Financing Sources
        Appropriations Used                                 13       52,882             52,895          38,068
        Non-exchange Revenue                             2,516           11              2,527           2,315
        Donations and Forfeitures of Cash
         and Cash Equivalents                                68           -                  68                3
        Transfers in/out without Reimbursement          (1,295)       1,657                 362              265
        Other                                                 2       (183)               (181)            (143)
     Other Financing Sources (Non-Exchange)
        Donations and Forfeitures of Property                -             6                  6               8
        Transfers in/out Reimbursement                       -            30                 30              11
        Imputed Financing                                    2           700                702             651
     Total Financing Sources                             1,306        55,103             56,409          41,178
     Net Cost of Operations                              2,071      (56,389)           (54,318)        (65,866)
     Net Change                                          3,377       (1,286)              2,091        (24,688)
     Cumulative Results of Operations                  (19,328)     (20,428)           (39,756)        (41,847)

     Unexpended Appropriations
     Beginning Balance                                       29      87,102             87,131          25,504
     Adjustments:
        Corrections of Errors (Note 34)                       -           -                  -             163
     Beginning Balance, as Adjusted                          29      87,102             87,131          25,667

     Budgetary Financing Sources
        Appropriations Received (Note 31)                     2       39,527             39,529          99,707
        Appropriations Transferred in/out                              (573)              (573)             158
        Other Adjustments                                     -     (25,090)           (25,090)           (333)
        Appropriations Used                                (13)     (52,882)           (52,895)        (38,068)
         Total Budgetary Financing Sources                 (11)     (39,018)           (39,029)         61,464
     Total Unexpended Appropriations                         18      48,084             48,102          87,131

     NET POSITION                                     $(19,310)     $27,656             $8,346         $45,284


The accompanying notes are an integral part of these statements.




 Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                8
Financial Information (Unaudited)




                                Department of Homeland Security                                     (Page 1 of 2)
                               Statements of Budgetary Resources
                       For the Years Ended September 30, 2006 and 2005
                                            (In Millions)
                                                                       2006                      2005
                                                                                             (Unaudited)
                                                             (Unaudited)                      (Restated)
                                                                        Non-                             Non-
                                                                     Budgetary                        Budgetary
                                                                       Credit                           Credit
                                                                      Reform                           Reform
                                                                     Financing                        Financing
                                                       Budgetary     Accounts          Budgetary      Accounts

BUDGETARY RESOURCES
Unobligated Balance, Brought Forward, October 1             $56,879             $26        $8,144              $-
Recoveries of Prior Year Unpaid Obligations                   3,654               -         1,518               -
Budget Authority:
   Appropriations (Note 31)                                  45,748               -       105,147               -

   Borrowing Authority                                       17,500             629         2,000              26 

   Spending Authority from Offsetting Collections: 

   Earned: 

       Collected                                              9,092             478         7,722               8
       Change in Receivable from Federal Sources                 39               -         (142)               -
   Change in Unfilled Customer Orders:
       Advances Received                                      (541)                -          571               -
       Without Advance From Federal Sources                     186              481          569               -
   Expenditure Transfers from Trust Funds                        49                -           50               -
   Subtotal                                                  72,073            1,588      115,917              34
Non-expenditure Transfers, net; Anticipated and
Actual                                                         (228)               -          337                -
Temporarily Not Available Pursuant to Public Law                (29)               -            -                -
Permanently Not Available                                   (25,173)           (334)        (409)              (8)
TOTAL BUDGETARY RESOURCES                               $107,176              $1,280     $125,507             $26

STATUS OF BUDGETARY RESOURCES
Obligations Incurred: (Note 25)
  Direct                                                    $85,843           $1,280      $64,347                -
  Reimbursable                                                4,289                -        4,281                -
  Subtotal                                                   90,132            1,280       68,628                -
Unobligated Balance:
  Apportioned                                                11,365                -       51,817              26
  Exempt from Apportionment                                      80                -           45               -
  Subtotal                                                   11,445                -       51,862              26
Unobligated Balance Not Available                             5,599                -        5,017               -
TOTAL STATUS OF BUDGETARY RESOURCES                     $107,176              $1,280     $125,507             $26




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                9
Financial Information (Unaudited)



                               Department of Homeland Security                                      (Page 2 of 2)
                              Statements of Budgetary Resources 

                       For the Years Ended September 30, 2006 and 2005

                                         (In Millions)


                                                                                              2005
                                                               2006                       (Unaudited)
                                                           (Unaudited)                     (Restated)
                                                                       Non-                           Non-

                                                                    Budgetary                      Budgetary

                                                                      Credit                         Credit 

                                                                     Reform                         Reform 

                                                                    Financing                      Financing 

                                                     Budgetary      Accounts        Budgetary      Accounts
CHANGE IN OBLIGATED BALANCE
Obligated Balance, Net
   Unpaid Obligations Brought Forward, October 1       $40,456                -          $26,432                 -
   Less: Uncollected Customer Payments from
     Federal Sources, Brought Forward, October 1        (1,845)              -            (1,418)                -
   Total Unpaid Obligated Balance, net                   38,611              -             25,014                -
Obligations Incurred, net                                90,132          1,280             68,628                -
Less: Gross Outlays                                    (83,674)          (639)           (53,175)                -
Obligated Balance Transferred, net
   Actual Transfers, Unpaid Obligations                       -               -               89                    -
   Total Unpaid Obligated Balance Transferred,
       net                                                    -               -               89                 -
Less: Recoveries of Prior Year Unpaid Obligations,
Actual                                                  (3,654)               -           (1,518)                -
Change in Uncollected Customer Payments from
Federal Sources                                           (225)          (481)             (427)                 -
Obligated Balance, net. End of Period
   Unpaid Obligations                                   43,260             642            40,456                 -
   Less: Uncollected Customer Payments from
       Federal Sources                                  (2,070)          (482)            (1,845)                -
Total, Unpaid Obligated Balance, net, End of
 Period                                                $41,190            $160           $38,611               $-

NET OUTLAYS
  Gross Outlays                                        $83,674            $639           $53,175               $-
  Less: Offsetting Collections                          (8,600)           (478)           (8,342)              (8)
  Less: Distributed Offsetting Receipts                 (4,821)               -           (4,548)                -
NET OUTLAYS                                            $70,253            $161           $40,285             ($8)



The accompanying notes are an integral part of these statements.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report               10
Financial Information (Unaudited)




                             Department of Homeland Security                                  (page 1 of 2)
                                  Statements of Financing 

                     For the Years Ended September 30, 2006 and 2005

                                        (In Millions) 


                                                                                  2006              2005
                                                                               (Unaudited)      (Unaudited)
                                                                                                 (Restated)

 Resources Used to Finance Activities
 Budgetary Resources Obligated
  Obligations Incurred (Note 25)                                                   $91,412             $68,628
  Less: Spending Authority from Offsetting Collections and Recoveries              (13,438)            (10,296)
  Obligations Net of Offsetting Collections and Recoveries                           77,974              58,332
  Less: Offsetting Receipts                                                         (4,821)             (4,548)
  Net Obligations                                                                    73,153              53,784

 Other Resources
  Donations and Forfeiture of Property                                                   6                   8
  Transfers in(out) Without Reimbursement                                               30                  11
  Imputed Financing from Costs Absorbed by Others                                      702                 651
  Net Other Resources Used to Finance Activities                                       738                 670

 Total Resources Used to Finance Activities                                        $73,891             $54,454

 Resources Used to Finance Items Not Part of the Net Cost of Operations
  Change in Budgetary Resources Obligated for Goods, Services and
     Benefits Ordered but not yet Provided                                           2,159              12,863
  Resources that Fund Expenses Recognized in Prior Periods                          19,591                  42
  Budgetary Offsetting Collections and Receipts that do not Affect
  Net Cost of Operations:
    Credit program Collections that Increase Liabilities for Loan Guarantees
     or Allowances for Subsidy                                                        (478)                 (8)
    Other                                                                           (2,433)              (741)
  Resources that Finance the Acquisition of Assets                                    2,668              1,860
  Other Resources or Adjustments to Net Obligated Resources that do not
     Affect Net Cost of Operations                                                   1,677                 501
 Total Resources Used to Finance Items Not Part of the Net Cost of
 Operations                                                                         23,184              14,517

 TOTAL RESOURCES USED TO FINANCE THE NET COST OF
  OPERATIONS                                                                       $50,707             $39,937




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report            11
Financial Information (Unaudited)




                               Department of Homeland Security                                   (page 2 of 2)
                                    Statements of Financing 

                       For the Years Ended September 30, 2006 and 2005

                                          (In Millions)


                                                                                 2006                  2005
                                                                              (Unaudited)          (Unaudited)
                                                                                                    (Restated)

   Components of the Net Cost of Operations that will not Require or
    Generate Resources in the Current Period:
   Components Requiring or Generating Resources in Future Periods
    Increase in Annual Leave Liability                                                   $140                    $67
    Increase in Environmental and Disposal Liability                                        66                     20
    Increase in Exchange Revenue Receivable from the Public                              (182)                   (95)
    Other
     Increase in Insurance Liabilities                                                   -                 21,651
     Increase in Actuarial Pension Liability                                         1,721                  1,691
     Increase in USCG Military Post Employment Benefits                                 37                     17
     Increase in Actuarial Health Insurance Liability                                  658                    367
     Other                                                                             366                    295
    Total Components of Net Cost of Operations that will Require or
      Generate Resources in Future Periods                                           2,806                 24,013
   Components not Requiring or Generating Resources
   Depreciation and Amortization                                                     1,152                  1,121
   Revaluation of Assets or Liabilities                                                 25                    552
   Other                                                                             (372)                    243
   Total Components of Net Cost of Operations that will not Require or
     Generate Resources                                                                   805               1,916
   Total Components of Net Cost of Operations That Will Not Require
     or Generate Resources in the Current Period                                     3,611                 25,929

   NET COST OF OPERATIONS                                                          $54,318                $65,866


   The accompanying notes are an integral part of these statements.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report            12
Financial Information (Unaudited)




                                        Department of Homeland Security

                                         Statements of Custodial Activity

                                For the Years Ended September 30, 2006 and 2005 

                                                  (In Millions) 


                                                                       2006               2005
                                                                    (Unaudited)        (Unaudited)
              Revenue Activity
              Sources of Cash Collections:
               Duties                                                    $24,730           $23,198
               User Fees                                                   1,524             1,305
               Excise Taxes                                                2,427             2,335
               Fines and Penalties                                            64                63
               Interest                                                       12                 9
               Miscellaneous                                                 178               417
              Total Cash Collections                                      28,935            27,327

              Accrual Adjustments (+/-)                                   (5,371)              253
              Total Custodial Revenue                                     23,564            27,580

              Disposition of Collections
              Transferred to Others: 

                Federal Entities: 

                  U.S. Department of Agriculture                             127               123
                  U.S. Department of Labor                                   189               142
                  U.S Department of State                                     44                27
                  National Science Foundation                                105                83
                  Treasury General Fund Accounts                          27,206            25,688
                  Other Federal Agencies                                      17                16
                Non-Federal Entities:
                  Government of Puerto Rico                                      14             42
                  Government of the U.S. Virgin Islands                           6              1
                  Other Non-Federal Entities                                      9             10
              (Increase)/Decrease in Amounts Yet to be
                                                                          (5,371)              250
              Transferred
              Refunds and Drawbacks (Notes 18 and 33)                          1,160         1,159
              Retained by the Department                                          58            39

              Total Disposition of Custodial Revenue                      23,564            27,580

              Net Custodial Activity                                             $-             $-


            The accompanying notes are an integral part of these statements.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report               13
Financial Information (Unaudited)



Notes to the Financial Statements
Table of Contents for Notes to the Financial Statements (unaudited)

 Note    Title of Note                                                                                Page 

 No.                                                                                                Number


 1. 	    Summary of Significant Accounting Policies                                                     15


 Notes Disclosures Related to the Balance Sheets
 2.     	Non-Entity Assets                                                                              27

 3. 	      Fund Balance with Treasury                                                                   28

 4. 	      Cash and Other Monetary Assets                                                               30

 5.       	Investments, Net                                                                             30

 6.        	Accounts Receivable, Net                                                                    32

 7. 	     Tax, Duties, and Fees Receivables, Net                                                        32

 8. 	      Direct Loans, Net                                                                            33

 9. 	     Inventory and Related Property, Net                                                           35

 10. 	 Prohibited Seized Property                                                                       36

 11. 	 General Property, Plant, and Equipment, Net                                                      38

 12.   	Stewardship PP&E                                                                                39

 13.     	Other Assets                                                                                  40

 14. 	 Liabilities Not Covered by Budgetary Resources                                                   41

 15.     D
         	 ebt                                                                                          42

 16. 	 Federal Employee and Veterans’ Benefits                                                          43

 17. 	 Environmental and Disposal Liabilities                                                           45

 18.     	Other Liabilities                                                                             46

 19.        L
            	 eases                                                                                     48

 20. 	 Insurance Liabilities                                                                            49

 21. 	 Commitments and Contingent Liabilities                                                           50

 22.       E
           	 armarked Funds                                                                             52


 Notes Disclosures Related to the Statements of Net Cost
 23. 	 Intragovernmental Costs and Exchange Revenue                                                     57

 24. 	 Suborganization Costs by DHS Strategic Goals                                                     60


 Notes Disclosures Related to the Statements of Budgetary Resources
 25. 	 Apportionment Categories of Obligations Incurred: Direct vs. Reimbursable Obligations            63

 26. 	 Available Borrowing Authority                                                                    63

 27. 	 Permanent Indefinite Appropriations                                                              63

 28. 	 Legal Arrangements Affecting the Use of Unobligated Balances                                     64

 29. 	 Explanation of Differences Between the Statement of Budgetary Resources and the                  65

       Budget of the U.S. Government 

 30. 	 Undelivered Orders, End of Period                                                                65

 31. 	 Explanation for the Difference Between the Appropriations Received reported on the               65

       Statement of Budgetary Resources and on the Statement of Changes in Net Position 


 Notes Disclosures Related to the Statements of Financing
 32. 	 Explanation of the Relationship Between Liabilities Not Covered by Budgetary                     66

       Resources and Components Requiring or Generating Resources in Future Periods 


 Notes Disclosures Related to the Statements of Custodial Activity
 33.   C
       	 ustodial Revenues                                                                              66


 Notes Disclosures Not Pertaining to a Specific Statement
 34.   	Restatements                                                                                    68





Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   
     14
Financial Information (Unaudited)



Notes to the Financial Statements (Unaudited)

1. Summary of Significant Accounting Policies

A. Reporting Entity

The Department of Homeland Security (DHS or Department) was established by the Homeland Security
Act of 2002 (HSA), Public Law 107-296, dated March 25, 2002, as an executive department of the United
States government. DHS’ mission is to lead the national effort to secure America. This mission includes the
prevention and deterrence of terrorist attacks and protection against, and response to, threats and hazards
to the nation. Additionally, DHS’ mission is to ensure the safety and security of borders, welcome lawful
immigrants and visitors, and promote the free-flow of commerce. The Department is composed of the
following reporting components:

         Federal Emergency Management Agency (FEMA) 

         Preparedness Directorate (PRE), including the Grants and Training (G&T), and U.S. Fire 

           Administration (SPF)
         Science and Technology Directorate (S&T)

         United States Citizenship and Immigration Services (USCIS) 

         United States Coast Guard (USCG)

         United States Customs and Border Protection (CBP) 

         Federal Law Enforcement Training Center (FLETC) 

         United States Immigration and Customs Enforcement (ICE), including the Federal Protective 

           Services (FPS)
         United States Secret Service (USSS) 

         Transportation Security Administration (TSA), including the Federal Air Marshals (FAM) 

         United States VISIT (US VISIT) 

         Departmental Operations and Other, including the Management Directorate (MGT), 

             Headquarters, and the Office of the Inspector General (OIG)

On July 13, 2005, Secretary Michael Chertoff announced his agenda for the Department designed to
ensure that the Department’s policies, operations, and structures are aligned in the best way to address the
potential threats – both present and future – that face the nation. This agenda reflects conclusions drawn
as a result of the Second Stage Review (2SR or the Review). The Review examined the Department in
order to recommend ways that the Department could better manage risks in terms of threats, vulnerability
and consequences; prioritize policies and operational missions according to this risk based approach; and
establish a series of steps that would increase security.

As a result of 2SR, which was formally approved on October 18, 2005, the Department underwent a
realignment designed to increase its ability to prepare, prevent, and respond to terrorist attacks and other
emergencies. Specific realignments that affect financial reporting include the establishment of four offices
that are reported in the accompanying financial statements and footnote disclosures under Departmental
Operations and Other.

    •	   The Office of Policy was created to serve as the primary Department-wide coordinator for policies,
         regulations, and other initiatives. These functions were previously performed under the Border and
         Transportation Security Directorate.
    •	   The Office of Intelligence and Analysis was created to gather, analyze, and report information from
         relevant field operations and information from other parts of the intelligence community. These
         functions were previously performed, in part, under the Information Analysis and Infrastructure
         Protection Directorate.
    •	   The Office of Operations Coordination was established to conduct joint operations across the
         Department, coordinate incident management and the management of the Homeland Security
         Operations Center.
    •	   The Office of Legislative and Intergovernmental Affairs was created to merge similar functions
         previously provided by the Office of Legislative Affairs and the Office of State and Local
         Government Coordination.


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report           15
Financial Information (Unaudited)




During fiscal year 2005, the Border and Transportation Security Directorate (BTS) consisted of CBP, ICE,
FPS, FAM, TSA, and FLETC. The 2SR changes disassembled the BTS as a Directorate and established
each component with direct reporting to the Secretary, with the exception of FAM which is reported as a
component of TSA and FPS which is reported as a component of ICE. U.S. VISIT was also established as
a separate reporting component.

The Emergency Preparedness and Response Directorate (EP&R) is no longer a separate component of
the Department, as reported in fiscal year 2005. In fiscal year 2006, FEMA (formerly a component of
EP&R) was established as a separate reporting component. Additionally, the Information Analysis and
Infrastructure Protection Directorate was renamed the Preparedness Directorate (PRE). This Directorate
was established to consolidate preparedness assets from across the Department, including the remaining
EP&R functions, specifically the U.S. Fire Administration, that was previously reported with FEMA.
Included in PRE is the Grants and Training component, formerly known as the Office of State and Local
Government Coordination and Preparedness, which no longer exists as a separate office.

Based on the 2SR changes discussed above, the fiscal year 2005 financial statement balances were
reclassified to conform with the fiscal year 2006 presentation. See Note 1.B, Basis of Presentation, for
detailed information regarding the reporting effects of these changes.


B. Basis of Presentation

These financial statements are prepared to report the consolidated financial position, net cost of operation,
changes in net position, custodial activity, and financing, and the combined budgetary resources of the
Department pursuant to the Government Management Reform Act of 1994 (Public Law 103-356) and Chief
Financial Officers Act of 1990 (Public Law 101-576), as amended by the Reports Consolidation Act of 2000
(Public Law 106-531).

The Department’s financial statements have been prepared from the accounting records of the Department
in conformity with U.S. generally accepted accounting principles (GAAP), and the Office of Management
and Budget (OMB) Circular A-136, Financial Reporting Requirements. GAAP for Federal entities are the
standards prescribed by the Federal Accounting Standards Advisory Board (FASAB), the official
accounting standards-setting body of the Federal government.

The Department’s financial statements reflect the reporting of Departmental activities including appropriations
received to conduct operations and revenue generated from operations. The financial statements also reflect
the reporting of certain non-entity (custodial) functions performed by the Department on behalf of the Federal
government.

Intragovernmental assets and liabilities result from activity with other Federal entities. All other assets and
liabilities result from activity with parties outside the Federal government, such as domestic and foreign
persons, organizations, or governments. Intragovernmental earned revenues are collections or accruals of
revenue from other Federal entities and intragovernmental costs are payments or accruals to other Federal
entities. Transactions and balances among the Department’s components have been eliminated in the
consolidated presentation of the Balance Sheets, Statements of Net Cost, Statements of Changes in Net
Position, and the Statements of Custodial Activity and certain lines of the Statements of Financing. The
Statements of Budgetary Resources is reported on a combined basis; therefore, intradepartmental
balances have not been eliminated.

While these financial statements have been prepared from the books and records of the Department in
accordance with the formats prescribed by OMB, these financial statements are in addition to the financial
reports used to monitor and control budgetary resources, which are prepared from the same books and
records.

These financial statements should be read with the realization that they are for a component of the United
States Government, a sovereign entity, that liabilities not covered by budgetary resources cannot be
liquidated without the enactment of an appropriation, and that the payment of all liabilities other than for


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report             16
Financial Information (Unaudited)



contracts can be abrogated by the sovereign entity.

Reclassifications. As a result of the 2SR changes affecting the definition of the Reporting Entity, OMB and
other presentation changes, certain reclassifications were made to the fiscal year 2005 financial statements
and associated footnotes to conform with the fiscal year 2006 presentation.

C. Basis of Accounting

Transactions are recorded on an accrual and a budgetary basis of accounting. Under the accrual basis,
revenues are recorded when earned and expenses are recognized when a liability is incurred, regardless
of when cash is exchanged. Budgetary accounting facilitates compliance with legal constraints and the
controls over the use of Federal funds. The balances and activity of budgetary accounting is used to
prepare the Statements of Budgetary Resources. The Statements of Custodial Activity is reported using
the modified cash basis. With this method, revenue from cash collections is reported separately from
receivable accruals and cash disbursements are reported separately from payable accruals.

D. Use of Estimates

Management has made certain estimates and assumptions in the reporting of assets, liabilities, revenues,
expenses, obligations incurred, spending authority from offsetting collections and note disclosures in the
financial statements. Actual results could differ from these estimates. Significant estimates include: the
year-end accruals of accounts and grants payable, contingent legal and environmental liabilities, accrued
workers’ compensation, allowance for doubtful accounts receivable, allowances for obsolete inventory and
operating supplies and materials (OM&S) balances, allocations of indirect common costs to construction-in
progress, depreciation, subsidy re-estimates, deferred revenues, National Flood Insurance Program (NFIP)
insurance liability, actuarial workers compensation assumptions, military and other pension, retirement and
post-retirement benefit assumptions, allowances for doubtful duties, fines, and penalties, and certain non
entity receivables and payables related to custodial activities.

E. Entity and Non-Entity Assets

Entity assets are assets that the Department has the authority to use in its operations. The authority to use
funds in an entity’s operations means that Department management has the authority to decide how funds
are used, or management is legally obligated to use funds to meet entity obligations, e.g. salaries and
benefits.

Non-entity assets are assets held by the Department, but are not available for use by the Department. An
example of a non-entity asset is Fund Balance with Treasury available to pay refunds and drawback claims
of duties, taxes and fees, which the Department collects but has no authority to spend.

F. Fund Balance with Treasury

Fund Balance with Treasury represents the aggregate amount of the Department’s accounts with the
Department of the Treasury (Treasury) available to pay current liabilities and finance authorized purchases,
except as restricted by law. The Department’s Fund Balance with Treasury balances are primarily
appropriated, revolving, trust, deposit, receipt, and special fund amounts remaining as of the fiscal year
end.

The Department does not maintain cash in commercial bank accounts. For FEMA, certain receipts are
received and processed by insurance companies. The remainder of the receipts and disbursements are
processed by Treasury.

For additional information, see Note 3, Fund Balance with Treasury.

G. Cash and Other Monetary Assets

The Department's cash and other monetary assets primarily consist of undeposited collections, imprest
funds, cash used in undercover operations, cash held as evidence, cash held by insurance companies, and


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report           17
Financial Information (Unaudited)



seized cash and monetary instruments.

For additional information, see Note 4, Cash and Other Monetary Assets.

H. Investments, Net

Investments consist of United States government non-marketable par value and market based Treasury
securities, and are reported at cost or amortized cost net of premiums or discounts. Premiums or discounts
are amortized into interest income over the terms of the investment using the effective interest method or
the straight line method, which approximates the interest method. No provision is made for unrealized
gains or losses on these securities because it is the Department’s intent to hold these investments to
maturity.

For additional information, see Note 5, Investments, Net.

I.   Accounts Receivable, Net

Accounts receivable represent amounts due to the Department by other Federal agencies and the public.
Intragovernmental accounts receivable generally arise from the provision of goods and services to other
Federal agencies and are expected to be fully collected.

Accounts receivable due from the public typically results from various immigration and user fees, premiums
and restitution from insurance companies and policyholders, breached bonds, reimbursable services, and
security fees. Public accounts receivable are presented net of an allowance for doubtful accounts, which is
based on analyses of debtors’ ability to pay, specific identification of probable losses, aging analysis of past
due receivables, or historical collection experience. Interest due on past due receivables is fully reserved
until collected.

For additional information, see Note 6, Accounts Receivable, Net.

J. Advances and Prepayments

Intragovernmental advances, presented as a component of other assets in the accompanying Balance
Sheets, consist primarily of disaster recovery and assistance advances to other Federal agencies tasked
with mission assignments.

Advances and prepayments to the public, presented as a component of other assets in the accompanying
Balance Sheets, consist primarily of disaster recovery and assistance grants to states and other grant
activity. Advances are expensed as they are used by the recipients. At year end, the amount, if any, of
grant funding unexpended and a grant payable is estimated based on cash transactions reported by the
grant administrator.

For additional information, see Note 13, Other Assets.

K. Direct Loans, Net

Direct loans are loans issued by the Department to local governments. FEMA, the only DHS component
with loan activity, operates the Community Disaster Loan program to support any local government which
has suffered a substantial loss of tax and other revenues as a result of a major disaster and which
demonstrates a need for Federal financial assistance in order to perform its governmental functions. Under
the program, FEMA transacts direct loans to local governments who meet statutorily set eligibility criteria.
Loans are accounted for as receivables as funds are disbursed.

All of the Department’s loans are post 1991 obligated direct loans, and the resulting receivables are
governed by the Federal Credit Reform Act of 1990 (FCRA). Under FCRA, for direct loans disbursed during
a fiscal year, the corresponding receivable is adjusted for subsidy costs. Subsidy costs are an estimated
long-term cost to the United States Government for its loan programs. The subsidy cost is equal to the



Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report             18
Financial Information (Unaudited)



present value of the estimated cash outflows over the life of the loans minus the present value of the
estimated cash inflows, discounted at the applicable Treasury interest rate. Administrative costs such as
salaries and contractual fees are not included. Subsidy costs can arise from interest rate differentials,
interest subsidies, delinquencies and defaults, and other cash flows. The Department calculates the
subsidy costs based on a subsidy calculator model created by OMB.

Loans receivable are recorded at the present value of the estimated net cash flows. The difference
between the outstanding principal of the loans and the present value of their net cash inflows is recorded in
the allowance for subsidy, which is estimated and adjusted annually, as of year-end.

For additional information see Note 8, Direct Loans, net.

L. Inventory and Related Property, Net

Operating materials and supplies (OM&S) are tangible personal property consumed during normal
operations. Department OM&S consists primarily of goods consumed during the service of vessels and
aircraft. OM&S are valued based on an average unit cost, weighted moving average method or on actual
prices paid. OM&S are expensed when consumed or issued for use. Excess, obsolete, and unserviceable
OM&S are stated at net realizable value net of an allowance, which is based on the condition of various
asset categories, as well as historical experience with using and disposing of such assets.

Inventory is tangible personal property that is held for sale, in the process of production for sale, or to be
consumed in the production of goods for sale, or in the provision of services for fees. Department
inventories consist primarily of USCG Supply Fund’s uniform clothing, subsistence provisions, retail stores,
general stores, technical material and fuel, and USCG Yard Fund’s ship repair and general inventory.
Inventories on hand at year-end are stated at cost using standard price/specific identification, last
acquisition price, or weighted average cost methods, which approximates historical cost. Revenue on
inventory sales and associated cost of goods sold are recorded when merchandise is sold to the end user.
USCG’s inventory is restricted to sales within the USCG, and is not available for sale to the public or other
government agencies.

Stockpile materials are critical materials held due to statutory requirements for use in national emergencies.
The Department’s stockpile materials held by FEMA include goods that would be used to respond to
national disasters, including water, meals, cots, and blankets. The goods are valued at historical cost.

For additional information see Note 9, Inventory and Related Property, Net

M. Seized and Forfeited Property

The Department’s prohibited seized property results primarily from criminal investigations and
passenger/cargo processing. Seized property falls into two categories, prohibited and non-prohibited.
Prohibited seized property includes illegal drugs, contraband, and counterfeit items that cannot legally enter
into the commerce of the United States; non-prohibited seized property includes items that are not
inherently illegal to possess or own such as monetary instruments, real property, and tangible personal
property of others.

Seized property is not considered an asset of the Department and is not reported as such in the
Department’s financial statements. However, the Department has a stewardship responsibility until the
disposition of the seized items are determined, i.e., judicially or administratively forfeited or returned to the
entity from which it was seized.

Forfeited property is seized property for which the title has passed to the United States government.
Prohibited forfeited items such as counterfeit goods, narcotics, or firearms are held by the Department until
disposed of or destroyed. Non-prohibited seized property is transferred to the Treasury Forfeiture Fund.

An analysis of changes in seized and forfeited property of prohibited items is presented in Note 10.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                19
Financial Information (Unaudited)




N. General Property, Plant, and Equipment, Net

The Department’s property, plant, and equipment (PP&E) consists of aircraft, vessels, vehicles, land,
structures, facilities, capital leases, leasehold improvements, software, information technology and other
equipment. PP&E is recorded at cost. The Department capitalizes PP&E acquisitions when the cost equals
or exceeds an established threshold and has a useful life of two years or more.

Costs for construction projects are recorded as construction-in-progress until completed, and are valued at
actual (direct) costs, plus applied overhead and other indirect costs. In cases where historical cost
information was not maintained, PP&E is capitalized using an estimated cost based on the cost of similar
assets at the time of acquisition or the current cost of similar assets discounted for inflation since the time
of acquisition. The Department owns some of the buildings in which components operate. Other buildings
are provided by the General Services Administration (GSA), which charges rent equivalent to the
commercial rental rates for similar properties.

Internal use software includes purchased commercial off-the-shelf software (COTS), contractor developed
software, and internally developed software. For COTS software, the capitalized costs include the amount
paid to the vendor for the software. For contractor developed software the capitalized costs include the
amount paid to a contractor to design, program, install, and implement the software. Capitalized costs for
internally developed software include the full cost (direct and indirect) incurred during the software
development phase.

The schedule of capitalization thresholds shown below is a summary of the range of capitalization rules in
place from the legacy agencies that comprised the Department at inception. In accordance with DHS
policy, components were allowed to continue using their legacy thresholds and capitalization rules until a
more comprehensive approach is developed that takes into account the vast differences in component size
and asset usage.

The ranges of capitalization thresholds and service life used by components, by primary asset category,
are as follows:

   Asset Description                   Capitalization Threshold              Service Life
   Land and improvements               Regardless of cost to $100,000        Not Applicable to 50 years
   Buildings and improvement           $25,000 to $200,000                   2 years to 50 years
   Equipment and capital leases        $5,000 to $200,000                    3 years to 65 years
   Software                            $50,000 to $750,000                   2 years to 10 years

The Department begins to recognize depreciation expense once the asset has been placed in service.
Depreciation is calculated on a straight-line method for all asset classes over their estimated useful lives.
Land is not depreciated. Depreciation on buildings and equipment leased by GSA is not recognized by the
Department. Leasehold improvements are depreciated over the shorter of the term of the remaining portion
of the lease or the useful life of the improvement. Buildings and equipment acquired under capital leases
are amortized over the lease term. Amortization of capitalized software is calculated using the straight-line
method and begins on the date of acquisition if purchased, or when the module or component has been
placed in use (i.e., successfully installed and tested) if contractor or internally developed. There are no
restrictions on the use or convertibility of general PP&E.

For additional information see Note 11, General Property, Plant and Equipment, Net

O. Stewardship Property, Plant and Equipment

Stewardship PP&E includes heritage assets and stewardship land which generally are not included in
general PP&E presented on the balance sheet. Heritage assets are unique due to their historical or natural
significance, cultural, educational, or artistic importance, or significant architectural characteristics. Heritage
assets can serve two purposes, a heritage function and general government operational function. If a



Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                20
Financial Information (Unaudited)



heritage asset serves both purposes, but is predominantly used for general government operations, the
heritage asset is considered a multi-use heritage asset, which is included in general PP&E on the Balance
Sheet.

The Department’s multi-use heritage assets consist primarily of buildings and structures owned by CBP
and USCG. CBP depreciates its multi-use heritage assets. Due to their nature, heritage assets are not
depreciated because matching costs with specific periods would not be meaningful.

For more information see Note 12, Stewardship Property, Plant and Equipment.

P. Liabilities

Liabilities represent the probable and measurable future outflow or other sacrifice of resources as a result
of past transactions or events. Liabilities covered by budgetary resources are those liabilities for which
Congress has appropriated funds or funding is otherwise available to pay amounts due. Liabilities not
covered by budgetary or other resources represent amounts owed in excess of available Congressionally
appropriated funds or other amounts, and there is no certainty that the appropriations will be enacted. The
United States Government, acting in its sovereign capacity, can abrogate liabilities of the Department
arising from other than contracts.

Q. Contingent Liabilities

Certain conditions exist as of the date of the financial statements, which may result in a loss to the
government, but which will only be resolved when one or more future events occur or fail to occur. The
Department recognizes a loss contingency when the future outflow or other sacrifice of resources is
probable and reasonably estimable. The Department discloses a loss contingency in the notes to the
financial statements when the conditions for liability recognition are not met or when a loss from the
outcome of future events is more than remote. The uncertainty of loss should be resolved when one or
more future events occur or fail to occur.

For more information see Note 21, Commitments and Contingent Liabilities.

Environmental Cleanup Costs. Environmental liabilities consist of environmental remediation, and
cleanup and decommissioning. The liability for environmental remediation is an estimate of costs
necessary to bring a known contaminated asset into compliance with applicable environmental standards.
Accruals for environmental cleanup costs are the costs of removing, containing, and/or disposing of
hazardous wastes or materials that, because of quantity, concentration, or physical or chemical
characteristics may pose a substantial present or potential hazard to human health or the environment.

For all PP&E in service as of October 1, 1997, DHS recognizes the estimated total cleanup costs
associated with the PP&E at the time the cleanup requirement is identified. DHS does not prorate a
cleanup cost over the life of these PP&E. However, the estimate may be subsequently adjusted for material
changes due to inflation/deflation or changes in regulations, plans, or technology. The applicable costs of
decommissioning DHS’ existing and future vessels are considered cleanup costs.

For more information see Note 17, Environmental and Disposal Liabilities.

R. Grants Liability

The Department awards grants and cooperative agreements to Federal, state and local governments,
universities, non-profit organizations, and private sector companies for the purpose of building the capacity
to respond to disasters and emergencies, conduct research into preparedness, enhance and ensure the
security of passenger and cargo transportation by air, land, or sea, and other Department-related activities.
The Department estimates the year-end grant accrual for unreported grantee expenditures using historical
disbursement data. Grants liabilities are combined with accounts payable to the public in the
accompanying Balance Sheets.

For more information see Note 18, Other Liabilities.


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report           21
Financial Information (Unaudited)




S. Insurance Liabilities

Insurance liabilities are the result of the Department’s sale or continuation-in-force of flood insurance
known as the National Flood Insurance Program (NFIP), which is managed by FEMA. The insurance
liability represents an estimate of NFIP losses that are unpaid at the Balance Sheet date. Although the
insurance underwriting operations believes the liability for unpaid losses and loss adjustment expenses is
reasonable and adequate in the circumstances, actual incurred losses and loss adjustment expenses may
not conform to the assumptions inherent in the estimation of the liability. Accordingly, the ultimate
settlement of losses and the related loss adjustment expenses may vary from the estimate reported in the
financial statements.

For more information see Note 18, Other Liabilities, and Note 20, Insurance Liabilities.

T. Debt and Borrowing Authority

Debt is reported within Intragovernmental Liabilities and results from Treasury loans and related interest
payable to fund NFIP and Disaster Assistance Direct Loan Program (DADLP) operations. The
Department’s obligations for NFIP and DADLP are financed by principal repayments, flood premiums, and
map collection fees.

The Department has borrowing authority for NFIP and DADLP, and may obtain additional borrowing
authority if needed.

For more information see Note 15, Debt.

U. Accrued Payroll and Benefits

Accrued Payroll. Accrued Payroll is salaries, wages, and other compensation earned by the employees,
but not disbursed as of September 30. The liability is estimated for reporting purposes based on historical
pay information.

Leave Program. Earned annual and other vested compensatory leave is accrued as it is earned and
reported on the Balance Sheet as an accrued payroll and benefits liability. The liability is reduced as leave
is taken. Each year, the balances in the accrued leave accounts are adjusted to reflect the liability at
current pay rates and leave balances. Sick leave and other types of non-vested leave are not earned
benefits. Accordingly, non-vested leave is expensed when used.

Federal Employees Compensation Act. The Federal Employees Compensation Act (FECA) provides
income and medical cost protection to covered Federal civilian employees injured on the job, to employees
who have incurred work-related occupational diseases, and to beneficiaries of employees whose deaths
are attributable to job-related injuries or occupational diseases. The FECA program is administered by the
U.S. Department of Labor (Labor), which pays valid claims and subsequently seeks reimbursement from
the Department for these paid claims.

The FECA liability consists of two components. The first component, accrued FECA liability, is based on
actual claims paid by Labor but not yet reimbursed by the Department. The Department reimburses Labor
for the amount of actual claims as funds are appropriated for this purpose. There is generally a two-to
three-year time period between payment by Labor and reimbursement to Labor by the Department. As a
result, the Department recognizes an intragovernmental liability for the actual claims paid by Labor and to
be reimbursed by the Department.

The second component, actuarial FECA liability, is the estimated liability for future benefit payments and is
recorded as a component of Federal Employee and Veterans’ Benefits. This liability includes death,
disability, medical, and miscellaneous costs. Labor determines this component annually, as of September
30, using an actuarial method that considers historical benefit payment patterns, wage inflation factors,
medical inflation factors, and other variables. The projected annual benefit payments are discounted to
present value using the OMB economic assumptions for 10-year Treasury notes and bonds. To provide for


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report            22
Financial Information (Unaudited)



the effects of inflation on the liability, wage inflation factors (i.e., cost of living adjustments), and medical
inflation factors (i.e., consumer price index medical adjustments) are applied to the calculation of projected
future benefit payments. These factors are also used to adjust historical benefit payments and to adjust
future benefit payments to current year constant dollars. The actuarial FECA liability is not covered by
budgetary resources and will require future funding.

For more information on the Actuarial FECA Liability see Note 16, Federal Employee and Veterans’
Benefits. For more information on the Accrued FECA Liability, Accrued Payroll and Accrued Leave, see
Note 18, Other Liabilities.

V. Federal Employee and Veterans’ Benefits

Civilian Pension and Other Post Employment Benefits. The Department recognizes the full annual cost
of its civilian employees’ pension benefits; however, the assets of the plan and liability associated with
pension costs are recognized by Office of Personnel Management (OPM) rather than the Department.

Most U.S. Government employees of DHS hired prior to January 1, 1984, participate in the Civil Service
Retirement System (CSRS), to which the Department contributes 7 percent of base pay for regular CSRS
employees, and 7.5 percent of base pay for law enforcement agents. The majority of employees hired after
December 31, 1983, are covered by the Federal Employees Retirement System (FERS) and Social
Security. For the FERS basic annuity benefit the Department contributes 11.2 percent of base pay for
regular FERS employees and 23.8 percent for law enforcement agents. A primary feature of FERS is that it
also offers a defined contribution plan to which the Department automatically contributes 1 percent of base
pay and matches employee contributions up to an additional 4 percent of base pay. The Department also
contributes the employer's Social Security matching share for FERS participants.

Similar to CSRS and FERS, OPM rather than the Department reports the liability for future payments to
retired employees who participate in the Federal Employees Health Benefits Program (FEHB) and Federal
Employees Group Life Insurance Program (FEGLI). The Department is required to report the full annual
cost of providing these other retirement benefits (ORB) for its retired employees as well as reporting
contributions made for active employees. In addition, the Department recognizes an expense and liability
for other post employment benefits (OPEB), which includes all types of benefits provided to former or
inactive (but not retired) employees, their beneficiaries, and covered dependents.

The difference between the full annual cost of CSRS and FERS retirement, ORB and OPEB and the
amount paid by the Department is recorded as an imputed cost and offsetting imputed financing source in
the accompanying financial statements.

Military Retirement System Liability. The USCG Military Retirement System (MRS) is a defined benefit
plan that covers both retirement pay and health care benefits for all active duty and reserve military
members of the USCG. The plan is funded through annual appropriations and, as such, is a pay-as-you-go
system. The unfunded accrued liability reported on the accompanying Balance Sheet is actuarially
determined by subtracting the present value of future employer/employee contributions, as well as any plan
assets, from the present value of the future cost of benefits. Current period expense is computed using the
aggregate entry age normal actuarial cost method.

A portion of the accrued MRS liability is for the health care of non-Medicare eligible retirees/survivors. The
Department of Defense (DoD) is the administrative entity and in accordance with SFFAS No. 5, is required
to recognize the liability on the Fund’s financial statements. The USCG makes monthly payments to the
Fund for current active duty members. Benefits for USCG members who retired prior to the establishment
of the Fund are provided by payments from the Treasury to the Fund. The future cost and liability of the
Fund is determined using claim factors and claims cost data developed by the DoD, adjusted for USCG
retiree and actual claims experience. The USCG uses the current year actual costs to project costs for all
future years.

Post-employment Military Travel Benefit. USCG uniformed service members are entitled to travel and
transportation allowances for travel performed or to be performed under orders, without regard to the
comparative costs of the various modes of transportation. These allowances, upon separation from the


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report               23
Financial Information (Unaudited)



service, include the temporary disability related list placement, release from active duty, retirement and
entitlement for travel from the member’s last duty station to home or the place from which the member was
called or ordered to active duty, whether or not the member is or will be an active member of a uniformed
service at the time of travel is or will be performed.

USCG recognizes an expense and a liability for this OPEB when a future outflow or other sacrifice of
resources is probable and measurable on the basis of events occurring on or before the reporting date. The
OPEB liability is measured at the present value of future payments, which requires the USCG to estimate
the amount and timing of future payments, and to discount the future outflow using the Treasury borrowing
rate for securities of similar maturity to the period over which the payments are made.

Uniformed Division and Special Agent Pension Liability. The District of Columbia Police and Fireman’s
Retirement System (the DC Pension Plan) is a defined benefit plan that covers USSS Uniformed Division
and Special Agents. The DC Pension Plan makes benefit payments to retirees and/or their beneficiaries.
The USSS receives permanent, indefinite appropriations each year to pay the excess of benefit payments
over salary deductions. The DC Pension Plan is a pay-as-you-go system funded through annual
appropriations. The unfunded accrued liability reported on the accompanying Balance Sheet is actuarially
determined by subtracting the present value of future employer/employee contributions, as well as any plan
assets, from the present value of future cost of benefits. Current period expense is computed using the
aggregate cost method.

For more information on Civilian Pension and Other Post Employment Benefits, Military Retirement System
Liability, Post-employment Military Travel Benefit and Uniformed Division and Special Agent Pension
Liability see Note 16, Federal Employee and Veterans’ Benefits.

W. Earmarked Funds and Adoption of a New Accounting Standard

The Department adopted SFFAS No. 27, Identifying and Reporting Earmarked Funds. Earmarked funds
are financed by specifically identified revenues, often supplemented by other financing sources, which
remain available over time. These specifically identified revenues and other financing sources are required
by statute to be used for designated activities, benefits or purposes, and must be accounted for separately
from the Government’s general revenues.

Earmarked non-exchange revenue and other financing sources, including appropriations, and net cost of
operations are shown separately on the Statements of Changes in Net Position. The portion of cumulative
results of operations attributable to earmarked funds is shown separately on both the Statements of
Changes in Net Position and the Balance Sheets.

For additional information see Note 22, Earmarked Funds, and Note 5, Investments, Net.

X. Revenue and Financing Sources

Appropriations. The Department receives the majority of funding to support its programs through
Congressional appropriations. The Department receives annual, multi-year, and no-year appropriations that
may be used, within statutory limits, for operating and capital expenditures. Additional funding is obtained
through exchange revenues, non-exchange revenues and transfers-in.

Appropriations are recognized as financing sources when related expenses are incurred or assets are
purchased. Revenue from reimbursable agreements is recognized when the goods or services are
provided by the Department. Prices for goods and services sold to the public are based on recovery of full
cost or are set at a market price. Reimbursable work between Federal agencies is subject to the Economy
Act (31 United States Code (U.S.C.) 1535) or other statutes authorizing reimbursement. Prices for goods
and services sold to other Federal government agencies are generally limited to the recovery of direct cost.

Exchange and Non-Exchange Revenue. Exchange revenues are recognized when earned and are
derived from transactions where both the government and the other party receive value; i.e., goods have
been delivered or services have been rendered. Non-exchange revenues from user fees are recognized as
earned in accordance with the Consolidated Omnibus Budget Reconciliation Act of 1985, as amended.


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report          24
Financial Information (Unaudited)



Non-exchange revenues arise from transfers in with and without financing sources and donations from the
public. Other financing sources, such as donations and transfers of assets without reimbursements, are
recognized on the Statements of Changes in Net Position during the period in which the donations and
transfers occurred.

    •	   Fees for flood mitigation products and services, such as insurance provided through FEMA’s NFIP,
         are established at rates necessary to sustain a self-supporting program. NFIP premium revenues
         are recognized ratably over the life of the policies. Deferred revenue relates to unearned premiums
         reserved to provide for the remaining period of insurance coverage.
    •	   Exchange revenue for TSA consists of security fees assessed on the public and air carriers
         pursuant to PL 107-71, the Aviation and Transportation Security Act.
    •	   USCIS requires advance payments of the fees for adjudication of applications or petitions for
         immigration and naturalization benefits. Revenue associated with the application fees received is
         deferred and not considered earned until the application is adjudicated.

Deferred revenue is recorded when the Department receives payment for goods or services which have not
been fully rendered. Certain application fees are paid at the time of filing and are recognized as revenue
when the requested benefits are adjudicated. Additionally, NFIP premium revenue is recognized over the
life of the insurance policies. Deferred revenue is reported as a liability on the Balance Sheets.

Imputed Financing Sources. In certain instances, operating costs of DHS are paid out of funds
appropriated to other Federal agencies. For example, the OPM, by law, pays certain costs of retirement
programs, and certain legal judgments against DHS are paid from a Judgment Fund maintained by the
Department of the Treasury. When costs that are identifiable to DHS and directly attributable to DHS
operations are paid by other agencies, DHS recognizes these amounts as operating expenses. DHS also
recognizes an imputed financing source on the Statements of Changes in Net Position to indicate the
funding of DHS operations by other Federal agencies.

Custodial Revenue. Non-entity revenue and refunds are reported on the Statements of Custodial Activity
using a modified cash basis. Non-entity revenue reported on the Department’s Statement of Custodial
Activity include duties, excise taxes, and various non-exchange fees collected by CBP and USCIS that are
subsequently remitted to Treasury’s General Fund or to other Federal agencies. Duties, user fees, fines
and penalties are assessed pursuant to the provisions of Title 19 United States Code (U.S.C.);
nonimmigrant petition fees under Title 8 U.S.C., and; excise taxes under Title 26 U.S.C. CBP also
enforces over 400 laws and regulations some of which require the collection of fees or the imposition of
fines and penalties pursuant to other Titles within the U.S.C. or Code of Federal Regulations (C.F.R.).

CBP assesses duties, taxes, and fees on goods and merchandise brought into the United States from
foreign countries. Non-entity tax and trade accounts receivables are recognized when CBP is entitled to
collect duties, user fees, fines and penalties, refunds and drawback overpayments, and interest associated
with import/export activity on behalf of the Federal Government that have been established as a specifically
identifiable, legally enforceable claim and remain uncollected as of year-end. The custodial revenue is
recorded at the time of collection. These revenue collections primarily result from current fiscal year
activities. Generally, CBP records an equal and offsetting liability due to the Treasury General Fund for
amounts recognized as non-entity tax and trade receivable and custodial revenue. CBP accrues an
estimate of duties, taxes and fees related to commerce released prior to year-end where receipt of
payment is anticipated subsequent to year-end. Fees collected by USCIS for nonimmigrant petitions must
be submitted with the petition. The portions of the fees that are subsequently remitted to other Federal
agencies are recorded as custodial revenue at the time of collection.

Non-entity receivables are presented net of amounts deemed uncollectible. CBP tracks and enforces
payment of estimated duties, taxes and fees receivable by establishing a liquidated damage case that
generally results in fines and penalties receivable. A fine or penalty, including interest on past due
balances, is established when a violation of import/export law is discovered. An allowance for doubtful
collections is established for substantially all accrued fines and penalties and related interest. The amount
is based on past experience in resolving disputed assessments, the debtor’s payment record and
willingness to pay, the probable recovery of amounts from secondary sources, such as sureties and an
analysis of aged receivable activity. CBP regulations allow importers to dispute the assessment of duties,


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report           25
Financial Information (Unaudited)



taxes and fees. Receivables related to disputed assessments are not recorded until the protest period
expires or a protest decision is rendered in CBP’s favor.

Refunds and drawback of duties, taxes and fees are recognized when payment is made. A permanent,
indefinite appropriation is used to fund the disbursement of refunds and drawbacks. Disbursements are
recorded as a decrease in the amount Transferred to Federal Entities as reported on the Statement of
Custodial Activity. An accrual adjustment is recorded on the Statements of Custodial Activity to adjust cash
collections and refund disbursements with the net increase or decrease of accrued non-entity accounts
receivables, net of uncollectible amounts and refunds payable at year-end.

For additional information see Note 7, Taxes, Duties, and Fees Receivables, Net, and Note 33, Custodial
Revenues.

Y. Taxes

The Department, as a Federal agency, is not subject to Federal, state or local income taxes and
accordingly, no provision for income taxes has been recorded in the accompanying financial statements.

Z.	 Restatements

In fiscal year 2006, the Department restated certain fiscal year 2005 balances. A brief explanation of the
restatements follows, for additional information see Note 34, Restatements.

    •	   TSA restated its fiscal year 2005 results to correct an error and to ensure its accounting practices
         for airline passenger and air carrier security fee collections are consistent with relevant legislation
         and government practice. This restatement did not change the net cost of the Department’s
         operations and did not increase or decrease the amount of budgetary resources available to the
         Department. The restatement corrected the Statements of Budgetary Resources, Changes in Net
         Position, and related footnotes for fiscal year 2005.
    •	   During fiscal year 2006, TSA became aware of obligations incurred but not recorded in prior years.
         As a result, the fiscal year 2005 Statement of Budgetary Resources was restated.
    •	   The USCG restated its fiscal year 2005 results due to an error in the data used to determine the
         estimate for the Postretirement Medical liability. The restatement decreased the Federal Employee
         and Veterans’ Benefits liability on the Balance Sheet as of September 30, 2005 which also resulted
         in an increase to the Cumulative Results of Operations. The restatement also resulted in decrease
         to gross cost of operations in fiscal year 2005 which also affect the Statements of Changes in Net
         Position and Financing.
    •	   ICE, USCIS and PRE restated certain financial statement balances as a result of errors discovered
         during the implementation of corrective actions. These corrective actions primarily focused on
         Fund Balance with Treasury, Accounts Payable and Property, Plant, and Equipment and resulted
         in restatements to all principal statements except the Statement of Custodial Activity.
    •	   FLETC restated certain 2005 financial statement balances due to accounting errors and accounting
         changes noted during fiscal year 2006. As a result, the Balance Sheet, the Statement of Changes
         in Net Position, and the Statement of Financing were restated.
    •	   As a result of new or updated reporting requirements and the restatements completed based on
         errors noted by the components, the Department noted reporting errors that were not attributable to
         a single component. Therefore, the Department restated the Statement of Budgetary Resources
         and the Statement of Financing to correct errors based on improvements to the financial statement
         crosswalks.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report             26
Financial Information (Unaudited)




2. Non-Entity Assets

Non-entity assets at September 30 consisted of the following (in millions):

                                                                                        2005
                                                                      2006
                                                                                     (Unaudited)
                                                                   (Unaudited)
                                                                                      (Restated)
             Intragovernmental:
             Fund Balance with Treasury                                $ 5,949             $5,067
             Due From Treasury                                             411               144
                Total Intragovernmental                                  6,360              5,211


             Cash and Other Monetary Assets                                   46               44
             Accounts Receivable, Net                                         19               19
             Taxes, Duties, and Trade Receivables, Net                   1,755              1,400
             Property, Plant, and Equipment                                    3                   6
                Total Public                                             1,823              1,469


             Total Non-Entity Assets                                     8,183              6,680
             Total Entity Assets                                        71,050            107,816
             Total Assets                                             $ 79,233           $114,496

Non-entity Fund Balance with Treasury consists of special and deposit funds, permanent and indefinite
appropriations, and miscellaneous receipts that are available to pay non-entity liabilities presented on the
Balance Sheet. Non-entity Fund Balance with Treasury at September 30, 2006, includes $5.2 billion in
unliquidated duties on imports of Canadian Softwood lumber collected by CBP. Non-entity Fund Balance
with Treasury at September 30, 2005, includes (in deposit fund) approximately $4.7 billion of unliquidated
duties collected by CBP on imports of Canadian Softwood Lumber. All non-entity Fund Balance with
Treasury is considered restricted cash. These assets offset accrued liabilities at September 30, 2006, and
2005 (see Notes 3 and 18).

Non-entity receivables due from Treasury represent an estimate of duty, tax and/or fee refunds and
drawbacks that will be reimbursed by a permanent and indefinite appropriation account and will be used to
pay estimated duty refunds and drawbacks payable. Duties and taxes receivable from the public represents
amounts due from importers for goods and merchandise imported to the United States, and upon
collection, will be available to pay the accrued intragovernmental liability due to the Treasury General Fund
of $1.8 billion and $1.4 billion at September 30, 2006 and 2005, respectively (see Notes 7 and 18).




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report             27
Financial Information (Unaudited)




3. Fund Balance with Treasury

A. Fund Balance with Treasury

Fund Balance with Treasury at September 30 consisted of the following (in millions):

                                                                                            2005
                                                                       2006
                                                                                         (Unaudited)
                                                                    (Unaudited)
                                                                                          (Restated)
              Appropriated Funds                                        $50,898             $89,508
              Trust Funds                                                     35                  27
              Revolving, Public Enterprise, and Working
              Capital Funds                                                  216                108
              Special Funds                                                2,909               2,457
              Deposit Funds                                                5,510               4,912
              Total Fund Balance with Treasury                          $59,568             $97,012

Appropriated funds consist of amounts appropriated annually by Congress to fund the operations of the
Department. Appropriated funds included clearing funds totaling $110 million and $105 million at
September 30, 2006 and 2005, respectively, which represent reconciling differences with Treasury
balances. The majority of the decrease in Appropriated funds is due to a FEMA rescission and an increase
in payments to Hurricane Katrina recipients.

Trust funds include both receipt accounts and expenditure accounts that are designated by law as a trust
fund. Trust fund receipts are used for specific purposes, generally to offset the cost of expanding border
and port enforcement activities and oil spill related claims and activities.

Revolving funds are used for continuing cycles of business-like activity, in which the fund charges for the
sale of products or services and uses the proceeds to finance its spending, usually without requirement for
annual appropriations. The Working Capital Fund is a fee-for-service fund established to support
operations of Department components. Also included are the financing funds for credit reform and the
National Flood Insurance Fund.

Special funds include funds earmarked for specific purposes including the disbursement of non-entity
monies received in connection with antidumping and countervailing duty orders due to qualifying Injured
Domestic Industries (IDI). The Department also has special funds for immigration and naturalization user
fees and CBP user fees; as well as inspection fees, flood map modernization subsidy, and off-set and
refund transfers. For information related to earmarked funds see Note 22.

Deposit funds represent amounts received as an advance that are not accompanied by an order and
include non-entity collections that do not belong to the Federal Government. The majority of the deposit
fund balance relates to unliquidated antidumping and countervailing duties collected by CBP, mostly
related to Canadian Softwood lumber.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                 28
Financial Information (Unaudited)



B. 	 Status of Fund Balance with Treasury

The status of Fund Balance with Treasury at September 30 consisted of the following (in millions):

                                                                                     2005
                                                                   2006
                                                                                  (Unaudited)
                                                                (Unaudited)
                                                                                   (Restated)
                   Budgetary Status
                   Unobligated Balances:
                      Available                                     $11,445              $51,888
                      Unavailable                                      5,599               5,017
                   Obligated Balance Not Yet Disbursed               41,350               38,611
                   Total Budgetary Status                            58,394               95,516
                   Reconciling Adjustments:
                     Receipt, Clearing, and Deposit Funds              5,634               5,020
                     Borrowing Authority                             (4,230)             (3,301)
                     Investments                                       (628)               (729)
                    Receivable Transfers and Imprest
                   Fund                                                 (97)                (79)
                     Receipt unavailable for obligation                  495                585
                   Total Fund Balance with Treasury                 $59,568              $97,012


Adjustments required to reconcile the budgetary status to non-budgetary Fund Balance with Treasury as
reported in the accompanying Balance Sheets are as follows:
    • 	 Receipt, clearing, and deposit funds represent amounts on deposit with Treasury that have no
        budget status at September 30, 2006 and 2005. Included in adjustments for deposit funds are
        restricted balances for Canadian softwood lumber non-entity funds and receipts that are not
        available for obligation.
    • 	 Borrowing authority is in budgetary status for use by FEMA for disaster relief purposes and
        Community disaster loans.
    • 	 Budgetary resources have investments included; however, the money has been moved from the
        Fund Balance with Treasury asset account to Investments.
    • 	 Receivable transfers of currently invested balances increase the budget authority at the time the
        transfer is realized and obligations may be incurred before the actual transfer of funds.
    • 	 Imprest funds represent monies moved from Fund Balance with Treasury to Cash and Other
        Monetary Assets with no change in the budgetary status.
    • 	 Receipts immediately upon collection are unavailable for obligation. The receipts are not available
        for obligation until a specified time in the future.

Portions of the Unobligated Balances Available, Unavailable and Obligated Balance Not Yet Disbursed
contain CBP’s user fees of $761 million and $741 million at September 30, 2006 and 2005, respectively,
which is restricted by law in its use to offset costs incurred by CBP.

Portions of the Unobligated Balance Unavailable include amounts appropriated in prior fiscal years that are
not available to fund new obligations. However, it can be used for upward and downward adjustments for
existing obligations in future years.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report             29
Financial Information (Unaudited)



The Obligated Balance Not Yet Disbursed represents amounts designated for payment of goods and
services ordered but not received or goods and services received but for which payment has not yet been
made.

During September 2005, the Disaster Relief Fund received two supplemental appropriations totaling $60
billion for Hurricane Katrina. During fiscal year 2006, $23 billion was rescinded by the U.S. Congress,
pursuant to Public Law 109-148. As of September 30, 2006 and 2005, this fund has an unobligated
balance available of $5.5 billion and $46.4 billion, respectively.


4. Cash and Other Monetary Assets

Cash and Other Monetary Assets at September 30 consisted of the following (in millions):

                                                                      2006               2005
                                                                   (Unaudited)        (Unaudited)
             Cash                                                          $62                    $42
             Seized Monetary Instruments                                       37                  36
             Total Cash and Other Monetary Assets                          $99                    $78

DHS Cash includes cash held by others, including the net balance maintained by insurance companies for
flood insurance premiums received from policyholders, less amounts paid for insured losses; undeposited
cash, which represents fees collected but not yet deposited; and imprest funds. Seized Monetary
Instruments are held until disposition and relate primarily to gold coins seized at the end of fiscal year 2004.
As of September 30, 2006 and 2005, restricted cash and other monetary assets is $46 and $44 million,
respectively.



5. Investments, Net

Investments at September 30, 2006 consisted of the following (in millions):

                                                               Amortized       Investments,      Market
                                     Amortization              (Premium)           Net            Value
       Type of Investment:             Method        Cost       Discount        (Unaudited)     Disclosure
       Intragovernmental
         Securities:
                                       Effective
         Oil Spill Liability Trust     interest
         Fund                          method         $610              (15)             $595           N/A
       Total Non-Marketable                            610              (15)             595            N/A
       Non-Marketable, Market-       Straight line
        Based                          method            39                -               39             39
       Total Investments, Net                        $ 649             ($15)          $ 634             N/A




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report               30
Financial Information (Unaudited)




Investments at September 30, 2005 consisted of the following (in millions):

                                                                 Amortized       Investments,    Market
                                      Amortization               (Premium)           Net          Value
     Type of Investment:                Method        Cost        Discount        (Unaudited)   Disclosure
     Intragovernmental
       Securities:
                                        Effective
       Oil Spill Liability Trust        interest
       Fund                             method        $749             ($14)             $735            N/A
                                      Straight line
       General Gift Fund                method               1               -              1            N/A
     Total Non-Marketable                               750             (14)             736             N/A
     Non-Marketable, Market-          Straight line
      Based                             method               2               -              2              2
     Total Investments, Net                           $752             ($14)             $738            N/A


The Federal Government does not set aside assets to pay future benefits or other expenditures associated
with earmarked funds (Oil Spill Liability Trust Fund and General Gift Fund) for the USCG. The cash
receipts collected from the public for an earmarked fund are deposited in the U.S. Treasury, which uses the
cash for general Government purposes. Treasury securities are issued to the USCG as evidence of its
receipts. Treasury securities associated with earmarked are an asset to USCG and a liability to the U.S.
Treasury. Because DHS and the U.S. Treasury are all parts of the Government, these assets and liabilities
offset each other from the standpoint of the Government as a whole. For this reason, these funds do not
represent an asset or a liability in the U.S. Government-wide financial statements.

Treasury securities provide USCG with authority to draw upon the U.S. Treasury to make future benefit
payments or other expenditures. When the USCG requires redemption of these securities to make
expenditures, the Government finances those expenditures out of accumulated cash balances, by raising
taxes or other receipts, by borrowing from the public or repaying less debt, or by curtailing other
expenditures. This is the same way that the Government finances all other expenditures.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report              31
Financial Information (Unaudited)



6. Accounts Receivable, Net

Accounts Receivable, net, at September 30 consisted of the following (in millions):

                                                                  2006                2005
                                                               (Unaudited)         (Unaudited)

                Intragovernmental                                      $248                     $217

                With the Public:
                 Accounts Receivable                                  1,639                      929
                 Allowance for Doubtful Accounts                       (458)                    (397)
                                                                      1,181                      532
                Accounts Receivable, Net                             $1,429                     $749

Intragovernmental accounts receivable results from reimbursable work performed by the Department.
Accounts receivable with the public consist of amounts due for reimbursable services and user fees. The
increase in accounts receivable with the public is primarily caused by a change in how TSA calculates
security fees due from airline companies, for FEMA’s Other Needs Assistance program, and for the
recovery of payments to disaster victims.


7. Tax, Duties, and Fees Receivables, Net

Tax, Duties, and Fees Receivables consisted of the following (in millions):

    As of September 30, 2006 (Unaudited):
                                                               Gross                               Total Net
    Receivables Category                                     Receivables       Allowance          Receivables
    Duties                                                          $1,601         ($118)               $1,483
    Excise Taxes                                                        99                (6)                 93
    User Fees                                                          120               (13)                107
    Fines/Penalties                                                  1,243        (1,187)                     56
    Anti-Dumping/Countervailing Duties                                 259          (243)                    16
    Total Tax, Duties, and Fees Receivables, Net                    $3,322        (1,567)               $1,755

    As of September 30, 2005 (Unaudited):
                                                               Gross                               Total Net
    Receivables Category                                     Receivables       Allowance          Receivables
    Duties                                                          $1,207          ($97)               $1,110
    Excise Taxes                                                        88                (6)                 82
    User Fees                                                           84                (1)                83
    Fines/Penalties                                                  1,116        (1,032)                     84
    Anti-Dumping/Countervailing Duties                                 217          (176)                    41
    Total Tax, Duties, and Fees Receivables, Net                    $2,712       ($1,312)               $1,400

When a violation of import/export law is discovered, a fine or penalty is established. CBP assesses a
liquidated damage or penalty for these cases to the maximum extent of the law. After receiving the notice



Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                  32
Financial Information (Unaudited)



of assessment, the importer or surety has a period of time to either file a petition requesting a review of the
assessment or pay the assessed amount. Once a petition is received, CBP investigates the circumstances
as required by its mitigation guidelines and directives. Until this process has been completed, CBP records
an allowance on fines and penalties of approximately 96 percent (93 percent at September 30, 2005) of the
total assessment based on historical experience of fines and penalties mitigation and collection. Duties
and taxes receivables are non-entity assets for which there is an offsetting liability due to the Treasury
General Fund.

8. Direct Loans, Net

DHS’s loan program consists of two types of direct loans, both administered by FEMA: (1) State Share
Loans: FEMA may lend or advance to a State or an eligible applicant the portion of assistance for which
the applicant is responsible under cost-sharing provisions of the Stafford Act. For 1992 and beyond, the
State Share Loans are obligated from the Disaster Assistance Direct Loan Financing Account. (2)
Community Disaster Loans (CDLs): Loans may be authorized to local governments that have suffered a
substantial loss of tax and other revenues as a result of a major disaster, and have demonstrated a need
for financial assistance in order to perform their municipal operating functions. The loans are made at the
current Treasury rate for a term of 5 years and cannot exceed 25 percent of the annual operating budget of
the local government for the fiscal year in which the major disaster occurred, with the exception of
Hurricanes Katrina/Rita Special CDL. The rates for Katrina/Rita Special CDL are less than the Treasury
rate and cannot exceed 50 percent of the annual operating budget of the local government for the fiscal
year in which the major disaster occurred. In addition, in accordance with recent Stafford Act amendments
(P.L. 109-88), CDLs may exceed $5 million and shall not be canceled.

For FY 2006, subsidies totaling $1 billion has been approved for up to $1.4 billion in CDLs to local
governments in the Gulf Region affected by the 2005 hurricane season. As of September 30, 2006, loans
totaling $1.3 billion had been approved. Disbursements are tracked by cohort as determined by the date of
obligation rather than disbursement.

A. Summary of Direct Loans to Non-Federal Borrowers at September 30 (in millions):

                                                        2006                          2005
                                                     (Unaudited)                   (Unaudited)
                                               Loans Receivable, Net        Loans Receivable, Net

          Community Disaster Loans                                 $161                           $.5

An analysis of loans receivable and the nature and amounts of the subsidy and administrative costs
associated with the direct loans is provided in the following sections.

B. Direct Loans Obligated Prior to Fiscal Year 1992

All direct loans obligated prior to fiscal year 1992 have been collected and therefore, no balance remained
as of September 30, 2006 and 2005.

C. Direct Loans Obligated After Fiscal Year 1991 (in millions):

                                        Loans                          Allowance for      Value of Assets
   At September 30, 2006              Receivable,      Interest        Subsidy Cost         Related to
   (Unaudited):                         Gross         Receivable      (Present Value)      Direct Loans
   Community Disaster Loans                   $631             $9               ($479)                  $161




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report            33
Financial Information (Unaudited)



                                       Loans                            Allowance for           Value of Assets
  At September 30, 2005              Receivable,       Interest         Subsidy Cost              Related to
  (Unaudited):                         Gross          Receivable       (Present Value)           Direct Loans

  Community Disaster Loans                    $2.3            $1.4                  ($3.2)                       $.5


D. Total Amount of Direct Loans Disbursed, Post-1991 (in millions):

                                                                             2006                2005
                                                                          (Unaudited)         (Unaudited)
          Community Disaster Loans                                           $629                 $-


E. Subsidy Expense for Direct Loans by Program and Component (in millions):

        Subsidy Expense for New Direct Loans Disbursed as of September 30 (in millions):

                                                       Interest           Defaults and          Total
          Community Disaster Loans                    Differential           Other
          2006 (Unaudited)                                     $109               $362             $471
          2005 (Unaudited)                                         -                  -               -

For the Community Disaster Loan Program there were no re-estimates or modifications to the subsidy
expense.

        Total Direct Loan Subsidy Expense

                                                  2006             2005
                                               (Unaudited)      (Unaudited)
          Community Disaster Loans                     $471                  $



F. Direct Loan Subsidy Rates at September 30 (in millions):

The direct loan subsidy rates, by program, are as follows:

                                                     2006                                2005
                                                  (Unaudited)                         (Unaudited)
                                            Community            State           Community               State
                                              Disaster          Share              Disaster             Share
                                                Loans           Loans                Loans              Loans

        Interest Subsidy Cost                   17.4 %        (.55) %               3.72 %         (2.98) %
        Default Costs                           57.6 %               -%                 -%                -%
        Other                                        -%       0.36 %               89.72 %          0.38 %




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                    34
Financial Information (Unaudited)




G. Schedule for Reconciling Subsidy Cost Allowance Balances at September 30 (in millions):

                                                                                 2006                  2005
                                                                              (Unaudited)           (Unaudited)
   Beginning Balance of the Subsidy cost allowance                                        $3.2              $185.1
   Add: subsidy expense for direct loans disbursed during the reporting

   years by component: 

        (a) Interest rate differential costs                                             109.3
        (b) Other subsidy costs                                                          362.1
   Adjustments:
        (a) Loans written off                                                                   -           (188.4)
        (b) Subsidy allowance amortization                                                 4.6                 0.5
        (c) Other                                                                               -              6.0
   Ending balance of the subsidy cost allowance before reestimates                       479.2                 3.2
   Add subsidy reestimate by component
        (a) Technical/default reestimate                                                        -
   Ending balance of the subsidy cost allowance                                     $479.2                    $3.2

The amount of loans written off includes the cancellation of $127 million (principal only) at September 30,
2005, in loans to the government of the Virgin Islands. No write-offs are reported as of September 30,
2006.


H. Administrative Expenses at September 30 (in millions):

                                                                                 2006                  2005
                                                                              (Unaudited)           (Unaudited)
     Community Disaster and State Share Loans                                            $1.6           $.4



9. Inventory and Related Property, Net

Operating materials and supplies (OM&S) and inventory, net at September 30 consisted of the following (in
millions):

                                                                                             2005
                                                                       2006
                                                                                          (Unaudited)
                                                                    (Unaudited)
                                                                                           (Restated)
            OM&S
             Items Held for Use                                             $337                    $354
             Items Held for Future Use                                        28                       86
             Excess, Obsolete and Unserviceable Items                         75                        7
             Less: Allowance for Losses                                      (75)                     (7)
            Total OM&S, Net                                                  365                     440



Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                  35
Financial Information (Unaudited)




             Inventory
                Inventory Purchased for Resale                                       69                     59
                Less: Allowance for Losses                                          (3)                     (1)
             Total Inventory, Net                                                    66                     58


             Stockpile Materials Held in Reserve                                   246                        -


             Total OM&S and Inventory, Net                                        $677                  $498


10. Prohibited Seized Property
Prohibited seized property item counts as of September 30 and activity for the fiscal years then ended are
as follows:

                                                     Seizure Activity
                                                                                                                    Seized
Seized Property:                      Fiscal Year Ended September 30, 2006 (Unaudited)
                                                                                                                   Property:
                            Balance                                            New                            September 30
Category
                         October 1, 2005    New Seizures   Remissions       Forfeitures       Adjustments     Weight/Items
Illegal Drugs (in
kilograms):
  Cannabis
  (marijuana)
                                     502       439,748                  -    (439,597)                84                   737

  Cocaine                            162         28,513                 -     (28,289)               (33)                  353
  Heroin                              26          1,345                 -      (1,345)                (6)                      20
Firearms and
Explosives (in                      2,021         1,362          (936)         (1,521)               (62)                  864
number of items)
Counterfeit Currency
(US/Foreign, in              3,364,060       1,424,320                  -                 -    (560,949)            4,227,431
number of items)
Pornography (in
number of items)
                                     141            158                 -         (138)              (60)                  101

                                                    Forfeiture Activity
                                                                                                                   Forfeited
Forfeited Property:                   Fiscal Year Ended September 30, 2006 (Unaudited)
                                                                                                                   Property:
                            Balance             New                                                           September 30
Category
                         October 1, 2005     Forfeitures    Transfers       Destroyed         Adjustments     Weight/Items
Illegal Drugs (in
kilograms):
  Cannabis
                                92,834         439,597         (3,167)       (362,988)          (68,972)               97,304
  (marijuana)
  Cocaine                       21,513           28,289             (7)       (29,663)              (548)              19,584
  Heroin                            2,104         1,345             (1)        (1,242)                15                 2,221
Firearms and
Explosives (in                       276          1,521        (1,551)              (4)               11                   253
number of items)




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                        36
Financial Information (Unaudited)



Pornography (in
number of items)
                                     39              138                 -            (178)               33                  32


Prohibited Seized Property, Continued


                                                    Seizure Activity
                                                                                                                Seized
   Seized Property:                  Fiscal Year Ended September 30, 2005 (Unaudited)
                                                                                                               Property:
                              Balance                                                                     September
   Category                  October 1,           New                               New                      30
                               2004             Seizures     Remissions          Forfeitures Adjustments Weight/Items
   Illegal Drugs (in
   kilograms):
     Cannabis
     (marijuana)                     2,176       444,751                     -   (446,861)         436                 502
     Cocaine                          144         31,818                     -     (31,345)       (455)                162
     Heroin                               18        1,230                    -      (1,225)          3                  26
   Firearms and
   Explosives (in
   number of items)                  7,788          1,454        (5,798)            (1,364)        (59)               2,021
   Counterfeit Currency
   (US/Foreign, in
   number of items)             2,887,743        804,946                     -            -   (328,629)         3,364,060
   Pornography (in
   number of items)                   133             213              (5)            (182)        (18)                141
                                                   Forfeiture Activity
                                                                                                               Forfeited
   Forfeited Property:               Fiscal Year Ended September 30, 2005 (Unaudited)
                                                                                                               Property:
                              Balance                                                                   September
   Category                  October 1,           New                                                      30
                               2004            Forfeitures   Transfers           Destroyed Adjustments Weight/Items
   Illegal Drugs (in
   kilograms):
     Cannabis
     (marijuana)                    98,657       446,861           (641)         (419,668)     (32,375)              92,834
     Cocaine                        17,348        31,345            (58)           (26,576)       (546)              21,513
     Heroin                          2,545          1,225              (1)          (1,664)         (1)               2,104
   Firearms and
   Explosives (in
   number of items)                   297           1,364        (1,307)               (14)        (64)                276
   Pornography (in
   number of items)                       37          182                    -        (189)          9                  39

This schedule is presented for material prohibited (non-valued) seized and forfeited property only. These
items are retained and ultimately destroyed by CBP and USSS and are not transferred to the Departments
of Treasury or Justice Asset Forfeiture Funds or other Federal agencies. The ending balance for firearms
includes only those seized items that can actually be used as firearms. Illegal drugs are presented in
kilograms and a significant portion of the weight includes packaging, which often cannot be reasonably
separated from the weight of the drugs since the packaging must be maintained for evidentiary purposes.
Firearms, explosives and pornography are presented in number of items; and counterfeit currency is


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                          37
Financial Information (Unaudited)



presented in number of bills. The adjustments columns relates to prohibited property destroyed or
adjustments made due to items incorrectly tagged or marked as to seized or forfeited.

USCG also seizes and takes temporary possession of small boats, equipment, contraband and other illegal
drugs. USCG usually disposes of these properties within three days by transfer to CBP (who transfers non-
prohibited seized property to the Treasury Forfeiture Fund), the Drug Enforcement Administration, or
foreign governments, or by destroying it. Seized property in USCG possession at year-end is not
considered material and therefore is not itemized and is not reported in the financial statements of the
Department.

CBP will take into custody, without risk or expense, merchandise termed “general order property,” which for
various reasons cannot legally enter into the commerce of the United States. CBP’s sole responsibility with
general order property is to ensure the property does not enter the nation’s commerce. If general order
property remains in CBP custody for a prescribed period of time, without payment of all estimated duties,
storage and other charges, the property is considered unclaimed and abandoned and can be sold by CBP
at public auction or donated to charity (if not prohibited by law). Auction sales revenue in excess of charges
associated with the sale or storage of the item is remitted to the Treasury General Fund. In some cases,
CBP incurs charges prior to the sale and funds these costs from entity appropriations. Regulations permit
CBP to offset these costs of sale before returning excess amounts to Treasury.


11. General Property, Plant, and Equipment, Net

General Property, Plant, and Equipment (PP&E) consisted of the following (in millions):


                                                                       Accumulated             Total
         As of September 30, 2006           Service                    Depreciation/       Net Book
         (Unaudited):                        Life        Gross Cost    Amortization           Value

         Land and Land Rights                    N/A             $75             N/A             $75
         Improvements to Land                3-50 yrs             64              29              35
         Construction in Progress                N/A           2,914             N/A           2,914
         Buildings, Other Structures
         and Facilities                      2-50 yrs          3,876           1,902           1,974
         Equipment:
          ADP Equipment                       3-5 yrs            348             187             161
          Aircraft                          10-35 yrs          2,595           1,441           1,154
          Vessels                            5-65 yrs          4,233           2,152           2,081
          Vehicles                            3-8 yrs            502             380             122
          Other Equipment                    2-30 yrs          3,867           2,060           1,807
         Assets Under Capital Lease          2-20 yrs             79              30              49
         Leasehold Improvements              3-50 yrs            350             101             249
         Internal Use Software               2-10 yrs            880             565             315
         Internal Use Software- in
         Development                              N/A            100             N/A             100

         Total General Property,
         Plant, and Equipment, Net                         $ 19,883           $8,847        $11,036




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report            38
Financial Information (Unaudited)




                                                                       Accumulated            Total
         As of September 30, 2005           Service                    Depreciation/      Net Book
         (Unaudited) (Restated):             Life        Gross Cost    Amortization          Value

         Land and Land Rights                    N/A             $63             N/A            $63
         Improvements to Land                3-50 yrs             50              22             28
         Construction in Progress                N/A           2,403             N/A          2,403
         Buildings, Other Structures
         and Facilities                      2-50 yrs          3,702           1,803          1,899
         Equipment:
          ADP Equipment                       3-5 yrs            212              98            114
          Aircraft                          10-35 yrs          2,318           1,288          1,030
          Vessels                            5-45 yrs          4,131           2,009          2,122
          Vehicles                            3-8 yrs            501             348            153
          Other Equipment                    2-30 yrs          3,430           1,676          1,754
         Assets Under Capital Lease          2-20 yrs             81              26             55
         Leasehold Improvements              3-50 yrs            280              76            204
         Internal Use Software               3-10 yrs            481             250            231
         Internal Use Software- in
         Development                              N/A            404             N/A            404

         Total General Property,

         Plant, and Equipment, Net                          $18,056           $7,596       $10,460



12. Stewardship PP&E

DHS’s Stewardship PP&E are primarily USCG’s assets maintained to safeguard the remains of crew
members who were lost at sea, to prevent the unauthorized handling of explosives or ordinance which may
be aboard, and to preserve culturally valuable relics.

USCG does not acquire or retain heritage buildings and structures without an operational purpose. Most
real property, even if designated as historical, is acquired for operational use and is transferred to other
government agencies or public entities when no longer required for operations. Of the USCG buildings and
structures designated as heritage, including memorials, recreational areas and other historical areas, over
two-thirds are multi-use heritage. The remaining are historical lighthouses, which are no longer in use and
awaiting disposal; their related assets; and a gravesite. CBP also has four multi-use heritage assets
located in Puerto Rico.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report          39
Financial Information (Unaudited)



13. Other Assets
Other Assets at September 30 consisted of the following (in millions):

                                                                  2006                2005
                                                               (Unaudited)         (Unaudited)
                Intragovernmental:
                  Advances and Prepayments                           $2,912              $ 2,937
                  Due from Treasury                                      411                144
                Total Intragovernmental                               3,323               3,081


                Public:
                Advances and Prepayments                                 551                480
                Total Public                                             551                480


                Total Other Assets                                   $3,874              $3,561

Intragovernmental Advances and Prepayments primarily consists of FEMA’s Disaster Relief Fund (DRF)
disaster assistance advances to other Federal agencies (principally the Department of Transportation)
tasked with restoration efforts of the New York City region transportation system. Non-entity Receivable
Due from Treasury represents an estimate or duty, tax and/or fee refunds and drawbacks that will be
reimbursed by a permanent and indefinite appropriation account and will be used to pay estimated refunds
and drawbacks of $411 million and $144 million, as of September 30, 2006 and 2005, respectively.

The Department provides advance funds to public grant recipients to incur expenses related to the
approved grant. Advances are made within the amount of the total grant obligation.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report             40
Financial Information (Unaudited)



14. Liabilities Not Covered by Budgetary Resources
Liabilities Not Covered by Budgetary Resources at September 30 consisted of the following (in millions):

                                                                                            2005
                                                                            2006
                                                                                         (Unaudited)
                                                                         (Unaudited)
                                                                                          Restated
       Intragovernmental:
       Debt (Note 15)                                                        $17,092           $ 226
       Accrued FECA Liability (Note 18)                                           323            358
       Other                                                                       55               (1)
       Total Intragovernmental                                                17,470             583


       Public:
       Federal Employee and Veterans’ Benefits:
         Actuarial FECA Liability (Note 16)                                     1,520          1,473
         Military Service and Other Retirement Benefits (Note 16)             30,758          28,577
       Environmental and Disposal Liabilities (Note 17)                           245            165


       Other:
         Accrued Payroll and Benefits (Note 18)                                   824            834
         Insurance Liabilities (Note 20)                                        3,557         22,679
         Contingent Legal Liabilities (Note 21)                                    24            221
         Capital Lease Liability (Note 19)                                        110               75
         Other                                                                       -               9
       Total Public                                                           37,038          54,033


       Total Liabilities Not Covered by Budgetary Resources                  $54,508        $54,616
       Liabilities Covered by Budgetary Resources or
       Non-Entity Assets                                                      16,379          14,596
       Total Liabilities                                                     $70,887        $69,212

The Department anticipates that the liabilities listed above will be funded from future budgetary resources
when required. Budgetary resources are generally provided for unfunded leave when it is used. Unfunded
leave is included in accrued payroll and benefits. Intragovernmental Debt increased in fiscal year 2006 due
to funds borrowed by FEMA from the Bureau of Public Debt to pay flood insurance claims, primarily related
to Hurricanes Katrina and Rita.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report         41
Financial Information (Unaudited)



15. Debt

Debt at September 30 consisted of the following (in millions):

                                                                                                  Ending
                                                                 Beginning        Net
                                                                                                  Balance
                                                                  Balance      Borrowing
     Fiscal year ended September 30, 2006                                                       (Unaudited)
     Other Debt:
        Debt to the Treasury General Fund                             $226        $17,220          $17,446
        Total Debt                                                    $226        $17,220          $17,446


                                                                                                  Ending
                                                                 Beginning        Net
                                                                                                  Balance
                                                                  Balance      Borrowing
     Fiscal year ended September 30, 2005                                                       (Unaudited)
     Other Debt:
        Debt to the Treasury General Fund                                $1              $225         $226
        Total Debt                                                       $1              $225         $226

DHS’ intragovernmental debt is owed to Treasury’s Bureau of Public Debt and consists of borrowings to
finance claims under NFIP and borrowings to finance the FEMA’s credit reform programs (State Share
Loans and Community Disaster Loans). The increase in fiscal year 2006 borrowings was the results of an
increase to FEMA’s borrowing authority to satisfy claims as a result of the 2005 hurricane season. FEMA
did not utilize the total borrowing authority available of over $18 billion.

NFIP loans are for a three-year term. Interest rates are obtained from the Bureau of Public Debt (BPD) and
range by cohort year from 4.87% to 6.69% as of September 30, 2006 and from 6.20% and 6.69% as of
September 30, 2005. Simple interest is calculated monthly – offset by an interest rebate, if applicable. The
interest rebate is calculated at a rate equal to the weighted average of the interest rates of outstanding
loans for the month multiplied by the “positive” daily account fund balance for the month. Interest is paid
semi-annually, October 1 and April 1. Interest is accrued based on balances reported by BPD totaling
$275 as of September 30, 2006. The September 30, 2005 balance was zero. Principal repayments are
required only at maturity, but are permitted any time during the term of the loan. All loan and interest
payments are financed by the flood premiums and map collection fees.

Under Credit Reform, the unsubsidized portion of direct loans is borrowed from the Treasury. The
repayment terms of FEMA’s borrowing from Treasury are based on the life of each cohort of direct loans.
Proceeds from collections of principal and interest from the borrowers are used to repay the Treasury. In
addition, an annual reestimate is performed to determine any change from the original subsidy rate. If an
upward reestimate is determined to be necessary, these funds are available through permanent indefinite
authority which is to be approved by OMB. Once these funds are appropriated, the original borrowings are
repaid to Treasury. The weighted average interest rates for FY 2006 and FY 2005 were 4.53% and 3.56%,
respectively.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report              42
Financial Information (Unaudited)




16. Federal Employee and Veterans’ Benefits
Accrued liability for military service and other retirement benefits at September 30 consisted of the following
(in millions):

                                                                                                          2005
                                                                                   2006
                                                                                                       (Unaudited)
                                                                                (Unaudited)
                                                                                                        (Restated)
        USCG Military Retirement and Healthcare Benefits                             $27,105                $25,024
        USCG Post-Employment Military Travel Benefits                                         128                 100
        USSS DC Pension Plan Benefits                                                    3,518                3,453
        Actuarial FECA Liability                                                         1,520                1,473
        Other                                                                                   7
        Total Federal Employee and Veterans’ Benefits                                $32,278                $30,050

A. USCG Military Retirement and Healthcare Benefits

The USCG Military Retirement System (MRS or the Plan) is a defined benefit plan that covers both
retirement pay and health care benefits for all active duty and reserve military members of the USCG. The
Plan is a pay-as-you-go system funded through annual appropriations. The unfunded accrued liability
reported on the accompanying Balance Sheet is actuarially determined by subtracting the present value of
future employer/employee contributions and any plan assets, from the present value of the future cost of
benefits. Current period expense is computed using the aggregate entry age normal actuarial cost method.

The components of the MRS expense for the years ended September 30 consisted of the following (in
millions):

                                                                                                       2005
                                                                                2006                (Unaudited)
   Defined Benefit Plan:                                                     (Unaudited)             (Restated)
    Normal cost                                                                     $589                    $481
    Interest on the liability                                                      1,376                    1,259
    Actuarial losses/(gains)                                                        (239)                    617
    Actuarial Assumption Change                                                      902                     103
   Total Defined Benefit Plan Expense                                             $2,628                 $2,460


   Post-retirement Healthcare:
    Normal cost                                                                     $180                    $137
    Interest on the liability                                                        249                     226
    Other Actuarial (gains)/losses                                                       48                  103
   Total Post-retirement Healthcare Expense                                          477                     466


   Total MRS Expense                                                              $3,105                 $2,926

The USCG's military service members (both active duty and reservists) participate in the MRS. USCG



Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                 43
Financial Information (Unaudited)



receives an annual "Retired Pay" appropriation to fund MRS benefits, thus the MRS is treated as a pay-as
you-go plan. The retirement system allows voluntary retirement for active members upon credit of at least
20 years of active service at any age. Reserve members may retire after 20 years of creditable service with
benefits beginning at age 60. The USCG's MRS includes the USCG Military Health Services System
(Health Services Plan). The Health Services Plan is a post-retirement medical benefit plan, which covers
all active duty and reserve members of the USCG.

A portion of the accrued MRS liability is for the health care of non-Medicare eligible retirees/survivors.
Effective October 1, 2002, USCG transferred its liability for the health care of Medicare eligible
retirees/survivors to the Department of Defense (DoD) Medicare-Eligible Retiree Health Care Fund (the
Fund), which was established in order to finance the health care benefits for the Medicare-eligible
beneficiaries of all DoD and non-DoD uniformed services. DoD is the administrative entity and in
accordance with SFFAS No. 5, is required to recognize the liability on the Fund’s financial statements. The
USCG makes monthly payments to the Fund for current active duty members. Benefits for USCG members
who retired prior to the establishment of the Fund are provided by payments from the Treasury to the Fund.
The future cost and liability of the Fund is determined using claim factors and claims cost data developed
by the DoD, adjusted for USCG retiree and actual claims experience. The USCG uses the current year
actual costs to project costs for all future years.

The unfunded accrued liability, presented as a component of the liability for military service and other
retirement in the accompanying Balance Sheet, represents both retired pay and health care benefits for
non-Medicare eligible retirees/survivors. Valuation of the plan's liability is based on the actuarial present
value of accumulated plan benefits derived from the future payments that are attributable, under the
retirement plan's provisions, to a participant's credited service as of the valuation date. Credited service is
the years of service from active duty base date (or constructive date in the case of active duty reservists) to
date of retirement measured in years and completed months. The present value of future benefits is then
converted to an unfunded accrued liability by subtracting the present value of future employer/employee
normal contributions. USCG plan participants may retire after 20 years of active service at any age with
annual benefits equal to 2.5 percent of retired base pay for each year of credited service up to 75 percent
of basic pay. Personnel who became members after August 1, 1986, may elect to receive a $30,000 lump
sum bonus after 15 years of service and reduced benefits prior to age 62. Annual disability is equal to the
retired pay base multiplied by the larger of (1) 2.5 percent times years of service, or (2) percent disability.
The benefit cannot be more than 75 percent of retired pay base. If a USCG member is disabled, the
member is entitled to disability benefits, assuming the disability is at least 30 percent (under a standard
schedule of rating disabilities by Veterans Affairs) and either: (1) the member has one month and one day
of service, (2) the disability results from active duty, or (3) the disability occurred in the line of duty during a
time of war or national emergency or certain other time periods.

The significant actuarial assumptions used to compute the MRS accrued liability are:

(1) life expectancy is based upon the DoD death mortality table;
(2) cost of living increases are 3.0 percent annually; and
(3) annual rate of investment return is 6.25 percent.

B. District of Columbia Police and Fireman’s Retirement System for U.S. Secret Service Employees

Special agents and personnel in certain job series hired by USSS before January 1, 1984, are eligible to
transfer to the District of Columbia Police and Fireman’s Retirement System (DC Pension Plan) after
completion of ten years of protection related experience. All uniformed USSS officers who were hired
before January 1, 1984, are automatically covered under this retirement system. Participants in the DC
Pension Plan make contributions of 7 percent of base pay with no matching contribution made by USSS.
Annuitants of this plan receive benefit payments directly from the DC Pension Plan. The USSS reimburses
the District of Columbia for the difference between benefits provided to the annuitants, and payroll
contributions received from current employees. This liability is presented as a component of the liability for
military service and other retirement benefits in the accompanying Balance Sheet. SFFAS No. 5,
Accounting for Liabilities of the Federal Government, requires the administrative entity (administrator) to
report the actuarial liability. However, the USSS adopted the provisions of SFFAS No. 5 because the


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                 44
Financial Information (Unaudited)



administrator, the DC Pension Plan, is not a Federal entity and as such the liability for future funding would
not otherwise be recorded in the United States government wide consolidated financial statements.

The liability and expense are computed using the aggregate cost method. The primary actuarial
assumptions used to determine the liability at September 30, 2006, are:

(1) life expectancy is based upon the 1994 Uninsured Pension (UP94) tables;
(2) cost of living increases are 3.5 percent annually;
(3) rates of salary increases are 3.5 percent annually; and
(4) annual rate of investment return is 7.25 percent.

Total expenses related to the DC Pension Plan for the fiscal years ended September 30, 2006 and 2005,
were $202 million and $188 million, respectively.

C. Actuarial FECA Liability

The actuarial Federal Employees’ Compensation Act (FECA) liability represents the estimated liability for
future workers’ compensation and includes the expected liability for death, disability, medical, and
miscellaneous costs for approved cases. Future workers’ compensation estimates, generated from an
application of actuarial procedures developed by the DOL, for the future cost of approved compensation
cases were approximately $1.5 billion at both September 30, 2006 and 2005.



17. Environmental and Disposal Liabilities
Environmental and Disposal Liabilities at September 30, 2006 and 2005, are $245 million and $179 million,
respectively. The Department is responsible to remediate its sites with environmental contamination, and is
party to various administrative proceedings, legal actions and tort claims which may result in settlements or
decisions adverse to the Federal government. The source of remediation requirements to determine the
environmental liability is based on compliance with Federal and state or local environmental laws and
regulations. The major Federal laws covering environmental response, cleanup and monitoring are the
Comprehensive Environmental Response, Compensation and Liability Act and the Resource Conservation
and Recovery Act.

The liabilities are primarily due to light houses, light stations, fuel storage tank program, buildings
containing asbestos and/or lead based paint, firing ranges, fuels, solvents, industrial, chemicals and other
environmental cleanup associated with normal operations of CBP, FLETC, and the USCG. For Plum
Island Animal Disease Center, under S&T, potential environmental liabilities may exist in addition to the
amounts accrued in the accompanying financial statements that are not presently estimable but could exist
due to the facility’s age, old building materials used and other materials associated with the facility’s past
use as a United States Army installation for coastline defense.

Cost estimates for environmental and disposal liabilities are subject to revision as a result of changes in
technology, environmental laws and regulations, and plans for disposal.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report            45
Financial Information (Unaudited)




18. Other Liabilities
Other Liabilities at September 30 consisted of the following (in millions):

                                                                                                     2005
                                                                     Non-            2006
                                                    Current                                       (Unaudited)
                                                                    Current       (Unaudited)
                                                                                                   (Restated)
Intragovernmental:
Accrued FECA Liability                                  $143           $180               $323           $358
Advances from Others                                       22                 -             22            109
Employer Benefits Contributions and Payroll              150                  3
Taxes                                                                                      153             96
Due to the General Fund (Note 2)                       1,809                  -           1,809          1,434
Other Intragovernmental Liabilities                         4                 8             12             47
Total Intragovernmental Other Liabilities             $2,128           $191              $2,319         $2,044


Public:
Accrued Payroll and Benefits (See B. below)           $1,173           $189              $1,362         $1,366
Deferred Revenue and Advances from Others
(See B. below)                                         1,200            988               2,188          2,014
Deposit Liability (Notes 2 and 3)                          34                 -             34           4,706
Injured Domestic Industries (Notes 2 and 3)              476                  -            476            237
Insurance Liabilities (Note 20)                        1,177          2,390               3,567         23,433
Contingent Legal Liabilities (Note 21)                        -           71                71            247
Capital Lease Liability (Note 19)                          16             94               110            129
Refunds and Drawbacks (Note 2) (See B.
below)                                                 5,593                  -           5,593           118
Other Liabilities                                        466              67               533            345
Total Other Liabilities with the Public              $10,135         $3,799          $13,934           $32,595


Total Other Liabilities                              $12,263         $3,990          $16,253           $34,639

A. Intragovernmental Other Liabilities

Workers’ Compensation. Claims incurred for the benefit of Department employees under FECA are
administered by DOL and are ultimately paid by the Department. The accrued FECA liability represents
money owed for current claims. Reimbursement to DOL on payments made occurs approximately two
years subsequent to the actual disbursement. Budgetary resources for this intragovernmental liability are
made available to the Department as part of its annual appropriation from Congress in the year in which the
reimbursement takes place. Workers compensation expense was $164 million and $141 million,
respectively, for the fiscal years ended September 30, 2006 and 2005.

Due to the General Fund. Amounts due to the Treasury General Fund represent duty, tax and fees
collected by CBP to be remitted to various General Fund accounts maintained by Treasury.

B. Other Liabilities with the Public



Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report            46
Financial Information (Unaudited)




Accrued Payroll and Benefits. Accrued Payroll and Benefits at September 30 consisted of the following
(in millions):

                                                                         2006               2005
                                                                      (Unaudited)        (Unaudited)
         Accrued Funded Payroll and Benefits                                   $524              $517
         Accrued Unfunded Leave                                                 767               729
         Unfunded Employment Related Liabilities                                 57               105
         Other                                                                   14                15
         Total Accrued Payroll and Benefits                                 $1,362              $1,366

Deferred Revenue and Advances from Others. Deferred Revenue and Advances From Others for the
periods ended September 30 consisted of the following (in millions):

                                                                         2006               2005
                                                                      (Unaudited)        (Unaudited)
         Total USCIS Application Fees                                          $702              $773
         FEMA Unexpired NFIP premium                                         1,473               1,226
         Advances from Others                                                    13                14
         Deferred Credits                                                         -                 1
         Total Deferred Revenue                                             $2,188              $2,014

USCIS requires payments of fees for applications or petitions for immigration and naturalization benefits at
the time of filing. FEMA’s deferred revenue relates to unearned NFIP premiums that are recognized over
the term of the period of insurance coverage.

Injured Domestic Industries. The Continued Dumping and Subsidy Offset Act of 2000 calls for CBP to
collect and disburse monies received in connection with antidumping and countervailing duty orders and
findings to qualifying Injured Domestic Industries (IDI). Antidumping duties are collected when it is
determined that a class or kind of foreign merchandise is being released into the U.S. economy at less than
its fair value to the detriment of a U.S. industry. Countervailing duties are collected when it is determined
that a foreign government is providing a subsidy to its local industries to manufacture, produce, or export a
class or kind of merchandise for import into the U.S. commerce to the detriment of a U.S. industry. The
duties will eventually be distributed, pursuant to rulings by the Department of Commerce.

Refunds and Drawbacks. The liability for refunds and drawbacks for the fiscal years ended September
30 consisted of the following (in millions):

                                                                    2006            2005
                                                                 (Unaudited)     (Unaudited)
                   Canadian Softwood Lumber Duties and
                    Accrued Interest                                   $5,504             $-
                   Other Refunds and Drawbacks                             89             118
                   Total                                              $ 5,593            $118

CBP has collected duties on the import of Canadian Softwood Lumber which are included in non-entity
fund balance with Treasury. These amounts were reported as a refund payable as of September 30, 2006
and a deposit fund liability as of September 30, 2005. During fiscal year 2006, an agreement was reached
related to the litigation for duties related to the import of Canadian softwood lumber. As a result of this
agreement, the Canadian Softwood Lumber duties previously collected and accrued interest totaling $590


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report             47
Financial Information (Unaudited)



million will be refunded. The refunds will be distributed during fiscal year 2007.

Other Liabilities. Other public liabilities consist primarily of NFIP payable to insurance companies and the
liability for deposit and suspense funds.


19. Leases

A. Operating Leases

The Department leases various facilities and equipment under leases accounted for as operating leases.
Leased items consist of offices, warehouses, vehicles and other equipment. The majority of office space
occupied by the Department is either owned by the Federal government or is leased by GSA from
commercial sources. The Department is not committed to continue to pay rent to GSA beyond the period
occupied providing proper advance notice to GSA is made and unless the space occupied is designated as
unique to Department operations. However, it is expected the Department will continue to occupy and
lease office space from GSA in future years and lease charges will be adjusted annually to reflect operating
costs incurred by GSA.

As of September 30, 2006, estimated future minimum lease commitments under operating leases for
equipment and GSA controlled leases were as follows (in millions) (unaudited):

                                                        GSA       Non-GSA             Total
                       FY 2007                          $869           $137          $1,006
                       FY 2008                           887            126           1,013
                       FY 2009                           903            124           1,027
                       FY 2010                           925            124           1,049
                       FY 2011                           955            127           1,082
                       After FY 2011                    2,595           372           2,967
                       Total Future Minimum
                       Lease Payments                 $7,134         $1,010          $8,144

The estimated future lease payments for GSA controlled leases are based on payments made during the
year ended September 30, 2006.

B. Capital Leases

The Department maintains capital leases for buildings and commercial software license agreements. The
liabilities associated with capital leases and software license agreements are presented as other liabilities
in the accompanying financial statements based upon the present value of the future minimum lease
payments.

Certain license agreements are cancelable depending on future funding. Substantially all of the net present
value of capital lease obligations and software license agreements may be funded from future sources.

As of September 30, 2006, estimated future minimum lease payments under capital leases for equipment
were as follows (in millions) (unaudited):

                                                        GSA       Non-GSA             Total
                       FY 2007                             $6           $18            $24
                       FY 2008                              6             18             24
                       FY 2009                              6             18             24



Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report            48
Financial Information (Unaudited)



                       FY 2010                              6             18             24
                       FY 2011                              6              -              6
                       After FY 2011                       70              -             70
                       Total Future Minimum
                       Lease Payments                    100              72            172
                       Less: Imputed interest and
                       Executory costs                   (52)           (10)           (62)
                       Total Capital Lease
                       Liability                         $48            $62            $110



20. Insurance Liabilities

Insurance Liabilities at September 30 consisted of the following (in millions):

                                                                        2006                 2005
                                                                     (Unaudited)          (Unaudited)
           National Flood Insurance Program                               $3,557              $23,406
           Cerro Grande Fire Assistance Act                                       10               27
           Total Insurance Liabilities                                    $3,567              $23,433

A. National Flood Insurance Program (NFIP)

The NFIP liability for unpaid losses and related loss adjustment expenses and amounts paid for the year
ended September 30 consisted of the following (in millions):

                                                                        2006                 2005
                                                                     (Unaudited)          (Unaudited)
           Beginning Balance                                             $23,406               $1,357
           Change in incurred losses                                      (2,281)              25,407
           Less: Amounts paid during current period                      (17,568)             (3,358)
           Total NFIP Liability at September 30                           $3,557              $23,406

The NFIP insurance liability represents an estimate of NFIP based on the loss and loss adjustment
expense factors inherent in the NFIP insurance underwriting operations experience and expectations.
Estimation factors used by the insurance underwriting operations reflect current case basis estimates and
give effect to estimates of trends in claim severity and frequency. These estimates are continually
reviewed, and adjustments, reflected in current operations, are made as deemed necessary. As of
September 30, 2005, the increase in incurred losses was primarily due to Hurricane Katrina which
impacted the Gulf Coast in August 2005. The decrease in incurred losses recognized in fiscal year 2006 is
the result of fewer loss events during the period resulting in a lower liability for unpaid losses and related
loss adjustment expenses.

NFIP premium rates are generally established for actuarially rated policies with the intent of generating
sufficient premiums to cover losses and loss adjustment expenses of a historical average loss year and to
provide a surplus to compensate the Insurance Underwriting Operations for the loss potential of an
unusually severe loss year due to catastrophic flooding.

Notwithstanding the foregoing, subsidized rates have historically been charged on a countrywide basis for
certain classifications of insured. These subsidized rates produce a premium less than the loss and loss
adjustment expenses expected to be incurred in a historical average loss year. The subsidized rates do not


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report              49
Financial Information (Unaudited)



include a provision for losses from catastrophic flooding. Subsidized rates are used to provide affordable
insurance on construction or substantial improvements started on or before December 31, 1974, or before
the effective date of the initial Flood Insurance Rate Map (i.e., an official map of a community on which
NFIP has delineated both the special hazard areas and the non-subsidized premium zones applicable to
the community).

B. Cerro Grande Fire Assistance Act

The U.S. Department of Interior, National Park Service, initiated a prescribed burn that resulted in the loss
of Federal, state, local, Indian tribal and private property. In July 2000, Congress passed the Cerro Grande
Fire Assistance Act (CGFAA) to compensate as fully as possible those parties who suffered damages from
the Cerro Grande Fire.

At September 30, 2006 and 2005, the liability for unpaid insurance expenses represents an estimate of the
known probable and estimable losses that are unpaid as of September 30, 2006 and 2005, based on the
Final Rules dated March 21, 2001, entitled, the Disaster Assistance: Cerro Grande Fire Assistance, Final
Rule, published in the Federal Register Part II at 44 Code of Federal Regulations Chapter I, Part 295.


21. Commitments and Contingent Liabilities

A. Legal Contingent Liabilities

The estimated contingent liability recorded in the accompanying financial statements included with other
liabilities for all probable and estimable litigation related claims at September 30, 2006, was $71 million, of
which $47 million is funded. The range of probable and estimable litigation is $71 million to $100 million.
(At September 30, 2005, was $247 million, of which $26 million is funded). Asserted and pending legal
claims for which loss is reasonably possible is estimated to range from $68 million to $2.7 billion at
September 30, 2006, and $319 million to $2.5 billion, at September 30, 2005. The Department is subject to
various other legal proceedings and claims. In management’s opinion, the ultimate resolution of other
actions will not materially affect the Department’s financial position or net costs. The nature of probable
and reasonably possible claims is litigation related to the Federal Tort Claims Act (FTCA), Oil Spill Liability
Trust Fund, and various customs laws and regulations.

DHS management and general legal counsel assess such contingent liabilities, and such assessment
inherently involves an exercise of judgment. In assessing contingencies related to legal proceedings that
are pending against DHS, or unasserted claims that may result in such proceedings, general legal counsel
evaluates the perceived merits of any legal proceedings or unasserted claims as well as the perceived
merits of the amounts of relief sought or expected to be brought therein.

If the assessment of the loss contingency indicates that it is probable that a material liability has been
incurred and the amount of the liability can be estimated, then the estimated liability is accrued in the
financial statements regardless of the source of funding used to pay the liability. If the assessment
indicates that a potentially material contingent liability is not probable but is reasonably possible, or is
probable but cannot be estimated, then the nature of the contingent liability, together with an estimate of
the range of possible loss if determinable and material is disclosed.

Contingent liabilities considered remote are generally not disclosed unless they involve guarantees, in
which case the nature of the guarantee are disclosed.

B. Duty and Trade Refunds

There are various trade related matters that fall under the jurisdiction of other Federal agencies, such as
the Department of Commerce, which may result in refunds of duties, taxes and fees collected by CBP. Until
a decision is reached by the other Federal agencies, CBP does not have sufficient information to estimate
a contingent liability amount, if any, for trade related refunds under jurisdiction of other Federal agencies in




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report             50
Financial Information (Unaudited)



addition to the amount accrued on the accompanying financial statements. All known refunds as of
September 30, 2006, and 2005, have been recorded.

C. Loaned Aircraft and Equipment

The Department is generally liable to the DoD for damage or loss to aircraft on loan to CBP. As of
September 30, 2006 and September 30, 2005, CBP had 16 aircraft loaned from DoD with an acquisition
value of $94 million (unaudited). No damage or aircraft losses were accrued as of September 30, 2006 and
September 30, 2005.

D. Other Contractual Arrangements

In addition to future lease commitments disclosed in Note 19, the Department is committed under
contractual agreements for goods and services that have been ordered but not yet received (undelivered
orders) at fiscal year-end. Aggregate undelivered orders for all Department activities are disclosed in Note
30. For fiscal year 2006, DHS estimates $67 million (unaudited) in obligations related to cancelled
appropriations for which the Department has a contractual obligation for payment as well as an estimated
$41 million (unaudited) for contractual arrangements which may require future funding. For fiscal year
2005, DHS estimated $26 million (unaudited) in obligations related to cancelled appropriations, for which
the Department has a contractual obligation which may require future financial obligations.

TSA entered into a number of Letters of Intent for Modifications to Airport Facilities with eight major airports
in which TSA may reimburse the airports for 75% (estimated total of $957 million) of the cost to modify the
facilities for security purposes. These Letters of Intent would not obligate TSA until funds have been
appropriated and obligated. TSA has received appropriations of $240 million (unaudited) in fiscal year 2006
and $269 million (unaudited) in fiscal year 2005 under this program, which is available for payment to the
airports upon submission to TSA of an invoice for the modification costs incurred. As of September 30,
2006, TSA has received invoices or documentation for costs incurred totaling $335 million (unaudited)
related to these agreements. In addition to invoices or documentation received, TSA has accrued costs of
$28 million (unaudited) and $267 million (unaudited) as of September 30, 2006 and 2005, respectfully.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report             51
Financial Information (Unaudited)




22. Earmarked Funds
Earmarked funds are financed by specifically identified revenues, often supplemented by other financing
sources, which remain available over time. These specifically identified revenues and other financing
sources are required by statute to be used for designated activities or purposes. SSFAS No. 27 defines
the following three critieria for determining an earmarked fund: 1) A statute committing the Federal
Government to use specifically identifed revenues and other financing sources not used in the current
period for future use to finance the designated activities, benefits, or purposes; 2) Explicit authority for the
earmarked fund to retain revenues and other financing sources not used in the current period for future use
to finance the designated activities, benefits, or purposes; and 3) A requirement to account for and report
on the receipt, use, and retention of the revenues and other financing sources that distinguished the
earmarked fund from the Government’s general revenues.

Earmarked Funds consisted of the following (in millions) (unaudited):

                                                                      National
                                                Immigration            Flood          All Other     Total
                                      Customs Examination            Insurance       Earmarked    Earmarked
                                      User Fees    Fees               Program          Funds        Funds

   Balance Sheet as of September 30, 2006

   ASSETS
   Fund Balance with Treasury              $761             $819          $138            $843       $ 2,561
   Investments, Net                           -                -             -             634           634
   Accounts Receivable, Net                  72                4            19             217           312
   Cash and Other Monetary
     Assets                                    -               19            24              3            46
   Taxes Receivables                          61                -             -              -            61
   Inventory and Related
     Property, Net                              -                -               8            -            8
   General Property, Plant, and
     Equipment, Net                             -               6            34               -           40
   Other                                        -                -         422                -          422

   Total Assets                            $894             $848          $645           $1,697      $4,084

   LIABILITIES

   Other Liabilities                         96              840        22,370              88       23,394
   Total Liabilities                        $96             $840       $22,370             $88      $23,394

   NET POSITION
   Unexpended Appropriations                  $-               $-            $             $18           $18
   Cumulative Results of
    Operations                              798                 8      (21,725)           1,591     (19,328)
   Total Liabilities and Net
   Position                                $894             $848          $645           $1,697      $4,084

   Statement of Net Cost for the Year Ended September 30, 2006

   Gross Program Costs                       $-           $1,590        $(716)           $1,474      $2,348
   Less: Earned Revenues                     (1)          (1,721)      (2,321)            (376)      (4,419)
    Net Cost of Operations                  $(1)           $(131)     $(3,037)           $1,098     $(2,071)



Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report              52
Financial Information (Unaudited)



                                                                     National
                                                Immigration           Flood       All Other          Total
                                      Customs Examination           Insurance    Earmarked         Earmarked
                                      User Fees    Fees              Program       Funds             Funds

   Statement of Changes in Net Position for the Year Ended September 30, 2006

   Net Position Beginning of
    Period                                 $797           $(123)     $(24,764)           $1,414     $(22,676)

     Net Cost of Operations                    1             131         3,037           (1,098)        2,071
     Appropriation Used                        -               -             -                13           13
     Non-exchange Revenue                      -               -             -             2,516        2,516
     Other                                     -               -             2           (1,236)      (1,234)
     Change in Net Position                    1             131         3,039               206        3,377

   Net Position, End of Period             $798                $8    $(21,725)           $1,609     $(19,310)


Customs User Fees

In April 1986, the President signed the Consolidated Omnibus Budget Reconciliation Act (COBRA) of 1985,
which authorized the CBP to collect user fees for certain services. The law initially established processing
fees for air and sea passengers, commercial trucks, rail cars, private vessels and aircraft, commercial
vessels, dutiable mail packages, and CBP broker permits. An additional fee category, contained in tax
reform legislation, for processing barges and bulk carriers for Canada and Mexico, was added later that
year. The collection of the COBRA fees for CBP services began on July 7, 1986.

In addition to the collection of user fees, other changes in CBP procedures were enacted due to the
COBRA statute. Most importantly, provisions were included for providing non-reimbursable inspectional
overtime services and paying for excess pre-clearance costs from COBRA user fee collections.

The Customs and Trade Act of 1990 amended the COBRA legislation to provide for the hiring of
inspectional personnel, the purchasing of equipment, and the covering of related expenses with any
surplus monies available, after overtime and excess pre-clearance costs are satisfied. Expenditures from
the surplus can only be used to enhance the service provided to those functions for which fees are
collected. This legislation took effect on October 1, 1990.

19 USC Section 58c contains the fees for certain customs services. The authority to use these funds is
contained in the annual Department of Homeland Security Appropriations Act.

Access to COBRA surplus funds provides CBP with additional resources to assist in the accomplishment of
CBP’s mission. Increased staffing and equipment have enhanced the manager’s flexibility in dealing with
the ever-increasing demands of the trade and travel communities. At the same time, the responsibilities of
CBP have also increased.
User fees are legislatively set as are the restrictions on the use of collections; all of which prevent CBP
from adequately funding the associated services provided. Based on the statute, fee collections may be
used to pay for inspectional overtime, excess pre-clearance costs, the hiring of inspectional personnel,
purchasing of equipment, foreign language proficiency awards, and payment of related expenses using
surplus monies available after overtime and pre-clearance costs are satisfied. The Customs User Fees are
paid by the public.

Immigration Examination Fees

In 1988, Congress established the Immigration Examination Fee Account (IEFA) and the fees deposited
into the IEFA have been the primary source of funding for providing immigration and naturalization benefits,



Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report               53
Financial Information (Unaudited)



and other benefits as directed by Congress. The Immigration and Nationality Act (INA) provides for the
collection of fees at a level that will ensure recovery of the full costs of providing adjudication and
naturalization services, including the costs of providing similar services without charge to asylum applicants
and other immigrants. The INA also states that the fees may recover administrative costs. This revenue
remains available to provide immigration and naturalization benefits and the collection, safeguarding, and
accounting for fees. The authority provided by section 286(m) of the INA permits USCIS to recover the full
costs of providing all immigration adjudication and naturalization services, including those services
provided to individuals other than those paying fees.

The primary sources of revenue are the application and petition fees that are collected during the course of
the fiscal year and deposited into the Immigration Examinations Fee Account (TAFS 70X5088). In addition,
the USCIS provides specific services to other federal agencies, such as production of Border Crossing
Cards for the Department of State (DOS), that result in the collection of other revenues that are the result of
intragovernmental flows.

In 1999, Congress authorized USCIS to collect a specific fee for petitions under a nonimmigrant temporary
worker program and to retain a portion of the fee for cost related to the processing of these petitions. In 2005,
Congress increased the total fee amount and set the portion that US Citizenship retains at five percent. The
portion of the fees collected and retained by the USCIS during the fiscal year, are deposited into the H-1B
Nonimmigrant Petitioner Account (TAFS 70X5016).

In 2005, Congress authorized an additional fraud detection and prevention fee on applications filed by
employees to obtain visa for nonimmigrant workers. U.S. Citizenship and Immigration Service retains one-
third of the fraud prevention and detections fee to cover cost associated with an expanded fraud detection
program. The portion of the fees, collected and retained by the USCIS during the fiscal year are deposited
into the H-1B and L Fraud Prevention and Detection Account (TAFS 70X5389).

There has been no change in legislation during or subsequent to the reporting period and before the
issuance of financial statements that significantly changes the purpose of the fund or redirects a material
portion of the accumulated balance.

National Flood Insurance Program

The National Flood Insurance Program (NFIP) was established by the National Flood Insurance Act of
1968. The purpose of NFIP is to better indemnify individuals for flood losses through insurance, reduce
future flood damages through State and community floodplain management regulations, and reduce
Federal expenditures for disaster assistance and flood control.

The Flood Disaster Protection Act of 1973 expanded the authority of FEMA and its use of the NFIP to grant
premium subsidies as an additional incentive to encourage widespread state, community, and property
owner acceptance of the program requirements.

The National Flood Insurance Reform Act of 1994 reinforced the objective of using insurance as the
preferred mechanism for disaster assistance by expanding mandatory flood insurance purchase
requirements and by effecting a prohibition on further flood disaster assistance for any property where flood
insurance, after having been mandated as a condition for receiving disaster assistance, is not mandated.

The Bunning-Bereuter-Blumenauer Flood Insurance Reform Act (FIRA) of 2004 provides additional tools
for addressing the impact of repetitive loss properties on the National Flood Insurance Fund. It introduced a
pilot project though fiscal year 2009 that defines severe repetitive loss properties, authorizes additional
funds for mitigation projects, and mandates a 50% increase of premiums for property owners who decline a
mitigation offer, along with an appeal process. It also modifies the Flood Mitigation Assistance (FMA)
Program by doubling the annual authorized funding level to $40 million and directing it to give priority to
those properties that are in the best interest of the National Flood Insurance Fund.

The NFIP requires all partners (Write Your Own (WYO) Companies) in the program to submit financial
statements and statistical data to the Bureau & Statistical Agent (B&SA) on a monthly basis. This
information is reconciled and the WYO companies are required to correct any variances.


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report              54
Financial Information (Unaudited)




Since this program is an insurance program for which the Department pays claims to policyholders whose
houses have been flooded. The WYO companies that participate in the program have authority to use
Departmental funds (revenue and other financing sources) to respond to the obligations of the
policyholders. Congress has mandated that the NFIP funds are to only be used to pay claims caused by
flooding.

The NFIP sources of revenue and other financing comes from premiums collected to insure policyholders
homes and the borrowing authority provided to our program from Congress. The resources are inflows to
the Government and are not the result of intragovernmental flows.

All Other Earmarked Funds

The balances and activity reported for all other earmarked funds result from the funds listed below.
Information related to these earmarked funds can be located in the Department’s appropriations legislation
or the statutes referenced.

             •	   70X0200 Office of the Inspector General, Department of Homeland Security
             •	   70 6/7 0200 Office of the Inspector General, Department of Homeland Security
             •	   70X0715 Radiological Emergency Preparedness Program, Emergency Preparedness and
                  Response, Department of Homeland Security
             •	   70X5089 Customs and Border Protection, Land Border Inspection Fees, Border and
                  Transportation Security, Department of Homeland Security; 116 Stat. 2135
             •	   70X5087 Customs and Border Protection, Immigration User Fees, Border and
                  Transportation Security, Department of Homeland Security; 116 Stat. 2135
             •	   70X5126 Breach Bond/Detention Fund, Border and Transportation Security, Department of
                  Homeland Security; 116 Stat. 2135
             •	   70X5378 Student and Exchange Visitor Program, Border and Transportation Security,
                  Department of Homeland Security; 110 Stat. 3009-706, Sec. (e)(4)(B)
             •	   70X5382 Immigration User Fee Account, BICE, Department of Homeland Security; 116
                  Stat. 2135
             •	   70X5385 Aviation Security Capital Fund, Transportation Security Administration,
                  Department of Homeland Security; 117 Stat. 2567(h)(1)
             •	   70X5436 Radiological Emergency Preparedness Fund, Department of Homeland Security;
                  116 Stat. 2135
             •	   70X5451 Immigration Enforcement Account, Border and Transportation Security,
                  Department of Homeland Security; 116 Stat. 2135
             •	   70X5464 Flood Map Modernization Fund, Emergency Preparedness and Response,
                  Department of Homeland Security; 116 Stat. 2135
             •	   70X5694 User Fees, Small Airports, U.S. Customs Service, Department of Homeland
                  Security; 116 Stat. 2135
             •	   70X8149 Boat Safety, Coast Guard, Department of Homeland Security; 116 Stat. 2135
             •	   70X8244 Gifts and Donations, Department Management, Department of Homeland
                  Security; 116 Stat. 2135 (FEMA REPORTED)
             •	   70X8312 Oil Spill Liability Trust Fund, Coast Guard, Department of Homeland Security;
                  116 Stat. 2135
             •	   70 8314 Trust Fund Share of Expenses, Coast Guard, Department of Homeland Security;
                  116 Stat. 2135
             •	   70X8349 Oil Spill Recovery, Coast Guard, Department of Homeland Security; 116 Stat.
                  2135
             •	   70X8533 General Gift Fund, Coast Guard, Department of Homeland Security; 116 Stat.
                  2135
             •	   70X8597 Salaries and Expenses, Violent Crime Reduction Program, Immigration Services,
                  Department of Homeland Security; 116 Stat. 2135
             •	   70X8598 Violent Crime Reduction Program, Immigration Services, Department of
                  Homeland Security; 116 Stat. 2135
             •	   70X8870 Harbor Maintenance Fee Collection, U.S. Customs Service, Department of
                  Homeland Security; 116 Stat. 2135


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report         55
Financial Information (Unaudited)



             •   20X8185 Oil Spill Liability Trust Fund; 103 Stat. 2363, 2364 





Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   56
Financial Information (Unaudited)




23. Intragovernmental Costs and Exchange Revenue
For the year ended September 30, 2006 (in millions) (Unaudited)

                                                                  Intragovernmental      With the
        Directorates and Other Components                                                                 Total
                                                                     Consolidated        Public

        United States VISIT
          Gross Cost                                                              $44       $219             $263
          Less Earned Revenue                                                      (1)         -               (1)
          Net Cost                                                                 43        219              262

        United States Customs and Border Protection
          Gross Cost                                                            1,787       5,348            7,135
          Less Earned Revenue                                                     (47)      (106)            (153)
          Net Cost                                                              1,740       5,242            6,982

        United States Coast Guard
          Gross Cost                                                            1,105       8,906           10,011
          Less Earned Revenue                                                   (332)         (92)           (424)
          Net Cost                                                                773       8,814            9,587

        United States Citizenship and Immigration Services
          Gross Cost                                                             487        1,122            1,609
          Less Earned Revenue                                                    (15)     (1,714)          (1,729)
          Net Cost                                                               472        (592)            (120)

        Federal Emergency Management Agency
          Gross Cost                                                            6,039     19,621           25,660
          Less Earned Revenue                                                   (117)     (2,326)          (2,443)
          Net Cost                                                              5,922     17,295           23,217

        Federal Law Enforcement Training Center
          Gross Cost                                                               26        286              312
          Less Earned Revenue                                                    (31)         (2)             (33)
          Net Cost                                                                (5)        284              279

        Preparedness Directorate
           Gross Cost                                                             589       3,206            3,795
           Less Earned Revenue                                                     (3)        (23)             (26)
           Net Cost                                                               586       3,183            3,769

        United States Immigration and Customs Enforcement
          Gross Cost                                                            1,169       3,318            4,487
          Less Earned Revenue                                                   (757)       (100)            (857)
          Net Cost                                                                412       3,218            3,630

        United States Secret Service
          Gross Cost                                                             403        1,068            1,471
          Less Earned Revenue                                                    (18)           -              (18)
          Net Cost                                                               385        1,068            1,453




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report               57
Financial Information (Unaudited)



                                                                  Intragovernmental      With the
        Directorates and Other Components                                                                Total
                                                                     Consolidated        Public

        Science and Technology Directorate
           Gross Cost                                                             467        376                 843
           Less Earned Revenue                                                      -          -                   -
           Net Cost                                                               467        376                 843

        Transportation Security Administration
           Gross Cost                                                           1,194       4,849           6,043
           Less Earned Revenue                                                     (5)    (2,472)         (2,477)
           Net Cost                                                             1,189       2,377           3,566

        Department Operations and Other
          Gross Cost                                                              288        564                 852
          Less Earned Revenue                                                      (2)         -                  (2)
          Net Cost                                                                286        564                 850

        Total Department of Homeland Security
           Gross Cost                                                         $13,598    $48,883          $62,481
           Less Earned Revenue                                                 (1,328)    (6,835)          (8,163)
           Net Cost                                                           $12,270    $42,048          $54,318




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report              58
Financial Information (Unaudited)




For the year ended September 30, 2005 (in millions) (Unaudited) (Restated)

                                                          Intragovernmental        With the
Directorates and Other Components                                                                       Total
                                                             Consolidated          Public

United States VISIT
  Gross Cost                                                              $18              $154             $172
  Less Earned Revenue                                                       -                 -                -
  Net Cost                                                                 18               154              172

United States Customs and Border Protection
  Gross Cost                                                            1,188             5,871             7,059
  Less Earned Revenue                                                     (33)            (586)             (619)
  Net Cost                                                              1,155             5,285             6,440

United States Coast Guard
  Gross Cost                                                               980            8,165             9,145
  Less Earned Revenue                                                    (133)              (87)            (220)
  Net Cost                                                                 847            8,078             8,925

United States Citizenship and Immigration Services
  Gross Cost                                                              525                750            1,275
  Less Earned Revenue                                                     (14)           (1,608)          (1,622)
  Net Cost                                                                511              (858)            (347)

Federal Emergency Management Agency
  Gross Cost                                                            1,695            37,948           39,643
  Less Earned Revenue                                                   (106)            (2,053)          (2,159)
  Net Cost                                                              1,589            35,895           37,484

Federal Law Enforcement Training Center
  Gross Cost                                                                27              230                 257
  Less Earned Revenue                                                     (30)               (1)                (31)
  Net Cost                                                                 (3)              229                 226

Preparedness Directorate
   Gross Cost                                                             762             1,939             2,701
   Less Earned Revenue                                                     (2)              (18)              (20)
   Net Cost                                                               760             1,921             2,681

United States Immigration and Customs
Enforcement
  Gross Cost                                                            1,137             2,677             3,814
  Less Earned Revenue                                                   (557)               (85)            (642)
  Net Cost                                                                580             2,592             3,172

United States Secret Service
  Gross Cost                                                              361             1,144             1,505
  Less Earned Revenue                                                     (22)                -               (22)
  Net Cost                                                                339             1,144             1,483

Science and Technology Directorate
   Gross Cost                                                             484               259                 743
   Less Earned Revenue                                                    (12)                -                 (12)
   Net Cost                                                               472               259                 731

Transportation Security Administration
   Gross Cost                                                           1,307              5,216            6,523
   Less Earned Revenue                                                    (20)           (2,235)          (2,255)
   Net Cost                                                             1,287              2,981            4,268




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report             59
Financial Information (Unaudited)




                                                          Intragovernmental        With the
Directorates and Other Components                                                                        Total
                                                             Consolidated          Public

Department Operations and Other
  Gross Cost                                                              273                369                 642
  Less Earned Revenue                                                     (11)                 -                 (11)
  Net Cost                                                                262                369                 631

Total Department of Homeland Security
   Gross Cost                                                          $8,757            $64,722          $73,479
   Less Earned Revenue                                                  (940)             (6,673)          (7,613)
   Net Cost                                                            $7,817            $58,049          $65,866




Intragovernmental costs represent exchange transactions made between two reporting entities within the
Federal government and are presented separately from costs with the public (exchange transactions made
between the reporting entity and a non-Federal entity). Intragovernmental exchange revenue is disclosed
separately from exchange revenue with the public. The criteria used for this classification requires that the
intragovernmental expenses relate to the source of goods and services purchased by the reporting entity
and not to the classification of related revenue. For example, with “exchange revenue with the public,” the
buyer of the goods or services is a non-Federal entity. With “intragovernmental costs,” the buyer and seller
are both Federal entities. If a Federal entity purchases goods or services from another Federal entity and
sells them to the public, the exchange revenue would be classified as “with the public,” but the related costs
would be classified as “intragovernmental.” The purpose of this classification is to enable the Federal
government to provide consolidated financial statements, and not to match public and intragovernmental
revenue with costs that are incurred to produce public and intragovernmental revenue. Non-exchange
revenues consist primarily of user fees collected by CBP to off-set certain costs of operations.


24. Suborganization Costs by DHS Strategic Goals

Operating costs are summarized in the Statement of Net Cost by responsibility segment, as applicable to
the reporting period. The net cost of operations is the gross (i.e., total) cost incurred by the Department,
less any exchange (i.e., earned) revenue. A responsibility segment is the component that carries out a
mission or major line of activity, and whose managers report directly to Departmental Management.

To integrate performance and financial information, as required by the President’s Management Agenda
and the Government Performance and Results Act, a supplemental schedule of net cost is included in this
note, in which costs by component are allocated to Departmental strategic goals.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report              60
Financial Information (Unaudited)




Net Costs of Department Sub-organizations by Strategic Goals (in millions)
For the year ended September 30, 2006 (Unaudited)

                                                                                                          Organizational
                                    Awareness   Prevention   Protection   Response   Recovery   Service    Excellence       TOTAL
 US VISIT                                 $-         $144           $-         $-         $-      $118         $-            $262
 US Customs and Border
 Protection
                                            -       6,535             -          -          -      447          -            6,982

 US Coast Guard                         1,055       4,184        1,552       1,231        57     1,508          -            9,587
 US Citizenship and Immigration
 Services
                                            -         (34)            -          -          -      (86)         -            (120)
 Federal Emergency
 Management Agency
                                            -            -      13,462       4,509     5,246          -         -           23,217
 Federal Law Enforcement
 Training Center
                                            -         279             -          -          -         -         -             279

 Preparedness Directorate                214             -       3,555           -          -         -         -            3,769
 US Immigration and Customs
 Enforcement
                                            -       3,313          317           -          -         -         -            3,630
 US Secret Service                          -            -       1,453           -          -         -         -            1,453
 Science and Technology
 Directorate
                                         133          460           78        136         36          -         -             843
 Transportation Security
 Administration
                                           4        3,370          192           -          -         -         -            3,566
 Departmental Operations and
 Other
                                          86             -            -          -          -         -        764            850

 TOTAL Department                      $1,492     $18,251     $20,609       $5,876    $5,339    $1,987        $764         $54,318




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                                               61
Financial Information (Unaudited)




Net Costs of Department Sub-organizations by Strategic Goals (in millions)
For the year ended September 30, 2005 (Unaudited) (Restated)

                                                                                                            Organizational
                                Awareness    Prevention    Protection   Response     Recovery     Service    Excellence      TOTAL
 US VISIT                              $-          $100           $-           $-           $-       $72               $-      $172
 US Customs and Border
                                         -        5,939             -            -            -      501                 -     6,440
 Protection
 US Coast Guard                       893         3,437        1,914        1,199           60      1,422                -     8,925
 US Citizenship and
                                         -          (97)            -            -            -     (250)                -     (347)
 Immigration Services
 Federal Emergency
                                         -             -      25,790        2,272         9,422         -                -    37,484
 Management Administration
 Federal Law Enforcement
                                         -          226             -            -            -         -                -      226
 Training Center
 Preparedness Directorate             263              -       2,418             -            -         -                -     2,681
 US Immigration and
                                         -        2,958          214             -            -         -                -     3,172
 Customs Enforcement
 US Secret Service                       -             -       1,483             -            -         -                -     1,483
 Science and Technology
                                      114           417          174           26             -         -                -      731
 Directorate
 Transportation Security
                                         7        3,929          332             -            -         -                -     4,268
 Administration
 Departmental Operations
                                         -             -            -            -            -         -             631       631
 and Other
 TOTAL Department                   $1,277      $16,909      $32,325       $3,497        $9,482   $1,745             $631    $65,866




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                                                 62
Financial Information (Unaudited)



25. Apportionment Categories of Obligations Incurred: Direct vs. Reimbursable
Obligations

Apportionment categories are determined in accordance with the guidance provided in OMB Circular A-11,
Preparation, Submission and Execution of the Budget. Category A represents resources apportioned for
calendar quarters. Category B represents resources apportioned for other time periods; for activities,
projects, or objectives; or for any combination thereof (in millions).

Year Ended September 30, 2006              Apportionment Apportionment Exempt from
(Unaudited):                                Category A    Category B   Apportionment                   Total
  Obligations Incurred - Direct                    $28,126            $58,004             $993         $87,123
  Obligations Incurred - Reimbursable                3,492                788                 9          4,289
  Total Obligations Incurred                       $31,618            $58,792            $1,002        $91,412


Year Ended September 30, 2005              Apportionment Apportionment Exempt from
(Unaudited) (Restated):                     Category A    Category B   Apportionment                   Total
  Obligations Incurred - Direct                    $27,071            $36,423             $853         $64,347
  Obligations Incurred - Reimbursable                3,740                542               (1)          4,281
  Total Obligations Incurred                       $30,811            $36,965             $852         $68,628

The increase in payments of Apportionment Category B, Obligations Incurred - Direct of $36,423 million in
fiscal year 2005 to $58,004 million in fiscal year 2006 is due to FEMA’s approved claims from Hurricane
Katrina which were obligated and paid during fiscal year 2006.

26. Available Borrowing Authority
The Department, through FEMA’s NFIP, has total borrowing authority of $21 billion (unaudited), as of
September 30, 2006, available for disaster relief purposes. The $21 billion borrowing authority includes $18
billion in current year borrowing authority and $3 billion in borrowing authority carried forward from fiscal
year 2005. At the end of the fiscal year, borrowing authority is reduced by the amount of any unused
portion. As of September 30, 2006, FEMA exercised $16.8 billion in borrowing authority, the remaining
balance of $4.2 billion represents the total unused portion. DADLP annually requests borrowing authority to
cover the principal amount of direct loans not to exceed $25 million less the subsidy due from the program
account.


27. Permanent Indefinite Appropriations

Permanent indefinite appropriations refer to the appropriations that result from permanent public laws,
which authorize the Department to retain certain receipts. The amount appropriated depends upon the
amount of the receipts rather than on a specific amount. The Department has two permanent indefinite
appropriations as follows:

• 	 CBP has a permanent and indefinite appropriation, which is used to disburse tax and duty refunds, and
    duty drawbacks. Although funded through appropriations, refund and drawback activity is, in most
    instances, reported as a custodial activity of the Department. Refunds are custodial revenue-related
    activity in that refunds are a direct result of overpayments of taxes, duties, and fees. Federal tax
    revenue received from taxpayers is not available for use in the operation of the Department and is not
    reported on the Statement of Net Cost. Likewise, the refunds of overpayments are not available for use
    by the Department in its operations.
• 	 USSS has a permanent and indefinite appropriation, which is used to reimburse the District of
    Columbia Police and Fireman’s Retirement System (DC Pension Plan) for the difference between


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report            63
Financial Information (Unaudited)



    benefits to participants in the DC Pension Plan (see Note 16), and payroll contributions received from
    current employees.

These appropriations are not subject to budgetary ceilings established by Congress. CBP’s refunds
payable at year-end are not subject to funding restrictions.


28. Legal Arrangements Affecting Use of Unobligated Balances
Unobligated balances, whose period of availability has expired, are not available to fund new obligations.
Expired unobligated balances are available to pay for current period adjustments to obligations incurred
prior to expiration. For a fixed appropriation account, the balance can be carried forward for five fiscal years
after the period of availability ends. At the end of the fifth fiscal year, the account is closed and any
remaining balance is canceled and returned to Treasury. For a no-year account, the unobligated balance is
carried forward indefinitely until (1) specifically rescinded by law; or (2) the head of the agency concerned
or the President determines that the purposes for which the appropriation was made have been carried out
and disbursements have not been made against the appropriation for two consecutive years.

Included in the cumulative results of operations for special funds is $1.2 billion (unaudited) and $760 million
(unaudited) at September 30, 2006 and 2005, respectively, that represents the Department’s authority to
assess and collect user fees relating to merchandise and passenger processing, to assess and collect fees
associated with services performed at certain small airports or other facilities, retain amounts needed to
offset costs associated with collecting duties, and taxes and fees for the government of Puerto Rico. These
special fund balances are restricted by law in their use to offset specific costs incurred by the Department.
Part of the passenger fees in the User Fees Account, totaling approximately $761 million (unaudited) and
$741 million (unaudited) at September 30, 2006 and 2005, respectively, is restricted by law in its use to
offset specific costs incurred by the Department and are available to the extent provided in Department
Appropriation Acts.

The entity trust fund balances result from the Department’s authority to use the proceeds from general
order items sold at auction to offset specific costs incurred by the Department relating to their sale, to use
available funds in the Salaries and Expense Trust Fund to offset specific costs for expanding border and
port enforcement activities, and to use available funds from the Harbor Maintenance Fee Trust Fund to
offset administrative expenses related to the collection of the Harbor Maintenance Fee.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report             64
Financial Information (Unaudited)




29. Explanation of Differences between the Statement of Budgetary Resources and
the Budget of the U.S. Government

The table below documents the material differences between the 2005 Statement of Budgetary Resources
and the actual amounts reported for 2005 in the Budget of the United States Government. Since the fiscal
year 2006 financial statements will be reported prior to the release of the Budget of the United States
Government, DHS is reporting for 2005 only. Typically, the Budget of the United States Government with
the 2006 actual data is published in the February of the subsequent year. Once published the 2006 actual
data will be available that OMB website, www.whitehouse.gov/omb.

                                                                                     Distributed
                                                       Budgetary    Obligations      Offsetting          Net
(in millions)                                          Resources     Incurred         Receipts          Outlays
2005 Actual Balances per the 2007 President's
Budget                                                  $121,856        $66,065          $4,427         $43,727
Reconciling Items:


Accounts that are expired that are not included in 

Budget of the United States.                               1,069           413                 -               -

Fund Symbols Not Included in the Budget of the 

United States.                                             1,754          1,117              26          (3,039) 


Resources Permanently Not Available                          (12)             -                -               -

Adjustment for the overestimate of Hurricane

Katrina obligations recorded in the Statement of 

Budgetary Resources, but not the Budget of the 

United States                                              1,019          1,021                -               -



Fiscal year 2005 Revenue Recognition/Cash

Collection Timing Differences                                   -             -              98                -


Miscellaneous Differences                                   (153)            12              (3)           (411) 


Per the 2005 SBR (Unaudited)                            $125,533        $68,628          $4,548         $40,277



30. Undelivered Orders, End of Period

An undelivered order exists when a valid obligation has occurred and funds have been reserved, but the
goods or services have not been delivered. Undelivered orders for the periods ended September 30, 2006
and 2005 were $37,312 million (unaudited) and $34,611 million (unaudited), respectively.



31. Explanation for the Difference Between the Appropriations Received reported
on the Statement of Budgetary Resources and on the Statement of Changes in Net
Position
The Statement of Budgetary Resources reported $45,748 million (unaudited) for appropriations received for
fiscal year 2006. This balance does not agree to the balance reported on the Statement of Changes in Net
Position of $39,529 (unaudited) for fiscal year 2006. The difference is primarily related to 1) $5,177 million


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report             65
Financial Information (Unaudited)



in trust and special fund receipts not reflected in the unexpended appropriations section of the Statement of
Changes in Net Position, 2) $42 million for the decrease in amounts appropriated from specific Treasury-
managed trust funds, 3) $974 million related to refunds and drawbacks, and 4) $110 million for receipts
unavailable for obligations upon collection.

In fiscal year 2005, appropriations received on the SBR of $105,147 million (unaudited) did not equal the
amounts reported on the Statement of Changes in Net Position of $99,707 million (unaudited) due to: 1)
$4,544 million of trust and special receipts that are not reflected in the unexpended appropriation section of
the SCNP; 2) $33 million of the change in amounts appropriated from specific Treasury managed trust
funds: 3) $845 million of refunds and drawbacks; and 4) $18 million of receipts unavailable for obligations
upon collections.


32. Explanation of Relationship Between Liabilities Not Covered by Budgetary
Resources and Components Requiring or Generating Resources in Future Periods
In fiscal year 2006, the differences between the amounts reported as liabilities not covered by budgetary
resources on the balance sheet and amounts reported as components requiring or generating resources in
future periods on the Statement of Financing were primarily due to an increase in Debt by approximately
$16.9 billion (unaudited) and a decrease in several uncovered liabilities by approximately $19.4 billion
(unaudited), primarily related to the Insurance Liabilities. In both instances, these changes do not affect the
amounts reported as Components Requiring or Generating Resources in Future Periods on the Statement
of Financing but do effect the change in the uncovered liabilities. In fiscal year 2005, the differences were
primarily due to the increase in the insurance liability for claims and claims settlement of $21.6 billion, and
the change in the USCG actuarial pension liability of $1.7 billion and other USCG military post employment
liability of $1 billion, which do not generate net cost of operations or require the use of budgetary resources.


33. Custodial Revenues
The Department collects revenue from variety of duties, excise taxes and various other fees, some of which
are refunded. Refunds and drawbacks by entry year for the fiscal years ended September 30 (in millions):

                                                         2006              2005
                                    Entry Year        (Unaudited)       (Unaudited)
                            2005                            $596              $684
                            2004                             142               139
                            2003                               90                42
                            2002                               40                21
                            Prior Years                      292               273
                            Total Refunds and
                            Drawbacks                      $1,160            $1,159

Non-entity revenue reported on the Department’s Statement of Custodial Activity include duties, excise
taxes, and various non-exchange fees collected by CBP and USCIS that are subsequently remitted to
Treasury’s General Fund or to other Federal agencies. CBP assesses duties, taxes, and fees on goods
and merchandise brought into the United States from foreign countries. At the time an importer’s
merchandise is brought into the United States, the importer is required to file entry documents. Generally,
within ten working days after release of the merchandise into the United States commerce, the importer is
to submit an entry document with payment of estimated duties, taxes, and fees. Non-entity tax and trade
accounts receivables are recognized when CBP is entitled to collect duties, user fees, fines and penalties,
refunds and drawback overpayments, and interest associated with import/export activity on behalf of the
Federal Government that have been established as a specifically identifiable, legally enforceable claim and
remain uncollected as of year-end. Revenues are reported at the time of collection. These revenue
collections primarily result from current fiscal year activities. Generally, CBP records an equal and offsetting
liability due to the Treasury General Fund for amounts recognized as non-entity tax and trade receivable
and custodial revenue. CBP accrues an estimate of duties, taxes and fees related to commerce released



Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report             66
Financial Information (Unaudited)



prior to year-end where receipt of payment is anticipated subsequent to year-end. Fees collected by USCIS
for nonimmigrant petitions must be submitted with the petition. The portion of fees that are subsequently
remitted to other Federal agencies are recorded as custodial revenue at the time of collection.

The significant types of non-entity accounts receivable (custodial revenues as presented in the Statement
of Custodial Activity) are described below.

    • 	 Duties: amounts collected on imported goods collected on behalf of the Federal government.

    • 	 Excise taxes: amounts collected on imported distilled spirits, wines and tobacco products.

    • 	 User fees: amounts designed to maintain United States harbors and to defray the cost of other
        miscellaneous service programs. User fees include application fees collected from employers
        sponsoring nonimmigrant petitions.

    • 	 Fines and penalties: amounts collected for violations of laws and regulations.

    • 	 Refunds: amounts of duties, taxes and fees previously paid by an importer/exporter. Refunds
        include drawback remittance paid when imported merchandise, for which duty was previously paid,
        is exported from the United States.

Duties, user fees, fines and penalties are assessed pursuant to the provisions of Title 19 United States
Code (U.S.C.); Immigration fees under Title 8 U.S.C., and; Excise taxes under Title 26 U.S.C. CBP also
enforces over 400 laws and regulations some of which require the collection of fees or the imposition of
fines and penalties pursuant to other Titles within the U.S.C. or Code of Federal Regulations (C.F.R.).

Non-entity receivables are presented net of amounts deemed uncollectible. CBP tracks and enforces
payment of estimated duties, taxes and fees receivable by establishing a liquidated damage case that
generally results in fines and penalties receivable. A fine or penalty, including interest on past due
balances, is established when a violation of import/export law is discovered. An allowance for doubtful
collections is established for substantially all accrued fines and penalties and related interest. The amount
is based on past experience in resolving disputed assessments, the debtor’s payment record and
willingness to pay, the probable recovery of amounts from secondary sources, such as sureties and an
analysis of aged receivable activity. CBP regulations allow importers to dispute the assessment of duties,
taxes and fees. Receivables related to disputed assessments are not recorded until the protest period
expires or a protest decision is rendered in CBP’s favor.

Refunds and drawback of duties, taxes and fees are recognized when payment is made. A permanent,
indefinite appropriation is used to fund the disbursement of refunds and drawbacks. Disbursements are
recorded as a decrease in the amount Transferred to Federal Entities as reported on the Statement of
Custodial Activity. An accrual adjustment is recorded on the Statement of Custodial Activity to adjust cash
collections and refund disbursements with the net increase or decrease of accrued non-entity accounts
receivables, net of uncollectible amounts and refunds payable at year-end. Disbursements from the
refunds and drawback account for the fiscal years ended September 30, 2006 and 2005, consisted of the
following (in millions):

                                                          2006           2005
                                                       (Unaudited)    (Unaudited)
                              Refunds                         $
                                                              	 646          $729
                              Drawback	                        514             430
                              Total Refunds and
                              Drawbacks                     $1,160          $1,159

The disbursements include interest payments of $111 million and $33 million, for the fiscal years ended
September 30, 2006 and 2005, respectively. Refunds and other payments funded from collections rather
than the refunds and drawback account totaled $269 million and $354 million for the fiscal years ended


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report           67
Financial Information (Unaudited)



September 30, 2006 and 2005, respectively.

The disbursement totals for refunds include antidumping and countervailing duties collected that are
refunded pursuant to rulings by the DOC. These duties are refunded when the DOC issues a decision in
favor of the foreign industry.

The total amounts of antidumping and countervailing duties vary from year to year depending on decisions
from DOC. Antidumping and countervailing duty refunds (included in total refunds presented above) and
associated interest refunded for the fiscal year ended September 30, 2006 and 2005, consisted of the
following (in millions):

                                                                            2006            2005
                                                                         (Unaudited)     (Unaudited)
           Antidumping and countervailing duty refunds                          $381           $124
           Interest                                                                86            14
           Total Antidumping and Countervailing Duty Refunds                    $467           $138



34. Restatements

A. TSA Restatement (Unaudited)

Security Fee Reporting. The Department has restated the fiscal year 2005 Statements of Budgetary
Resources and the Changes in Net Position and related footnotes as a result of an error in the accounting
for passenger and air carrier aviation security fees. In prior years the security fees collected to provide
aviation security were recorded as revenue. At the end of each fiscal year the TSA recorded a rescission
in an amount equal to the security fees and appropriated funds were returned to the Treasury General
Fund and a negative warrant was received from Treasury. The Statement of Budgetary Resources
presented a reduction of the appropriation, but the general ledger showed fees being reduced by the
negative warrant received from Treasury. New procedures in accordance with Public Law 108-90 will show
a reduction of the appropriation received instead of showing a rescission of the appropriation. The fiscal
year 2005 financial statements have been restated to comply with the Department of Homeland Security
Appropriations Act for Fiscal Year 2004, which requires that the sum appropriated from the General Fund
will be reduced on a dollar for dollar basis as offsetting receipts are received during the fiscal year.

Unrecorded Obligations Resulting in a Potential Anti-Deficiency. TSA identified $248 million of
unrecorded obligations resulting in an adjustment to the fiscal year 2004 Statement of Budgetary
Resources, which carries forward to the beginning balances to the fiscal year 2005 Statement of Budgetary
Resources. The effect of the restatement is a decrease to the unobligated balance carried forward from
fiscal year 2004 and an increase to the beginning obligated balance carried forward from fiscal year 2004.
As a result of the unrecorded obligations, a potential violation of the Anti-Deficiency Act may have
occurred.

B. USCG Restatement (Unaudited)

Postretirement Medical Liability. The Department has restated the fiscal year 2005 Balance Sheet and
Statements of Net Cost, Changes in Net Position and Financing as a result of a correction of an error of the
actuarial determined medical liability. The USCG initiated a follow-up review of its prior medical expense
reports. The review indicated that a substantial amount of prior expenditures were not accurately reported
to the actuary firm which led to a re-calculation of their FY 2005 Postretirement Medical liability. The
revaluation of the FY 2005 medical liability was $444 million. The Balance Sheet presented a reduction of
this amount to the Federal Employee and Veteran Benefits line and a corresponding increase to the
Cumulative Results of Operations for FY 2005. This restatement also resulted in a decrease to the USCG
Gross Cost which affected the Statements of Changes in Net Position and Financing.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report            68
Financial Information (Unaudited)



C. USCIS, PRE, and ICE Restatement (Unaudited)

During 2006, several components began implementation of corrective action plans to address certain
control deficiencies. As a result of these corrective actions three Components, ICE, USCIS, and PRE,
restated their fiscal year 2005 financial statements to correct errors in accounting. The restatement
affected FBWT, accounts payable, PP&E, and the associated budgetary balances. These restatements
affected each of the principal financial statements, except for the Statement of Custodial Activity.

D. FLETC Restatement (Unaudited)

The Department restated their fiscal year 2005 financial statements due to errors discovered in FLETC’s
reporting of the environmental liabilities and accounting changes of operating materials and supplies
balances. During 2006, FLETC determined that the environmental liabilities were understated by
approximately $7 million, while the accounting treatment of the operating materials and supplies valued at
approximately $8 million was changes to the consumption method to purchase method due to improper
valuation. These restatements affected the Balance Sheet, the Statement of Changes in Net Position, and
the Statement of Financing.

E. Other Restatements (Unaudited)

As a result of new or updated reporting requirements, including OMB Circular A-136, and the restatements
completed based on errors noted by the components, the Department reviewed the fiscal year 2005
financial statements and noted errors that were not attributable to a single component, but rather were
related to the reporting of component information. As a result, the Department processed a $396 million
restatement to the Distributed Offsetting Receipts reported on the Statement of Budgetary Resources and
the Statement of Financing.

The effects of the restatement on the fiscal year 2005 financial statements are presented below for all
principles financial statement, except for the Statement of Custodial Activity.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report           69
Financial Information (Unaudited)




                                                        Original      Effects of         Restated    Description
 BALANCE SHEET, in millions                              2005        Restatements         2005       Reference

 ASSETS
 Intragovernmental
    Fund Balance With Treasury                            $97,004                  $8      $97,012   C
    Investments, Net                                          738                   -          738
    Accounts Receivable                                       217                   -          217
    Other
       Advances and Prepayments                            2,937                    -       2,937
       Due from Treasury                                     144                    -         144
 Total Intragovernmental                                $101,040                   $8    $101,048


   Cash and Other Monetary Assets                             $78                 $-           $78
   Accounts Receivable, Net                                   532                   -          532
   Taxes, Duties, and Trade Receivables, Net                1,400                   -        1,400
   Direct Loans, Net                                            -                   -            -
   Inventory and Related Property, Net                        506                 (8)          498   D
   General Property, Plant, and Equipment, Net             10,470                (10)       10,460   C
   Other
      Advances and Prepayments                               480                    -         480
 TOTAL ASSETS                                           $114,506                $(10)    $114,496



 LIABILITIES
 Intragovernmental
    Accounts Payable                                         $870                $(5)        $865    C
      Debt                                                    226                   -         226
    Other
      Due to the General Fund                               1,434                   -        1,434
      Accrued FECA Liability                                  358                   -          358
      Other                                                   270                (18)          252   C
 Total Intragovernmental                                   $3,158               $(23)       $3,135

    Accounts Payable                                       $3,329               $(76)       $3,253   C
    Federal Employee and Veteran Benefits                  30,494               (444)       30,050   B
    Environmental and Disposal Liabilities                    172                   7          179   D
    Other
      Accrued Payroll                                       1,372                 (6)        1,366   C
      Deferred Revenue and Advances from
      Others                                                2,014                   -        2,014
      Deposit Liability for Canadian Softwood
      Lumber                                                4,706                   -        4,706




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report          70
Financial Information (Unaudited)




                                                        Original      Effects of         Restated    Description
 BALANCE SHEET, in millions                              2005        Restatements         2005       Reference

      Insurance Liabilities                                23,433                  -        23,433
      Refunds and Drawbacks                                   118                  -           118
      Other                                                   949                  9           958   C
 Total Liabilities                                        $69,745             $(533)       $69,212


 Net Position
   Unexpended Appropriations                              $87,166               $(35)      $87,131   C
   Cumulative Results of Operations-Other
   Funds                                                 (42,405)                558      (41,847)   B, C, D
 Total Net Position                                        44,761                523        45,284

 TOTAL LIABILITIES AND NET POSITION                     $114,506                $(10)    $114,496




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report          71
Financial Information (Unaudited)




 STATEMENT OF NET COST, in                   Original        Effects of          Restated       Description
 millions                                     2005         Restatements           2005          Reference

 Directorates and Other
 Components

 United States VISIT
     Gross Cost                                   $172                   $               $172
     Less Earned Revenue                             -                       -              -
     Net Cost                                      172                       -            172

 United States Customs and Border
 Protection
     Gross Cost                                   7,059                      -       7,059
     Less Earned Revenue                          (619)                      -       (619)
     Net Cost                                     6,440                      -       6,440

 United States Coast Guard
     Gross Cost                                   9,589              (444)           9,145      B
     Less Earned Revenue                          (220)                  -           (220)
     Net Cost                                     9,369              (444)           8,925

 United States Citizenship and
 Immigration Services
     Gross Cost                                   1,291               (16)            1,275     C
     Less Earned Revenue                        (1,622)                  -          (1,622)
     Net Cost                                     (331)               (16)            (347)

 Federal Emergency Management
 Agency
    Gross Cost                                  39,643                    -         39,643
    Less Earned Revenue                         (2,159)                   -         (2,159)
    Net Cost                                    37,484                    -         37,484

 Federal Law Enforcement Training
 Center
    Gross Cost                                     257                       -           257
    Less Earned Revenue                            (31)                      -           (31)
    Net Cost                                       226                       -           226

 Preparedness Directorate
    Gross Cost                                    2,701                      -       2,701
    Less Earned Revenue                             (20)                     -         (20)
    Net Cost                                      2,681                      -       2,681

 United States Immigration and
 Customs Enforcement
     Gross Cost                                   3,893               (79)           3,814      C
     Less Earned Revenue                          (642)                  -           (642)
     Net Cost                                     3,251               (79)           3,172




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report              72
Financial Information (Unaudited)



 STATEMENT OF NET COST, in                   Original        Effects of         Restated        Description
 millions                                     2005         Restatements          2005           Reference

 United States Secret Service
     Gross Cost                                   1,505                   -          1,505
     Less Earned Revenue                            (22)                  -            (22)
     Net Cost                                     1,483                   -          1,483

 Science and Technology
 Directorate
     Gross Cost                                    743                    -              743
     Less Earned Revenue                           (12)                   -              (12)
     Net Cost                                      731                    -              731

 Transportation and Security
 Administration
    Gross Cost                                    6,523                   -           6,523
    Less Earned Revenue                         (2,255)                   -         (2,255)
    Net Cost                                      4,268                   -           4,268

 Department Operations and Other
    Gross Cost                                     642                    -              642
    Less Earned Revenue                            (11)                   -              (11)
    Net Cost                                       631                    -              631

 NET COST OF OPERATIONS                        $66,405              $(539)         $65,866




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report              73
Financial Information (Unaudited)




 STATEMENT OF CHANGES IN NET                        Original         Effects of          Restated     Description
 POSITION, in millions                               2005          Restatements           2005        Reference

 Cumulative Results of Operations

 Beginning Balances                                   $(17,017)                 $-       $(17,017)
 Adjustments:
      Changes in accounting principles                                          (8)            (8)    D
      Corrections of Errors                               (127)                 (7)          (134)    D
 Beginning balance, as adjusted                       $(17,144)               $(15)      $(17,159)

 Budgetary Financing Sources:
     Appropriations Used                               $38,034                 $34        $38,068     C
     Non-Exchange Revenue                                2,315                   -          2,315
     Donations and Forfeitures of Cash and
     Cash Equivalents                                          3                     -          3
     Transfers in/out without
     Reimbursement                                           265                     -         265
     Other                                                 (143)                     -       (143)

 Other Financing Sources (Non-
 Exchange):
      Donations and Forfeitures of Property                   8                  -               8
      Transfers in/out reimbursement                         11                  -              11
      Imputed Financing                                     651                  -             651
 Total Financing Sources                                 41,144                 34          41,178
 Net Cost of Operations                                (66,405)                539        (65,866)    B, C
 Net Change                                            (25,261)                573        (24,688)

 Cumulative Results of Operations                     $(42,405)               $558       $(41,847)

 Unexpended Appropriations:
 Beginning Balance                                     $25,504                   $        $25,504
 Adjustments:
      Corrections of errors                                163                                163
 Beginning Balance, as adjusted                        $25,667                  $         $25,667

 Budgetary Financing Sources:
      Appropriations Received                         $101,251            $(1,544)        $99,707     A
      Appropriations transferred in/out                     158                   -            158
      Other Adjustments                                 (1,876)              1,543           (333)    A
      Appropriations Used                              (38,034)                (34)       (38,068)    C
      Total Budgetary Financing Sources                  61,499                (35)         61,464
 Total Unexpended Appropriations                         87,166                (35)         87,131

 NET POSITION                                           $44,761               $523        $45,284




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report               74
Financial Information (Unaudited)




                                                          Original 2005                   Effects of Restatements            Restated 2005
                                                                                                                                        Non
                                                                     Non-                                  Non-                     Budgetary
                                                                  Budgetary                             Budgetary                      Credit
                                                                 Credit Reform                         Credit Reform                  Reform
 STATEMENT OF BUDGETARY                                            Financing                             Financing                   Financing         Description
 RESOUCES, in millions                            Budgetary        Accounts              Budgetary       Accounts         Budgetary Accounts           Reference

 BUDGETARY RESOURCES
 Unobligated Balance, brought forward
 October 1                                             $8,392                 $             $(248)                $          $8,144        $           A
 Recoveries of Prior Year Unpaid
 Obligations                                            1,431                     -             87                    -       1,518            -
 Budget Authority:                                                                                                                                 C
   Appropriations                                    106,691                   -            (1,544)                   -     105,147         -
   Borrowing Authority                                 2,000                  26                  -                   -       2,000        26 A

 Earned:
      Collected                                         7,708                     8             14                    -       7,722            8       C
      Change in Receivable from Federal
      Sources                                           (142)                     -               -                   -       (142)            -
   Change in Unfilled Customer Orders:
      Advance Received                                    571                     -               -                   -        571             -
      Without Advance From Federal
      Sources                                            569                   -                  -                   -        569             -
   Expenditure transfers from trust funds                 50                   -                  -                   -          50
   Subtotal                                          117,447                  34            (1,530)                   -     115,917        34
 Non-expenditure transfers, net; anticipated
 and actual                                               337                   -                -                              337          -
 Permanently Not Available                            (1,953)                 (8)            1,544                            (409)        (8)         A
 TOTAL BUDGETARY RESOURCES                          $125,654                 $26            $(147)                $        $125,507       $26




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                75
Financial Information (Unaudited)




                                                        Original 2005                     Effects of Restatements            Restated 2005
                                                                   Non                                    Non-                          Non-
                                                                Budgetary                              Budgetary                    Budgetary
                                                              Credit Reform                           Credit Reform                Credit Reform
 STATEMENT OF BUDGETARY                                          Financing                              Financing                    Financing        Description
 RESOUCES, in millions                            Budgetary      Accounts                Budgetary      Accounts        Budgetary    Accounts         Reference

 STATUS OF BUDGETARY RESOURCES
 Obligations Incurred:
   Direct                                            $64,227                  $               $120              $-        $64,347             $       A, C
   Reimbursable                                        4,394                      -           (113)              -          4,281                 -   A
                                                      68,621                      -               7              -         68,628                 -
 Subtotal
 Unobligated Balance:
   Apportioned                                         51,811                 26                  6                 -      51,817             26      C
   Exempt from Apportionment                               45                  -                  -                 -          45              -
                                                       51,856                 26                  6                 -      51,862             26
 Subtotal
 Unobligated Balance Not Available                      5,177                  -              (160)                 -       5,017              -      A, C
 TOTAL STATUS OF BUDGETARY
 RESOURCES                                          $125,654                 $26             $(147)             $        $125,507            $26




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                76
Financial Information (Unaudited)




                                                        Original 2005                      Effects of Restatements            Restated 2005
                                                                   Non                                     Non-                          Non-
                                                                Budgetary                               Budgetary                    Budgetary
                                                              Credit Reform                            Credit Reform                Credit Reform
 STATEMENT OF BUDGETARY                                          Financing                               Financing                    Financing        Description
 RESOUCES, in millions                            Budgetary      Accounts                 Budgetary      Accounts        Budgetary    Accounts         Reference

 CHANGE IN OBLIGATED BALANCE
 Obligated Balance, Net
    Unpaid obligations brought forward,
    October 1                                        $26,184                  $                $248              $         $26,432             $       A
    Less: Uncollected customer payments
    from Federal Sources, brought forward,
    October 1                                         (1,418)                     -               -                  -      (1,418)                -
    Total unpaid obligated balance, net                24,766                     -             248                  -       25,014                -
 Obligations incurred, net                             68,621                     -               7                  -       68,628                -   C
 Less: Gross Outlays                                 (53,175)                     -                                  -     (53,175)                -
 Obligated balance transferred, net
    Actual transfers, unpaid obligations                   89                     -                -                 -          89
    Total unpaid obligated balance
    transferred, net                                       89                     -                -                 -          89                 -
 Recoveries of Prior Year Unpaid
                                                                                      -
 Obligations, Actual                                  (1,431)                     -             (87)                 -      (1,518)                -   C
 Change in uncollected customer payments
 from Federal Sources                                   (427)                     -                -                 -       (427)                 -
 Obligated balance, net end of period
    Unpaid obligations                                 40,288                     -             168                  -      40,456                 -   A, C
    Less: Uncollected customer payments
    from Federal Sources                              (1,845)                     -               -                  -      (1,845)                -
 Total, unpaid obligated balance, net end of
 period                                                38,443                     -             168                  -      38,611                 -
 Net Outlays
    Gross Outlays                                     53,175                    -                  -                 -      53,175              -
    Less: Offsetting Collections                      (8,328)                 (8)               (14)                 -      (8,342)           (8)      C
    Less: Distributed Offsetting Receipts             (4,152)                   -              (396)                 -      (4,548)             -      E
 NET OUTLAYS                                         $40,695                 $(8)             $(410)             $         $40,285           $(8)




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                 77
Financial Information (Unaudited)




                                                    Original        Effects of           Restated     Description
 STATEMENT OF FINANCING, in millions                 2005         Restatements            2005        Reference

 Resources Used to Finance Activities:
 Budgetary Resources Obligated
   Obligations Incurred                              $68,621                    $7        $68,628     C
   Less: Spending Authority from Offsetting
   Collections and Recoveries                        (10,195)                 (101)       (10,296)    C
   Obligations Net of Offsetting Collections
   and Recoveries                                     58,426                   (94)        58,332
   Less: Offsetting Receipts                          (4,152)                 (396)        (4,548)    E
   Net Obligations                                    54,274                  (490)        53,784

 Other Resources
   Donations and Forfeiture of Property                      8                    -             8
   Transfers in(out) Without Reimbursement
   (+/-)                                                   11                     -            11
   Imputed Financing from costs Absorbed by
   Others                                                 651                     -           651
   Net Other Resources Used to Finance
   Activities                                             670                     -           670

 Total Resources Used to Finance Activities          $54,944                $(490)        $54,454

 Resource Used to Finance Items Not Part
 of the Net Cost of Operations
    Change in Budgetary Resources Obligated
    for Goods, Services and Benefits Ordered
    but not yet Provided (+/-)                       $12,866                   $(3)       $12,863     C

   Resources that Fund Expenses
   Recognized in Prior Periods                             26                   16             42     C
   Budgetary Offsetting Collections and
   Receipts that do not Affect Net Cost of
   Operations:
       Credit Program Collections that
       Increase Liabilities for Loan Guarantees
       or Allowances for Subsidy                          (8)                     -            (8)
       Other                                            (345)                 (396)          (741)    E
   Resources that Finance the Acquisition of
   Assets                                               1,860                     -         1,860
   Other Resource or Adjustments to Net
   Obligated Resources that do not Affect Net
   Cost of Operations (+/-)                               499                     2           501     C
 Total Resources Used to Finance Items
 Not Part of the Net Cost of Operations                14,898                 (381)        14,517

 TOTAL RESOURCES USED TO FINANCE
 THE NET COST OF OPERATIONS                          $40,046                $(109)        $39,937




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report               78
Financial Information (Unaudited)




                                                    Original        Effects of           Restated     Description
 STATEMENT OF FINANCING, in millions                 2005         Restatements            2005        Reference

 Components of the Net Cost of Operations
 that will not Require or Generate
 Resources in the Current Period:
 Components Requiring or Generating
 Resources in Future Periods:
    Increase in Annual Leave Liability                    $67                   $             $67
    Increase in Environmental and Disposal
    Liability                                              13                       7          20     D
    Increase in Exchange Revenue Receivable
    from the Public                                       (95)                      -         (95)
    Other
       Increase in Unfunded Claims and
       Claims Settlement Liabilities                   21,651                       -      21,651
       Increase in Actuarial Pension Liability          1,691                       -       1,691
       Increase in USCG Military Post
       Employment Benefits                                 17                       -          17
       Increase in Actuarial Health Insurance
       Liability                                          811                 (444)           367     B
       Other                                              311                  (16)           295     C, D, E
    Total Components of Net Cost of
    Operations that will Require or Generate
    Resources in Future Periods                        24,466                 (453)        24,013

    Components not Requiring or
    Generating Resources:
    Depreciation and Amortization                       1,108                   13          1,121     C
    Revaluation of Assets or Liabilities (+/-)            543                    9            552     C
    Other (+/-)                                           243                                 243
    Total Components of Net Cost of
    Operations That Will Not Require or
    Generate Resources                                  1,894                   22          1,916

    Total Components of Net Cost of
    Operations That Will Not Require or
    Generate Resources in the Current
    Period                                             26,360                 (431)        25,929

 NET COST OF OPERATIONS                              $66,406                $(540)        $65,866




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report               79
Financial Information (Unaudited)




Required Supplementary Information (unaudited, see Auditors’ Report)

1. Stewardship PP&E
A. Heritage Assets

USCG and CBP maintain Heritage Assets, located in the United States, including the Commonwealth of
Puerto Rico. Heritage Assets are property, plant and equipment that have historical or national significance;
cultural, educational, or artistic importance; or significant architectural characteristics. Heritage Assets are
generally expected to be preserved indefinitely. Multi-use Heritage Assets have more than one purpose
such as an operational purpose and historical purpose.

The following table summarizes activity related to Heritage Assets for the fiscal years ended September 30
(in number of units).

                                        2006 (Unaudited) 	                      2005 (Unaudited)
                                USCG         CBP        Total           USCG             CBP       Total


  Beginning Balance                 20,254         4         20,258       19,930               4      19,934
  Additions                           349          -            349          599               -           599
  Withdrawals                        (178)         -          (178)         (275)              -        (275)
  Ending Balance                    20,425         4         20,429       20,254               4      20,258

USCG possesses artifacts that can be divided into four general areas: ship’s equipment, lighthouse and
other aids-to-navigation items, military uniforms and display models. The addition of artifacts is the result of
gifts to USCG. Withdrawals are made when items have deteriorated through inappropriate display, damage
due to moving and transportation, or environmental degradation.

    • 	 Ship’s equipment is generally acquired when the ship is decommissioned and includes small items
        such as sextants, ship’s clocks, wall plaques, steering wheels, bells, binnacles, engine order
        telegraphs and ship’s name boards. Conditions will vary based upon use and age.
    • 	 Aids-to-navigation items include fog and buoy bells, lanterns, lamp changing apparatus and
        lighthouse lenses. Buoy equipment is usually acquired when new technology renders the
        equipment obsolete. Classical lighthouse lenses can vary in condition. The condition is normally
        dependent on how long the item has been out of service. The lenses go to local museums or
        USCG bases as display items.
    • 	 Military uniforms are generally donated by retired USCG members and include clothing as well as
        insignia and accessories. Most clothing is in fair to good condition, particularly full dress items.
    • 	 Display models are mostly of USCG vessels and aircraft. These are often builders’ models. Display
        models are generally in very good condition. Builders’ models are acquired by USCG as part of the
        contracts with the ship or aircraft builders. The withdrawal of display models normally results from
        excessive wear.

The USCG also has non-collection type heritage assets, such as sunken vessels and aircraft under the
property clause of the U.S. Constitution, Articles 95 and 96 of the International Law of the Sea Convention
and the sovereign immunity provisions of Admiralty law. Despite the passage of time or the physical
condition of these assets, they remain Government-owned until the Congress of the United States formally
declares them abandoned. The USCG desires to retain custody of these assets to safeguard the remains
of crew members who were lost at sea, to prevent the unauthorized handling of explosives or ordnance
which may be aboard and to preserve culturally valuable relics of the USCG’s long and rich tradition of
service to our Nation in harm’s way.


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report             80
Financial Information (Unaudited)



Buildings and Structures - USCG does not acquire or retain heritage buildings and structures without an
operational use. Most real property, even if designated as historical, is acquired for operational use and is
transferred to other government agencies or public entities when no longer required for operations. Of the
USCG buildings and structures designated as heritage, including memorials, recreational areas and other
historical areas, over two-thirds are multi-use heritage. The remaining are historical lighthouses, which are
no longer in use and awaiting disposal; their related assets; and a gravesite.

CBP also has four multi-use heritage assets located in Puerto Rico. All multi-use heritage assets are
reflected on the Balance Sheet. Financial information for multi-use heritage assets is presented in the
principal statements and notes. Deferred maintenance information for heritage assets and general PP&E is
presented in the required supplementary information.

2. Deferred Maintenance

The Department components use condition assessment as the method for determining the deferred
maintenance for each class of asset. The procedure includes reviewing equipment, building and other
structure logistic reports. Component logistic personnel identify maintenance not performed as scheduled
and establish future performance dates. Logistic personnel use a condition assessment survey to
determine the status of referenced assets according to the range of conditions shown below:

Good. Facility/equipment condition meets established maintenance standards, operates efficiently and has
a normal life expectancy. Scheduled maintenance should be sufficient to maintain the current condition.
There is no deferred maintenance on buildings or equipment in good condition.

Fair. Facility/equipment condition meets minimum standards but requires additional maintenance or repair
to prevent further deterioration, increase operating efficiency and to achieve normal life expectancy.

Poor. Facility/equipment does not meet most maintenance standards and requires frequent repairs to
prevent accelerated deterioration and provide a minimal level of operating function. In some cases, this
includes condemned or failed facilities. Based on periodic condition assessments, an indicator of condition
is the percent of facilities and item of equipment in each of the good, fair, or poor categories.

Deferred maintenance as of September 30, 2006 was estimated to range from $771 million to $967 million
on general property, plant and equipment and heritage assets. In fiscal year 2005, the Department reported
estimated deferred maintenance of $734 million to $890 million with a range of poor to fair. These amounts
represent maintenance on vehicles, vessels and buildings and structures owned by the Department that
was not performed when it should have been or was scheduled to be and which is delayed for a future
period.

A summary of deferred maintenance at September 30, 2006 is presented below (in millions):

                                                     Low             High
                                                   estimate        estimate       Asset Condition
          Building & Structures                           $ 514          $ 645           Poor to Good
          Equipment (vehicles and vessels)                  256           321             Poor to Fair
          Heritage assets                                     1               1          Poor to Good
          Total                                           $ 771          $ 967




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report            81
Financial Information (Unaudited)



3. Statement of Budgetary Resources 

Schedule of FY 2006 Budgetary Resources by Responsibility Segments (in millions) (page 1 of 2) 



                                                    VISIT       CBP        USCG      USCIS       FEMA       FLE       ICE       Dept      PRE       SS        ST        TSA       TOTAL
BUDGETARY RESOURCES
Unobligated balance, brought forward, Oct 1           $80        $1,724     $1,254     $318      $49,241     $76       $405      $164     $2,569      $79      $276      $719      $56,905
Recoveries of Prior Year Obligations                   17           217          -      155        2,561      55        273        44         29        -       169       134        3,654
Budget Authority:
  Appropriations                                      340         9,254      8,762    1,813        9,101     308       3,744      960      4,097     1,435     1,502     4,432      45,748
  Borrowing Authority                                   -             -                   -       18,129       -           -        -          -         -         -         -      18,129
  Spending Authority from Offsetting Collections:

Earned:                                                 1         1,291       561        25        3,866      87       1,270      426        54          19        10    1,960       9,570
      Change in Receivable from Federal
CollectedSources                                            -         10       18         1             2         2         3       (2)         -         3         2                  39
   Change in Unfilled Customer Orders:
      Advance Received                                  -             1         30       (5)       (531)       1         (14)         -        6        (2)      (18)       (9)      (541)
      Without Advance From Federal Sources              -            43         33       13          424     109          (3)       (6)       12          9        32         1        667
   Expenditure transfers from trust funds               -             3         46         -           -       -            -         -        -          -         -         -         49
U.S.
   Subtotal                                           341        10 602      9 450    1 847       30 991     507       5 000     1 378     4 169     1 464     1 528     6 384      73 661
Non-expenditure transfers, net; anticipated and
actual                                                   -          243        281           -      (750)       -         16       (4)         -         -      (14)                 (228)
Temporarily Not Available Pursuant to Public Law         -            -          -                   (24)       -        (5)         -         -         -         -                  (29)
Permanently Not Available                              (3)        (163)      (485)     (11)      (23,828)     (7)       (39)      (35)      (56)      (49)      (36)     (795)    (25,507)
TOTAL BUDGETARY RESOURCES                            $435       $12,623    $10,500   $2,309      $58,191    $631      $5,650    $1,547    $6,711    $1,494    $1,923    $6,442    $108,456

STATUS OF BUDGETARY RESOURCES
Obligations Incurred:
                                                      236         9,032      8,028    2,066       48,663     308       3,767      903      4,994     1,409     1,450     6,267      87,123
Direct                                                  1         1,295        590    (176)          493     233       1,275      428         44        29        35        42       4,289
Reimbursable
                                                      237        10,327      8,618    1,890       49,156     541       5,042     1,331     5,038     1,438     1,485     6,309      91,412
Subtotal
Unobligated Balance:
                                                      198          294       1,272      107        6,888      73        278       164      1,628          5     404         54      11,365
Apportioned
  Exempt from Apportionment                             -                       66        -           14       -          -         -          -          -       -          -          80
  Subtotal                                            198           294      1 338      107        6 902      73        278       164      1 628          5     404         54      11 445
Unobligated Balance Not Available                                 2,002        544      312        2,133      17        330        52         45         51      34         79       5,599
TOTAL STATUS OF BUDGETARY
RESOURCES                                            $435       $12,623    $10,500   $2,309      $58,191    $631      $5,650    $1,547    $6,711    $1,494    $1,923    $6,442    $108,456




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                                                                                                82
 Financial Information (Unaudited)




 Schedule of FY 2006 Budgetary Resources by Responsibility Segments (in millions) (page 2 of 2)

                                                       U.S.
                                                       VISIT   CBP       USCG      USCIS      FEMA      FLE     ICE       Dept       PRE         SS         ST       TSA        TOTAL
CHANGE IN OBLIGATED BALANCES

Obligated Balance, Net
   Unpaid obligations brought forward, Oct 1           $345    $2,398    $3,061      $636 $20,287       $114    $1,293     $557      $8,291        243        952     2,279       40,456
  Uncollected customer payments from
    federal sources, brought forward, Oct 1                -     (323)     (182)       (11)   (539)      (42)     (483)   (182)           (5)        (9)         -       (69)     (1,845)
   Total unpaid obligated balance, net                   345     2,075     2,879       625 19,748          72       810     375        8,286        234        952     2,210       38,611
Obligations incurred, net                                237   10,328      8,618     1,889 49,156         541     5,042 1,331          5,039      1,438      1,485     6,308       91,412
Gross Outlays                                          (359)   (9,441)   (8,535)   (1,731) (46,198)     (335)   (4,372) (1,083)      (3,975)    (1,374)    (1,044)   (5,866)     (84,313)
Recoveries of Prior Year Unpaid Obligations             (17)     (217)               (155) (2,561)       (55)     (272)    (44)          (30)                (168)     (135)      (3,654)
Change in uncollected customer payments from Federal
Sources                                                    -      (52)      (51)      (14)     (425)    (111)       (1)          7      (13)       (12)       (34)          -         (706)
Obligated balance, net end of Period
Unpaid Obligations                                      206     3,067     3,144       639     20,685      265    1,690      761       9,326        307      1,225     2,587       43,902
Uncollected customer payments from Federal Sources        -     (374)     (233)       (25)     (965)    (153)    (483)    (175)         (19)       (21)       (34)      (70)      (2,552)
Total, unpaid obligated balance, net, end of period     206     2,693     2,911       614     19,720      112    1,207      586       9,307        286      1,191     2,517       41,350

NET OUTLAYS
Net Outlays
  Gross Outlays                                         359      9,441    8,535      1,731    46,198     335      4,372   1,083       3,975      1,374      1,044      5,866      84,313
                                                         (1)   (1,295)    (637)        (20)   (3,335)    (87)   (1,256)   (427)         (60)       (17)         8    (1,951)      (9,078)
Offsetting collections
   Distributed  offsetting receipts                        -   (2,348)      (33)   (2,041)        (7)     (6)     (110)       1            -        (1)         -      (276)      (4,821)
   Net Outlays                                         $358    $5,798    $7,865     $(330) $42,856      $242    $3,006     $657      $3,915     $1,356     $1,052    $3,639      $70,414




 Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                                                                                          83
Financial Information (Unaudited)




Schedule of FY 2005 Budgetary Resources by Responsibility Segments (in millions) (page 1 of 2)


                                                         U.S.
                                                         VISIT   CBP      USCG      USCIS     FEMA      FLE     ICE       Dept     PRE      SS        ST     TSA     TOTAL
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1          $136    $1,915   $1,077      $317    $3,147     $67     $209      $161     $373     $55      $381    $306    $8,144
Recoveries of Prior Year Obligations                        -       146       77        56       609      29      245        12      150       -        64     130     1,518
Budget Authority:
  Appropriations                                           350    7,572    7,648     1,702    69,487     227    3,188       614    7,406    1,386 1,115      4,452   105,147
  Borrowing Authority                                        -        -        -         -     2,026       -        -         -        -        -     -          -     2,026
  Contract Authority                                         -        -        -         -         -       -        -         -        -        -     -          -         -
  Spending Authority from Offsetting Collections:

Earned:                                                      -    1,207     422         67     2,692      64    1,003       209       30         23    24    1,989     7,730
      Change in Receivable from Federal Sources              -       33     (65)      (67)        (7)      3      (59)       12        -          5     -        3     (142)
Collected
   Change in Unfilled Customer Orders:
      Advance Received                                       -       -        (7)       (7)      534       -        3         -       84     (12)      (4)    (20)      571
      Without Advance From Federal Sources                   -      63        30          7      188      12      205        95        4      (5)      (1)    (29)      569
     Anticipated for Rest of Year, Without Advances          -       -          -         -        -       -                  -        -        -        -       -        -
   Previously unavailable                                    -       -          -         -        -       -          -       -        -        -        -       -        -
   Expenditure transfers from trust funds                    -       3        47          -        -       -          -       -        -        -        -       -       50
                                                           350    8,878    8,075     1,702    74,920     306    4,340       930    7,524    1,397 1,134      6,395   115,951
Subtotal
Non-expenditure transfers, net; anticipated and actual       -      136      198         -       (14)       -       4         22      (6)        -   (5)         2       337
Temporarily Not Available Pursuant to Public Law             -        -         -        -          -       -                  -        -        -     -         -         -
Permanently Not Available                                    -    (197)      (52)        -       (18)     (2)    (86)       (24)     (25)     (13)     -               (417)
TOTAL BUDGETARY RESOURCES                                  486   10,878    9,375     2,075    78,644     400    4,712      1,101   8,016    1,439 1,574      6,833   125,533

STATUS OF BUDGETARY RESOURCES
Obligations Incurred:
                                                           405    7,881    7,747     1,822    28,333     235    3,244       627    5,349    1,317 1,283      6,104    64,347
Direct                                                       -    1,273      374       (65)    1,069      88    1,060       311      100       43    14         14     4,281
Reimbursable
                                                           405    9,154    8,121     1,757    29,402     323    4,304       938    5,449    1,360 1,297      6,118    68,628
Subtotal
Unobligated Balance:
                                                            81     203      830         67    46,961      63      283       121    2,548          2   277      407    51,843
Apportioned
  Exempt from Apportionment                                  -       -       33          -        12       -        -         -        -          -     -        -        45
                                                            81      203     863         67    46,973      63      283       121    2,548          2   277      407    51,888
Subtotal
Unobligated Balance Not Available                            -    1,521     391        251     2,269      14      125        42       19         77     -      308     5,017
TOTAL STATUS OF BUDGETARY RESOURCES                        486   10,878    9,375     2,075    78,644     400    4,712      1,101   8,016    1,439 1,574      6,833   125,533




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                                                                                  84
Financial Information (Unaudited)



Schedule of FY 2005 Budgetary Resources by Responsibility Segments (in millions) (page 2 of 2)


                                                      VISIT   CBP       USCG      USCIS      FEMA      FLE     ICE        Dept     PRE         SS       ST       TSA        TOTAL
CHANGE IN OBLIGATED BALANCES
 Obligated Balance, Net
   Unpaid obligations brought forward, October 1        188     2,160     2,794       603    8,507        79     1,146       487     7,286        299   573        2,310      26,432
   Uncollected customer payments from federal             -     (227)     (216)       (71)   (357)      (27)     (337)      (76)        (3)        (8)   (1)         (95)    (1,418)
    Total unpaid obligated balance net                  188     1 933     2 578       532    8 150        52       809       411     7 283        291   572        2 215      25 014
 Obligations incurred, net                              396     9,153     8,121     1,757 29,402         323     4,304       946     5,448      1,361 1,298        6,119      68,628
 Gross Outlays                                        (239)   (8,773)   (7,778)   (1,670) (17,014)     (259)   (3,999)     (864)   (4,291)    (1,417) (855)      (6,016)    (53,175)
 Obligated balance transferred, net:
    Actual transfers, unpaid obligations                  -        3          -         2         -        -         84        -         -          -      -           -          89
    Actual transfers, uncollected customer                -        -          -         -         -        -                   -         -          -      -           -           -
   Total unpaid obligated balance transferred net         -        3          -         2         -        -       84          -         -          -      -           -          89
 Recoveries of Prior Year Unpaid Obligations                   (146)       (77)      (57)     (608)     (29)    (245)       (13)     (150)          -   (64)       (129)     (1,518)
 Change in uncollected customer payments from
 Federal Sources                                          -      (96)       34         60     (181)     (15)    (146)      (106)       (5)          -        1        27      (427)
 Obligated balance, net end of Period
 Unpaid Obligations                                     345    2,397     3,060       635     20,287     114     1,290        556    8,291        244    952       2,285      40,456
 Uncollected customer payments from Federal Sources       -    (323)     (182)       (11)     (538)     (42)    (483)      (182)       (6)        (9)     -         (69)     (1,845)
U.S.
 Total unpaid obligated balance net end of period       345    2 074     2 878       624     19 749       72      807        374    8 285        235    952       2 216      38 611


 NET OUTLAYS
 Net Outlays
   Gross outlays                                        239     8,773    7,778      1,670    17,014     259      3,999       864    4,291      1,417    855        6,016     53,175
                                                          -   (1,210)    (461)        (61)   (3,226)    (64)   (1,006)     (208)    (114)        (11)   (20)     (1,969)     (8,350)
 Offsetting collections
   Distributed  offsetting receipts                       -   (2,247)      (25)   (1,891)          -       -     (135)         -        -           -      -       (250)     (4,548)
    Net Outlays                                         239    5,316     7,292      (282)    13,788     195     2,858       656     4,177      1,406    835       3,797      40,277




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                                                                                          85
Financial Information (Unaudited)




4. Statement of Custodial Activity
Substantially all duty, tax and fee revenues collected by CBP are remitted to various General Fund
accounts maintained by Treasury. Treasury further distributes these revenues to other Federal agencies in
accordance with various laws and regulations. CBP transfers the remaining revenue (generally less than
two percent of revenues collected) directly to other Federal agencies, the Governments of Puerto Rico and
the U.S. Virgin Islands, or retains funds as authorized by law or regulations. Refunds of revenues collected
from import/export activities are recorded in separate accounts established for this purpose and are funded
through permanent indefinite appropriations. These activities reflect the non-entity, or custodial,
responsibilities that CBP, as an agency of the Federal government, has been authorized by law to enforce.

CBP reviews selected documents to ensure all duties, taxes and fees owed to the Federal government are
paid and to ensure regulations are followed. If CBP believes duties, taxes, fees, fines, or penalties are due
in addition to estimated amounts previously paid by the importer/violator, the importer/violator is notified of
the additional amount due. CBP regulations allow the importer/violator to file a protest on the additional
amount due for review by the Port Director. A protest allows the importer/violator the opportunity to submit
additional documentation supporting their claim of a lower amount due or to cancel the additional amount
due in its entirety. Work in progress will continue until all protest options have expired or an agreement is
reached. During this protest period, CBP does not have a legal right to the importer/violator’s assets, and
consequently CBP recognizes accounts receivable only when the protest period has expired or an
agreement is reached. For fiscal years 2006 and 2005, CBP had legal right to collect $1.8 billion and $1.4
billion of receivables respectively. In addition, there was an additional $2.4 billion and $1.9 billion
representing records still in the protest phase for fiscal years 2006 and 2005 respectively. CBP recognized
as write-offs $204 million and $134 million respectively, of assessments that the Department has statutory
authority to collect at September 30, 2006 and 2005, but has no future collection potential. Most of this
amount represents fines, penalties and interest.

USCG collects various fines, penalties and miscellaneous user fees from the public that are deposited to
the General Fund miscellaneous receipts of the U.S. Treasury. USCG does not collect taxes or duties. As
of September 30, 2006 and 2005, USCG had outstanding general fund receipt receivables due to the
Treasury General Fund of $10 million and $15 million, respectively.

USCIS collects user fees from employers for nonimmigrant petitions under two Congressionally mandated
programs. All user fees are collected when the petition is submitted. USCIS retains a portion of the fees to
fund specific program expenses and transfers the remaining balance to other Federal agencies.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report             86
Financial Information (Unaudited)



5. Risk Assumed Information
The Department has performed an analysis of the contingencies associated with the unearned premium
reserve for the National Flood Insurance Program (NFIP). That analysis shows unearned premium reserve
is less than the combined values of (i) the estimated present value of unpaid expected losses and (ii) other
operating expenses associated with existing policy contracts. Therefore, the Department can state the
unearned premium reserve will be adequate to pay future losses and other operating expenses associated
with existing policy contracts. However, there is a remote chance that the volume of flood losses in the next
year could exceed the unearned premium reserve.

Our estimate of the present value of unpaid expected losses is based on a loss ratio (losses to premium),
which is then multiplied by the current unearned premium reserve. This loss ratio is derived from the NFIP
actual historical premium, historical losses and historical mix of business, each adjusted to today’s level.
More specifically, historical premiums have been adjusted to reflect the premium levels of the present by
making adjustments for historical rate changes and historical changes in coverage amounts. Historical
losses have been adjusted for inflation, using inflation indexes such as the Consumer Price Index as well
as chain price indexes, to reflect the values that historical losses would settle as if they were settled today.
In addition, the historical mix of business is adjusted to reflect today’s mix of business. Examples of how
the historical mix of business includes proportionately fewer pre-firm policies versus post-firm policies are in
force today. Also, there are proportionately more preferred risk policies in force than in past years.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report             87
Financial Information (Unaudited)



Required Supplementary Stewardship Information (unaudited, see
Auditors’ Report)

1. Stewardship Investments
Due to changes in the DHS organization as a result of the Second Stage Review stewardship investments
information is presented only for fiscal year 2006. Stewardship investments are substantial investments
made by the Federal government for the benefit of the Nation. When incurred, stewardship investments are
treated as expenses in calculating net cost, but they are separately reported as Required Supplementary
Stewardship Information (RSSI) to highlight the extent of investments that are made for long-term benefit.
Fiscal year 2006, investment amounts reported below are an allocation of gross cost based on program
outlays.

                             Summary of Stewardship Investments (in millions)
                                                                                        Research
                                                                         Human             and
              Programs                                                   Capital       Development
              G&T – First Responders Programs                                  $6             $494
              S&T – Research and Development Programs                              -         1,225
              Total                                                            $6           $1,719



2. Investments in Human Capital
These investments include expenses incurred for programs for education and training of the public that are
intended to increase or maintain national productive capacity and that produce outputs and outcomes that
provide evidence of maintaining or increasing national productive capacity. Based on a review of the
Department’s programs, PRE has made significant investments in Human Capital.

      PRE

      First Responders Training Programs: In fiscal year 2006, PRE provided various training initiatives
      to improve the knowledge, skills, and abilities of first responders for prevention, response, and
      recovery. Highlights of performance information include:


            Program                     Performance Measure               FY 2006        FY 2006 Results
                                                                           Target
     Grants, Training, &        Percent of jurisdictions demonstrating      60%               35%
     Exercises                  acceptable performance on applicable
                                critical tasks in exercises using G&T
                                approved scenarios.
     Grants, Training, &        Percent of state and local homeland         90%              61.8%
     Exercises                  security agency grant recipients
                                reporting measurable progress
                                towards identified goals and
                                objectives to prevent and respond to
                                terrorist attacks.
     Grants, Training, &        Percent of participating urban area         90%              64.8%
     Exercises                  grant recipients reporting measurable
                                progress made towards identified
                                goals and objectives to prevent and
                                respond to terrorist attacks.
     Grants, Training, &        Average percentage increase in              38%               27%


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report               88
Financial Information (Unaudited)



            Program                     Performance Measure               FY 2006        FY 2006 Results
                                                                           Target
     Exercises                  Weapons of Mass Destruction (WMD)
                                and other knowledge, skills, and
                                abilities of state and local homeland
                                security preparedness professionals
                                receiving training from pre and post
                                assessments.



3. Investments in Research and Development

These investments represent expenses incurred to support the search for new or refined knowledge and
ideas and for the application or use of such knowledge and ideas for the development of new or improved
products and processes with the expectation of maintaining or increasing national productive capacity or
yielding other future benefits. Based on a review of the Department’s programs, S&T has made significant
investments in Research and Development.


      S&T

      Research and Development Programs: In fiscal year 2006, S&T sponsored several research and
      development programs to advance the science and intellectual capacity needed to support the
      Department’s mission. Highlights of performance information include:

            Program                    Performance Measure              FY 2006 Target     FY 2006 Results
     Threat Awareness          Average of expert reviews of                   7                   7
     Portfolio                 improvement in the national
                               capability to assess threats of
                               terrorist attacks.
     Explosives                Cumulative number of air cargo and             4                   5
     Countermeasures           rail passenger explosives screening
                               pilots initiated.
     Rapid Prototyping         Number of prototypes delivered                 4                  17
                               through DHS funded projects
                               through Technical Support Working
                               Group (TSWG), Rapid Technology
                               Application Program (RTAP) and
                               Small Business Innovation
                               Research (SBIR) program.
     Standards                 Number of Department of                       15                  15
                               Homeland Security official technical
                               standards introduced.
     Standards                 Percent of standards introduced
                               that are adopted by Department of
                                                                            67%                 92%
                               Homeland Security and partner
                               agencies.
     Biological
     Countermeasures           Number of bioaerosol collectors
                                                                             223                198
                               deployed in the top threat cities.

     Counter Man-              Increase in Mean Flight Hours                1,100                 0
     Portable Air Defense      Between Failure (MFHBF) from
     System (MANPADS)          Phase II to Phase III.
     Counter Man-              Number of operational flight hours            300                  0
     Portable Air Defense      of Counter-MANPADS system
     System (MANPADS)          conducted in a commercial aviation



Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                89
Financial Information (Unaudited)



            Program                   Performance Measure              FY 2006 Target    FY 2006 Results
                               environment.
     University Programs       Percent of peer review adjectival            78%              54.3%
                               ratings on University Programs’
                               management and research and
                               education programs that are very
                               good or excellent.
     Chemical                  Percent completion of an effective           25%               25%
     Countermeasures           restoration capability to restore key
                               infrastructure to normal operation
                               after a chemical attack.
     Interoperability &        Percent of grant programs for public        100%              100%
     Compatibility             safety wireless communications that
                               include “SAFECOM” Federal
                               standards-approved grant guidance.
     Interoperability &        Percent of states that have initiated        26%               26%
     Compatibility             or completed a statewide
                               interoperability plan, such as the
                               Statewide Communications
                               Interoperability Plan (SCIP).




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report           90
Report Distribution




      Department of Homeland Security

      Secretary
      Deputy Secretary
      Chief of Staff
      Deputy Chief of Staff
      General Counsel
      Executive Secretariat
      Director, GAO/OIG Liaison Office
      Assistant Secretary for Policy
      Assistant Secretary for Public Affairs
      Assistant Secretary for Legislative and Intergovernmental Affairs
      Under Secretary, Management
      Chief Financial Officer
      Chief Information Officer
      Chief Security Officer
      Chief Privacy Officer

      Office of Management and Budget

      Chief, Homeland Security Branch
      DHS OIG Program Examiner

      Congress

      Congressional Oversight and Appropriations Committees, as appropriate
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
and caller.
